<html>
<title> - 2007 SOUTHERN CALIFORNIA WILDFIRES</title>
<body><pre>[Senate Hearing 110-262]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-262
 
                   2007 SOUTHERN CALIFORNIA WILDFIRES 

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                    NOVEMBER 27, 2007--SAN DIEGO, CA

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                     U.S. GOVERNMENT PRINTING OFFICE

40-407 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001























                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee
                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Department of the Interior, Environment, and Related 
                                Agenics

                 DIANNE FEINSTEIN, California, Chairman
ROBERT C. BYRD, West Virginia        WAYNE ALLARD, Colorado
PATRICK J. LEAHY, Vermont            LARRY CRAIG, Idaho
BYRON L. DORGAN, North Dakota        TED STEVENS, Alaska
BARBARA A. MIKULSKI, Maryland        THAD COCHRAN, Mississippi
HERB KOHL, Wisconsin                 PETE V. DOMENICI, New Mexico
TIM JOHNSON, South Dakota            ROBERT F. BENNETT, Utah
JACK REED, Rhode Island              JUDD GREGG, New Hampshire
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee
                           Professional Staff
                            Peter Kiefhaber
                              Ginny James
                             Rachel Taylor
                             Scott Dalzell
                             Chris Watkins
                       Leif Fonnesbeck (Minority)
                        Rebecca Benn (Minority)
                         Calli Daly (Minority)

                         Administrative Support
                         Katie Batte (Minority)






















                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Dianne Feinstein....................     1
Opening statement of Senator Wayne Allard........................     4
Statement of Bob Filner, U.S. Representative from California.....     5
Statement of Elton Gallegly, U.S. Representative from California.     6
Statement of Scott Peters, council president, Chair on the City's 
  Committee on Rules, Open Government, and Intergovernmental 
  Relations, and on the Budget and Finance Committee.............     8
Statement of Tracy Jarman, chief, San Diego Fire and Rescue......    10
Statement of Ron Roberts, chairman, San Diego County Board of 
  Supervis- 
  ors............................................................    11
    Prepared statement...........................................    13
Statement of Dennis Hansberger, supervisor, San Bernardino County 
  Board of Supervisors...........................................    15
Statement of Bill Campbell, supervisor, Orange County Board of 
  Supervis- 
  ors............................................................    17
    Prepared statement...........................................    19
Statement of Mark Rey, Under Secretary for Natural Resources and 
  Environment, U.S. Department of Agriculture....................    29
    Prepared statement...........................................    32
Statement of Nancy Ward, Director, Region 9, Federal Emergency 
  Management Agency..............................................    35
    Prepared statement...........................................    37
Statement of Ruben Grijalva, director, California Department of 
  Forestry and Fire Protection...................................    40
    Prepared statement...........................................    42
Statement of Kim Zagaris, chief, Fire and Rescue Branch, 
  Governor's Office of Emergency Services........................    50
    Prepared statement...........................................    52
Statement of Jeff Bowman, fire chief, San Diego Fire-Rescue 
  Department.....................................................    60
Statement of Skip and Linda Miller, victims in the San Diego 
  fires..........................................................    73
Statement of Steve Poizner, commissioner, California Department 
  of Insurance...................................................    75
Statement of Joe W. Carver, chief executive officer, San Diego/
  Imperial County American Red Cross.............................    78
    Prepared statement...........................................    80
Statement of Eric Larson, executive director, San Diego County 
  Farm Bureau....................................................    81
    Prepared statement...........................................    83
Statement of Dr. Jon Keeley, Research Ecologist, Western 
  Ecological Research Center, U.S. Geological Survey, Department 
  of the Interior................................................    84
    Prepared statement...........................................    86
Prepared statement of Senator Barbara Boxer......................    97


                   2007 SOUTHERN CALIFORNIA WILDFIRES

                              ----------                              


                       TUESDAY, NOVEMBER 27, 2007

                           U.S. Senate,    
Subcommittee on Department of the Interior,
                 Environment, and Related Agencies,
                               Committee on Appropriations,
                                                     San Diego, CA.
    The subcommittee met at 9:30 a.m., in the City 
Administration Building, San Diego, California, Hon. Dianne 
Feinstein (chairman) presiding.
    Present: Senators Feinstein and Allard.
    Also present: Congressmen Filner and Gallegly.


             opening statement of senator dianne feinstein


    Senator Feinstein. I'd like to introduce myself. My name is 
Dianne Feinstein, and I represent California in the Senate. 
Today, this is a hearing of the Senate Appropriations 
Subcommittee, the Interior Subcommittee.
    The purpose of the hearing is to discuss the fires and 
hopefully take back to Washington with us some thoughts and 
ideas that we might be able to put into action to be of help. 
I'd like to take a moment and just thank the city council. 
These are very noble accommodations, and we thank you very much 
for the use of them.
    I'd also like to recognize the various members that have 
joined me this morning. First and foremost, of course, is 
Senator Wayne Allard on my immediate right. He is the Interior 
Subcommittee's distinguished ranking member.
    As a senior Senator from Colorado, Senator Allard is well-
versed in wildland fire issues, particularly as they relate to 
the wildland-urban interface. I know he's going to be a 
valuable resource to me and to this subcommittee as we work to 
address the problem.
    I really do appreciate your willingness to come to 
California for this hearing.
    Senator Allard. Thank you.
    Senator Feinstein. I also want to welcome Representative 
Elton Gallegly, who's sitting on Senator Allard's right, from 
the 24th congressional district. Congressman Gallegly 
represents much of Ventura and Santa Barbara Counties, which 
was hard hit by recent fire.
    Over an 18-day period from October 20 to November 6, more 
than 20 fires ravaged our State, burning over a half a million 
acres from Santa Barbara County to the United States-Mexican 
border.
    I see we are just joined by Bob Filner, who has represented 
California's 51st Congressional District since 1992. His 
District includes the southern half of the City of San Diego. 
So he is not only at home here, but he's also well familiar 
with the problems of the area. Thank you very much, Bob, for 
being here today.
    Well, back to basics. These fires were responsible for 10 
deaths, 139 injuries. They destroyed 2,180 homes, damaged 
another 385, and forced the evacuation of more than 950,000 
people. That was the largest evacuation of California history.
    They caused nearly $1.5 billion of damage and cost Federal, 
State, and local governments nearly $200 million to contain. By 
any measure, this was a disaster of monumental proportions.
    Over this past weekend, we saw even more fire. This time, 
it was the Corral Canyon fire in Malibu. That fire started 
early Saturday morning and has burned nearly 5,000 acres. It 
has destroyed 53 homes and damaged another 34.
    CAL FIRE has had to deploy 1,156 firefighting personnel, 
163 fire engines, and one helicopter.
    As a matter of fact, I was talking to a friend who was in 
Mendocino over the Thanksgiving holiday, and he said a member 
of his family, during the holiday lunch, who was a volunteer 
for the Mendocino Fire Department, got a call and left 
immediately to come down here. So you might say, in terms of 
mutual aid, this fire has affected the entire State.
    Luckily, no one has been killed as a result of the fire, 
but eight firefighters have been injured so far. Unfortunately, 
what happened in October and what's happening in Malibu right 
now is not the first time California and its people have been 
subjected to these kinds of fire catastrophes, nor, I believe, 
will it be the last.
    Ours is a tender, dry State, made all the worse through 
sustained drought and the very real effects of global warming 
climate change. We are seeing fires that burn hotter, longer, 
and with greater ferocity.
    So, as we look back on the recent fires, and as we work to 
analyze what went right and what went wrong, it's not good 
enough to simply say, ``Well, thank goodness that's over.'' We 
need to be ready for the next round. We need to be better 
prepared. We need to honestly assess our strengths and 
weaknesses at all levels of government. We need to begin to 
take action.
    At the Federal level, I've introduced a series of four 
bills. I want to briefly mention them. The first is a model 
ordinance called a Fire Safe Community Act. This would bring 
together authorities to create what would be a model ordinance.
    Now, local jurisdictions have complete control over 
planning and zoning and the enactment of these kinds of 
ordinances. We'd also have a $25 million grant program to help 
communities implement a model ordinance, if they chose to.
    We would authorize $15 million annually for grants to 
States on a 50/50 cost-share basis to create or update fire 
hazard maps, and communities adopting model ordinances would be 
eligible for up to 90 percent reimbursement of firefighting 
costs. That's up from what is 75 percent today.
    This bill would authorize the Forest Service to administer 
$35 million in grants to communities for fire safe practices, 
and the Interior Department would administer $15 million of 
such grants.
    The third bill is a Mortgage and Rental Disaster Relief 
Act. This would make mortgage and rental assistance available 
to qualified individuals. Assistance would be administered by 
FEMA, available for up to 18 months, in communities designated 
by the President as disaster areas.
    It would establish certain qualifications. Victims would 
have to show they've suffered significant financial hardship. 
We would set income limits to ensure aid goes to the most in 
need.
    The limit we have put in this is $100,000 gross income, but 
that could be changed. These are, in effect, bills in progress. 
A Disaster Rebuilding Assistance Act, which would provide 
assistance to disaster victims whose insurance policies do not 
provide enough money to cover rebuilding costs.
    California Insurance Commissioner Steve Poizner, who will 
be testifying today, estimates that as many as 25 percent of 
California's wildfire victims may, in fact, be underinsured. So 
a key component of this bill would be to boost the limit that 
FEMA now provides, which is $28,000, to $50,000.
    The final one is a bill that is actually Mary Bono's bill 
in the House of Representatives, which would have a--require 
States to create statewide registries for arsonists. There is 
currently no statewide registry for people who commit these 
kinds of terrible arson fires. This sets up a protocol to do 
that.
    Now, we have put money in the Interior budget wherever we 
possibly could for firefighting. As long as I'm chairman of 
this subcommittee, I will continue to do that. Now, with 
Senator Allard's help, because he comes from a fire-prone 
State, I would estimate that we will continue our work along 
this line.
    I want to just make a comment about San Diego, and then 
turn to Senator Allard, if I might. San Diego is a great county 
and it continues to grow, but it lags the rest of the State and 
the Nation in funding its fire services.
    The city of San Diego's Fire Department has roughly 35 
percent fewer firefighters per thousand residents than average 
for large cities in the United States. Of the seven largest 
counties in California, San Diego County is the only one 
without a unified countywide fire department.
    I'm sorry to say, but I believe the city has under-funded 
its fire services for years, and we will hear more about that 
in this hearing.
    The national standard is for a fire department to arrive at 
90 percent of its emergency calls within 5 minutes. San Diego's 
department meets this 5-minute standard 47 percent of the time.
    The national standard for staffing is one firefighter per a 
thousand residents. San Diego has .69 firefighters per thousand 
residents, or one firefighter per 1,469 residents.
    By comparison, my city, San Francisco, has one firefighter 
for 421 residents. Phoenix has one firefighter for 997 
residents. The city of Los Angeles has one firefighter for 
1,126 residents.
    According to the accrediting agency, San Diego needs 22 new 
fire stations and as many as 800 more firefighters. I think 
this is something in this climate, again, of increasing 
wildfire, of expanding home subdivisions into patterns of Santa 
Ana winds and wildfire patterns.
    I think this deserves further attention. I say this not as 
someone that's a U.S. Senator talking down to anybody. I've 
been a mayor for 9 years and a county supervisor for 9 years.
    I put all my eggs in the basket of local government. I 
think that's where people want their government and that's 
where they want government to respond to keep people safe. The 
two departments that are always the most critical are the fire 
services and the police services of any city or any county.
    I'd like now to turn to Senator Allard for any opening 
comments he'd like to make, and then I'll introduce the 
witnesses, unless the other representatives have comments, 
which is fine. Senator?


               opening statement of senator wayne allard


    Senator Allard. Well, thank you very much, Chairwoman 
Feinstein. I want to thank you for allowing me to join you, 
inviting me to join you here for this hearing.
    You have been most gracious during our brief stay here in 
San Diego area, and we want to thank you for that. I want to 
thank you on behalf of my staff for your graciousness and 
whatnot. The people of San Diego have been particularly 
gracious to us, and we're forever thankful of that.
    I very much look forward to working with you for the 
remainder of my tenure in the Senate on the many issues that 
come before this important committee. This is my first hearing 
as ranking member on the Interior Appropriations Subcommittee. 
It is a real pleasure to have the opportunity to visit your 
beautiful State.
    Senator Feinstein. Thank you.
    Senator Allard. The main issue before us today is 
increasingly large fires in the wildland-urban interface, and 
how we can best protect our communities from this growing 
threat.
    As I watched the terrible images of the wildfires here in 
the San Diego area on television, it brought back memories for 
me of some of the catastrophic wildfires that we've had in the 
State of Colorado. These fires have devastating impacts on 
people's lives and on our forests.
    I remember vividly the Hayman fire in 2002, which was the 
largest fire in the history of the State of Colorado. It burned 
more than 138,000 acres, destroyed numerous homes, and scorched 
the Upper South Platte Watershed, which delivers 80 percent of 
Denver's drinking water.
    So I've seen the incredible damage that these enormous 
wildfires can do firsthand. I look forward to working with you, 
Senator Feinstein, to address this issue. I'd also like to 
thank all the witnesses who have agreed to take part in this 
hearing.
    One can easily see by the distinguished group that have 
chosen to participate here today, including the chairman of the 
San Diego County Board of Supervisors, the president of the 
City Council, USDA's Under Secretary of Natural Resources in 
the Environment, and the Region 9 Administrator of FEMA, that 
the problem of wildfire in the urban interface is one that will 
require a coordinated effort at all levels of government.
    Since this subcommittee has jurisdiction over the budgets 
of the Forest Service and the Department of the Interior, we've 
been keenly aware of the skyrocketing costs of fire suppression 
at the Federal level.
    These costs seem to escalate virtually every year, whether 
we have what's considered a normal fire year, in terms of acres 
burned, or whether we have a catastrophic year.
    For example, the budget for fire suppression at the Forest 
Service has grown from $418 million as recently as fiscal year 
2003 to a proposal for our 2008 budget of $911 million. That's 
a 118 percent increase in just 5 years.
    Over this same period of time, we've also spent roughly 
$2.5 billion on fuels reduction between the Forest Service and 
the Department of Interior. In spite of these increased 
expenditures on preventing wildfire, suppression costs are 
simply not coming down.
    We've also seen more and more catastrophic fires that have 
destroyed homes and property and cost many firefighters their 
lives. The witnesses we have before us today give us a unique 
opportunity to examine not only what is happening at the 
Federal level to drive up these fire suppression costs, but how 
Federal, State, and local governments can better coordinate to 
protect our communities.
    I hope that we are able to discuss a number of issues here 
today, such as are we allocating our hazardous fuel reduction 
dollars to the areas of highest priority to prevent fires from 
destroying lives and property?
    How can the Federal firefighting agencies better coordinate 
with their counterparts at the State and local level to provide 
the greatest level of protection for local communities? Or what 
is the impact of the increasing residential and commercial 
development in areas adjacent to fire-prone ecosystems?
    Finally, what can local governments due through zoning, 
educational programs for homeowners, and enhancing their own 
local firefighting capability to provide better fire protection 
for their residents?
    Again, thank you, Chairwoman Feinstein, for holding this 
hearing today. I look forward to the hearing testimony from the 
witnesses and to asking some questions later on in the hearing.
    Senator Feinstein. Thank you very much, Senator. 
Congressman, do you have a comment?


      statement of bob filner, u.s. representative from california


    Mr. Filner. Just very briefly. Thank you for being here. 
Thank you for holding this hearing. We flew out together on Air 
Force One, and I know how, personally, you're concerned about 
this, and we welcome you.
    Several of us have been on this platform under different 
situations. I see Supervisor Roberts has moved up to District 
3. I've moved up to city clerk, so we've come a long way.
    You had some very realistic comments about San Diego. We 
needed someone from outside to say those things. It's budget-
wise a very difficult thing, but I think you've laid out the 
goal for us. I've read your legislation. It's very good. It'll 
put us in a proactive position.
    Again, thank you so much, you and Senator Allard, for 
coming to San Diego. Our former colleague in the House, 
Senator, thank you for joining us.
    Senator Feinstein. Thank you, Representative Filner. 
Representative Gallegly?


    statement of elton gallegly, u.s. representative from california


    Mr. Gallegly. Thank you very much, Senator. I'd like to 
make a brief opening statement and without objection, would 
like to have my full statement made a part of the record of the 
hearing.
    Senator Feinstein. That will be the order.
    Mr. Gallegly. Thank you very much for inviting me, Senator 
Feinstein, and also, my good friend, Wayne Allard from 
Colorado. Thank you for allowing me to be a part of this 
hearing.
    Wildfires have always been a part of life in southern 
California and across the entire West, but we've only been 
fighting them for the past century. Now, these fires are 
becoming more and more frequent and increasingly devastating.
    Before last month's fires and the fire in Malibu this past 
weekend, more than 600,000 acres of Federal land and more than 
100,000 acres of State lands had burned. Last year, less than 
half of that amount had burned across the entire West.
    The Zaca fire that started in Santa Barbara County in my 
District on July 4 consumed over 240,000 acres. The fire was 
declared controlled on October 29, less than a month ago. Even 
now, smoke can be seen from pockets of the fire still burning.
    Because the cost of fighting the fire grew to more than 
$118 million, and that's the cost of the firefighting, not the 
damage done, officials are waiting for the winter rains to 
hopefully completely extinguish the fires, inasmuch as that 
we're fortunate; no structures or lives are threatened.
    This past weekend, yet another fire burned through Malibu, 
as Senator Feinstein mentioned. This is the second major fire 
in this area in the last month.
    While only 4,000 acres burned this time, the overall cost 
of the fire will likely equal or possibly exceed the cost of 
the Zaca fire, particularly since more than 50 homes were 
destroyed and a number of other structures, as well.
    Since we can't completely prevent fires from occurring, 
it's imperative that we provide firefighters with all the 
support they require. Wild firefighting accounts should be 
increased and the necessary tools should be available, whether 
it be fire engines, smoke-jumper teams, or more MAFFS units. 
That's the Modular Air FireFighting Systems that we put in our 
C-130s.
    Congressman Duncan Hunter, Congressman Jerry Lewis, and I 
wrote a bill that authorized funding for the development of 
these new MAFFS units over 14 years ago. We appropriated the 
funding for these units over 8 years ago, but they're still not 
available.
    While I've been assured by the Forest Service, the National 
Guard, and the military commanders of NORTHCOM that these new 
MAFFS systems, MAFFS Systems 2, will be ready by the end of May 
of this next year, I would like to work with everyone here to 
see that this really happens and comes to fruition.
    I don't want to continue to be relying on planes coming 
from Peterson Air Force Base in Senator Allard's State of 
Colorado, when Colorado may have the same fire problems as 
southern California at the same time.
    We were fortunate in my District and in Ventura County and 
in Santa Barbara County to be spared much of the property 
damage seen around here. But from the scene at Qualcomm Stadium 
to the seemingly orderly evacuations to the quick provision of 
supplies, I don't think that officials could have done a much 
better job.
    I can't say enough about the job that was done across the 
State, and to commend all of those for their response to this 
disaster. Thank you very much, Senator Feinstein. Thank you 
very much, Senator Allard. I look forward to hearing testimony 
from all of our witnesses today, and I yield back.
    Senator Feinstein. Thank you very much, Congressman 
Gallegly. Your commendation of all the firefighting forces, I 
think, is entered into by all of us. Thank you very much for 
those words.
    Now, I'd like to introduce our distinguished panel. I will 
introduce all of them at one time, and then, if we could go 
right down the line. We have, from many of you, written 
remarks, which will go into the official record of the 
committee, but I'd like to ask that you summarize with your 
thoughts and ideas, and try to limit it to 5 minutes so that we 
can have a good Q and A period.
    I'll begin by introducing Scott Peters. He is the council 
president of the city of San Diego. In November 2005, the city 
council unanimously selected him as the city's first council 
president. He was elected to the city council in 2000 and 
reelected in 2004, representing the city's first council 
district, covering the northwest part of the city.
    As council president, Peters serves as Chair on the city's 
Committee on Rules, Open Government, and Intergovernmental 
Relations, and on the Budget and Finance Committee.
    Next is Tracy Jarman. She is the chief of the city of San 
Diego Fire and Rescue. She was appointed fire chief for the 
city on June 26, 2006. Since joining the San Diego Fire Rescue 
Department as a firefighter in 1984, she progressed up through 
the ranks of the department and became the assistant fire chief 
in May 2003.
    As the assistant chief, Jarman was responsible for 
logistics areas of the department for all fire, emergency 
medical, and lifeguard services, including personnel, budget, 
fleet, facilities, fire prevention, dispatch, and information 
technology services.
    She holds a fire science degree, a bachelor's degree, a 
master's degree, and she's certified by the State of California 
as a fire officer and a hazardous materials specialist.
    Next is Ron Roberts. He is the chairman of the San Diego 
County Board of Supervisors. I, for one, heard him on the air 
during the fire and thought he did an excellent job, reassuring 
people in a very calm and deliberate manner.
    I'm very grateful to him because yesterday, he joined us, 
Senator Allard and I, in a meeting with the--well, General Wade 
of the National Guard and other military personnel with respect 
to the protocols governing military firefighting assets.
    I think it was a very useful meeting and Supervisor Roberts 
made some very good suggestions. He is serving his fourth term 
on the San Diego County Board of Supervisors and he serves as 
the board's chairman.
    Before entering public office, he was an architect for 
nearly 20 years, most of which were spent as managing partner 
of a large, San Diego-based architectural firm, with offices 
here and in San Francisco. After serving two terms on the San 
Diego City Council, he was elected in November 1994 to 
represent the 4th District on the San Diego County Board of 
Supervisors.
    Next is Dennis Hansberger, San Bernardino County 
Supervisor. He was elected to the 3rd District of the San 
Bernardino County Board of Supervisors on November 5, 1996. He 
served as vice chairman of the Board from 1996 to 1998, was 
sworn in for a second term as supervisor in December 2000, then 
served as vice chair of the board from 2000 to 2002, and as 
chairman of the board from 2003 to 2005.
    Supervisor Hansberger won his reelection campaign in March 
2004, and was sworn in for another 4-year term. He was also a 
member of the board of supervisors from 1972 to 1980 and served 
as chairman of the board from 1975 to 1977. So he is an old 
hand at boards of supervisors.
    Finally, Bill Campbell, Orange County Supervisor. First 
elected to the Orange County Board, 3rd District, in January 
2003. After serving the remainder of a vacated term, he was 
elected to his first full term in March 2004.
    He was first elected chairman of the board by his 
colleagues in January 2005, and for a second term as chairman 
of the board in January 2006.
    The 3rd District includes the cities of Anaheim, Brea, 
Irvine, Orange, Tustin, Villa Park, and Yorba Linda, as well as 
the unincorporated areas of North Tustin, Orange Park Acres, 
and Orange County' canyon communities.
    He served in the California legislature as an assembly 
member from 1996 to 2002. Welcome, chief, and gentlemen, it's 
great to have you here. If we can, we'll begin with the 
president of the city council and go right down the line.
STATEMENT OF SCOTT PETERS, COUNCIL PRESIDENT, CHAIR ON 
            THE CITY'S COMMITTEE ON RULES, OPEN 
            GOVERNMENT, AND INTERGOVERNMENTAL 
            RELATIONS, AND ON THE BUDGET AND FINANCE 
            COMMITTEE
    Mr. Peters. Thank you very much, Madam Chair, and committee 
members. I want to thank you for being here today and coming to 
San Diego so that we could have this here.
    I want to also let people know that Mayor Sanders is 
addressing the California Transportation Committee this morning 
in Sacramento and is unable to be here, so I'm pleased to 
represent the city this morning.
    I'm going to observe your 5-minute request and just give 
you a little background on San Diego. First, our unique 
topography and series of canyons that we love as an urban 
recreational amenity also leave urban areas vulnerable and 
require a citywide fire response and prevention strategy.
    In the city, we have roughly 900 linear miles of canyons 
that link urban areas to the back country and reach deep into 
the heart of our urban core. I, and I think all San Diegans, 
are extremely proud of the response of our firefighters to the 
problems that we had this Fall.
    I want you to know that the city of San Diego has strained 
to bring resources to fire prevention and response. We dedicate 
more than half our general fund budget to public safety, 
including $180 million for fire response and brush management.
    In March 2004, on the heels of the devastating Cedar and 
Paradise fires, and still not that long after the attacks of 
September 11, at a time of wide support for first responders, 
the city council placed a measure on the ballot to increase the 
tax on tourists by 2.5 percent, with $20 million to be 
dedicated strictly to public safety.
    Now, the measure received 61 percent of the vote. 
Unfortunately, that falls shy of the two-thirds vote required 
by our State law, and so it failed. A subsequent tourist tax 
that wasn't earmarked that only required 50 percent of the vote 
also failed later that year.
    Now, even without these additional tax revenues for public 
safety, the city has added nearly $57 million in additional 
funds to public safety staffing, equipment, and resources since 
the 2003 Cedar fire, including over $2 million for brush 
management.
    This is still well short of what's needed to properly 
manage the fuel load in San Diego, and maybe the chief can give 
you some more details on that. But fire officials estimate it 
will take $6 million over 2 years just to catch up on brush 
management.
    The city council did add substantial funds this year in 
advance of the fires, because we saw these kinds of conditions, 
but again, not nearly what's needed.
    Clearly, this is one area where the Federal Government 
could help. Access to Federal funds to properly manage fuel 
loads before a wildfire can help reduce the need for major 
disaster assistance afterward.
    Beyond direct funding, however, the Federal Government can 
also assist with building and zoning incentives. In the wake of 
the 2003 fires, the city council approved a number of building 
code changes to mandate defensible space around homes and fire-
safe building materials on new and newly-renovated homes on the 
urban wildland interface.
    Those new brush management regulations are effective 
throughout the city, except in the coastal zone, where San 
Diego continues to face regulatory and other limits on brush 
management. Specifically, we'e still been unable to obtain the 
required brush approval from the California Coastal Commission 
for the city's brush management strategy in the coastal zone.
    However, these new building codes obviously affect new 
construction and new renovations, so that the thousands of 
existing homes on the interface are not covered by the 
regulations.
    Our partners at the Federal level could help here, too, by 
maybe offering incentives to homeowners to replace old shake 
shingled roofs and retrofit their homes with fire-safe 
materials, such as boxed eaves and residential sprinkler 
systems.
    Finally, with respect to zoning and planning in the city of 
San Diego, we have very little land that is not built on or 
entitled for development. Our general plan, which we are 
updating this year, emphasizes rebuilding existing urban areas, 
and should work to discourage sprawl development in the future.
    However, countywide efforts to limit sprawl into the 
backcountry outside of the city have been difficult. 
Specifically, two measures failed at the countywide ballot that 
would've required large lot zoning in the backcountry in 1998 
and 2004. I know the county is dealing with these issues in its 
general plan update.
    But a number of parties, including the Farm Bureau, have 
been effective and outspoken in defending--and perhaps 
justified in defending the ability of rural landowners to 
develop their land.
    Again, the Federal Government could help provide assistance 
and incentives to address the economic forces that lead to 
undesirable over-development in rural areas, loss of 
agricultural lands, and thereby, additional exposure of homes 
and citizens to wildfires.
    Finally, Senator, I just want to congratulate you on 
particularly the Model Safe Community Act. I think that would 
be a terrific way for us to break through what--a discussion 
that's happening, perhaps very inefficiently, at local levels 
throughout the country in these areas where we have wildfire 
exposure, and could really maybe provide us a vehicle for 
getting it done right, with the agreement of the number of 
interests, which, as you know, is always difficult to put 
together.
    I also think it's quite appropriate to ask of local 
governments that they do their part, particularly from a 
regulatory perspective, before they ask for assistance. So if 
we had the rules we could enact, I think we'd welcome that as a 
chance to maybe qualify for higher reimbursements, as you 
suggested.
    So again, those are some thoughts. Thank you very much for 
being here, and look forward to discussion.
    Senator Feinstein. Thank you very much. Appreciate that. 
Before the chief speaks, I'd like to place in the record three 
statements, the first from Dr. Jon E. Keeley of the United 
States Geological Survey of the Department of the Interior, the 
second from Ron Roberts, who is going to testify, the chairman 
of the San Diego Board of Supervisors, and the third from 
Orange County Supervisor Bill Campbell.
    Chief, please proceed.
STATEMENT OF TRACY JARMAN, CHIEF, SAN DIEGO FIRE AND 
            RESCUE
    Ms. Jarman. Thank you, Senator Feinstein and the committee 
members. I appreciate the opportunity to participate in your 
hearing today.
    We also appreciate the interest that you've shown in trying 
to tackle this complex issue in the San Diego region. It's 
really a regional issue. It's going to take a regional solution 
to have the resources on the ground in the first 24 to 48 
hours, which is typically when we lose the most homes.
    Having the 900 linear miles of brush, much of that brush 
has not burned in 50 to 100 years, and it adds to the 
firestorm. So dealing with the fuel reduction and trying to 
figure out a way to tackle that issue is something that we look 
forward to being a part of.
    Not any one agency here in the San Diego region can solve 
this problem. It's going to take all of us working together. 
It's going to take partnership with the State and Federal 
government to solve the issues.
    As the city of San Diego, we look forward to being part of 
that solution, working together, addressing this issue on 
multiple fronts, whether it's fuel reduction, building design, 
fire-safe communities, and additional ground and air resources. 
But we'll need the support of all the agencies to come together 
to solve this problem.
    After the Cedar fire, we thought maybe that was a 100-year 
fire. Going through the Witch Creek fire, I'm here to tell you, 
this is our future. Firestorms are the future of this southern 
California region.
    We cannot tackle this situation alone. It's going to take 
all of us working together. I thank you for bringing us 
together to have this dialogue today. Thank you.
    Senator Feinstein: Thank you, Chief. I was going to say 
President Peters. Excuse me. Ron Roberts, please, supervisor, 
go ahead.
STATEMENT OF RON ROBERTS, CHAIRMAN, SAN DIEGO COUNTY 
            BOARD OF SUPERVISORS
    Mr. Roberts. God, it's been so long, I forgot how to turn 
the mic on here. Senator Feinstein and members of this 
committee, I want to thank you all for being here, and I want 
to thank you for inviting me to be a part of this today.
    It's been 5 weeks now since the San Diego region was hit by 
one of the worst firestorms in California history. It was, as 
I've said before, the perfect firestorm. High winds, low 
humidity, and dry brush, it was a disastrous mixture that took 
a tremendous toll on our region. In total, 368,000 acres were 
charred, upwards of 1,700 homes were destroyed, and most 
tragically, of course, 10 people lost their lives.
    Today, we are a region and we are moving forward. Home 
sites are being cleared of burned-out debris. Building permits 
are being issued, and to the extent it can, a sense of normalcy 
is returning.
    These fires, like the fires that swept here in 2003, will 
teach us a great deal. In fact, they already have. The county 
of San Diego is currently preparing an after-action report that 
will tell us what went right and what didn't.
    There are some things, however, that we already know. We 
know, for example, that the evacuation of more than a half 
million San Diego County residents, while not perfect, worked 
very smoothly. We also know that the timely deployment and the 
use of military aircraft did not, for a variety of reasons.
    Since the 2003 fires, the county of San Diego has invested 
nearly $130 million to enhance our ability to prevent, prepare 
for, and respond to wildfires. We've purchased not one, but two 
firefighting helicopters.
    We've spent more than $20 million to improve our emergency 
communication system, and nearly $40 million was spent to 
remove 417,000 dead, dying, or diseased trees, the very fuel 
that fans wildfires. In fact, we'e one of the only counties, if 
not the only county, to put its own money into this program.
    Because of these efforts, not one road in the entire county 
was blocked by a fallen tree, and Palomar Mountain, among other 
fires, became far more manageable because of these efforts.
    In addition, the county implemented a reverse 9-1-1 system, 
and just before the fires, we put in place a much more 
technologically advanced mass notification system known as 
AlertSanDiego.
    It's available free of charge to any city in our county, 
and it allows people to register their cell phones and their e-
mail addresses, in addition to land lines that they may want to 
receive calls on.
    Using a combination of both these systems, the county of 
San Diego made upwards of 415,000 automated calls to issue 
evacuation, repopulation, and boil water orders. The county of 
San Diego also holds a strong belief that land use and zoning 
policies are extremely important to minimizing the loss of life 
and property.
    Our codes and our ordinances are among the most advanced in 
the State. While evacuation is our preferred method of 
protecting lives, we've also developed a shelter-in-place 
program. In fact, some of our newer communities will have both 
shelter-in-place and evacuation--clearly designated evacuation 
routes.
    We've also adopted policies that require defensible spaces 
around both large and small subdivisions, and in some 
instances, these spaces are in excess of 200 feet.
    For your use, I have brought copies of these ordinances, 
and I'll leave those with you. I think as you review them, 
you'll see that they're significantly different than you might 
find in other areas.
    Senator, I read this morning that you were interested in a 
national building code. We talked a little bit about that 
yesterday. As an architect, I can tell you the elements of a 
strong building code would be fire-resistive roofing, fire-
resistive exterior materials, boxed eaves, perhaps dual-glazed 
windows, and even fire sprinklers.
    Let me share with you--and I brought a copy of that for you 
also--the San Diego County ordinance contains a requirement for 
all of those, including the fire sprinklers. You won't find 
that in many other places, either, so perhaps it'll become a 
model for some of the work that you're engaged in.
    As for what can be done better, I strongly believe that the 
entire process of requesting and deploying military helicopters 
and other aerial support needs to be reviewed. While the fires 
here broke out on Sunday, October 21, it wasn't until the third 
day of the fire that our region saw considerable aerial 
assistance. As the chief said, the first 48 hours are critical.
    While on the topic of aerial support, the issue of 
requiring managers known as spotters on board military 
helicopters need to be resolved.
    This is a safety issue, and I certainly understand that, 
but CAL FIRE, in partnership with the Federal Government, needs 
to ensure that we have trained and made available, enough 
managers so that military helicopters that are capable of 
fighting fires are not left on the ground at these critical 
moments.
    The Governor's Blue Ribbon Fire Commission, which was 
formed after the 2003 fires, recommended strongly that the 
State and Federal agency work together to utilize military 
aerial assets. I'm hopeful this can be done, and done 
assuredly, as soon as possible.
    As we look to the future, we must also consider utilizing 
new technologies that will enable us to fight fires the way the 
military fights wars. These technologies could help us greatly 
when the next fire breaks out.
    Senator, perhaps you could assist us in this regard. For 
example, San Diego-based SAIC has a monitoring system known as 
CAMs. It entails a network of surveillance cameras that could 
be installed in the backcountry and could help us pinpoint 
fires within minutes of their being started.
    In addition, Northrop Grumman has its unmanned aircraft 
that flies at an altitude that is twice that of commercial 
jets, the Global Hawk. It can see through the smoke and could 
survey existing fires, and can determine exactly where the fire 
is and where it's headed.
    This could be coupled to a model of San Diego County and 
could be a great improvement in the way fires are managed 
during the fighting of them.
    Some of this technology was utilized by the military, but 
not until several days into the fires, because it had to be 
sent from out of State. Having such a system, that is locally 
based, either here in San Diego, or in southern California, 
could be of great help to all of us.


                           prepared statement


    In the wake of this disaster, I see an opportunity, and 
there's a tremendous opportunity for our region to become a 
national leader and a model in fire prevention and response. 
It's my desire, and that of my fellow San Diegans, to see that 
this happens.
    We live in a very fire-prone area, but with your help, we 
can minimize the destruction of any future wildfires.
    Again, I want to thank you for being here today.
    Senator Feinstein. Thank you. Thank you, Chairman Roberts.
    [The statement follows:]
                   Prepared Statement of Ron Roberts
    Senator Feinstein, members of the subcommittee, good morning, and 
thank you for inviting me to be here today.
    It has been 5 weeks now since the San Diego region was hit by one 
of the worst firestorms in California history.
    It was, as I have said before, ``The Perfect Firestorm.'' High 
winds, low humidity, and dry brush--it was a disastrous mixture that 
took a tremendous toll on our region.
    All told, 368,000 acres were charred, upwards of 1,700 homes were 
destroyed, and most tragically, of course, 10 people lost their lives.
    Today, we as a region are moving forward: home sites are being 
cleared of burned-out debris, building permits are being issued, and to 
the extent it can, a sense of normalcy is returning.
    These fires, like the fires that swept through here in 2003, will 
teach us a great deal. In fact, they already have. The county of San 
Diego is currently preparing an ``After Action Report'' that will tell 
us what went right, and what didn't.
    There are some things, however, that we already know. We know, for 
example, that the evacuation of more than a half-million San Diego 
County residents, while not perfect, worked very smoothly. We also know 
that the timely deployment and use of military aircraft did not--for a 
variety of reasons.
    Since the 2003 fires, the county of San Diego has invested nearly 
$130 million to enhance our ability to prevent, prepare for and respond 
to wildfires: We've purchased two firefighting helicopters; we've spent 
more than $20 million to improve our emergency communications system; 
and nearly $40 million was spent to remove 417,000 dead, dying and 
diseased trees--the very fuel that fans wildfires. In fact, we're one 
of the only counties, if not the only county, to put its own money into 
this program.
    In addition, the county implemented a reverse 9-1-1 system, and 
just before the fires, we put in place a much more technologically 
advanced mass notification system, known as Alert San Diego, which is 
available free of charge to any city in our county. Using a combination 
of both systems, the county of San Diego made upwards of 415,000 
automated calls to issue evacuation, repopulation and boil water 
orders.
    The county of San Diego also holds a strong belief that land use 
and zoning policies are extremely important to minimizing the loss of 
life and property.
    While evacuation is our preferred method to protecting lives, we 
also have developed a Shelter-in-Place program. In fact, some of our 
newer communities will have both Shelter-in-Place programs and clearly-
designed evacuation routes.
    We have also adopted policies that require defensible spaces around 
both large and small subdivisions.
    In addition, our building codes are already among the strictest in 
the State. In all new buildings, we require non-combustible roofing, 
other fire-resistant exterior materials, fire sprinklers, and dual-
glazed windows just to mention a few.
    As for what can be done better, I strongly believe that the entire 
process of requesting and deploying military helicopters and tankers 
needs to be reviewed. While the fires here broke out on Sunday October 
21, it wasn't until Wednesday October 24 that our region saw any 
considerable aerial assistance from the military. By then, most of the 
damage was already done.
    Unfortunately, the process of securing Federal assistance takes 
days and involves several steps: once the local incident commander 
requests additional support, that request goes to the Joint South 
Operations Center in Riverside. From there it goes to the National 
Interagency Fire Center in Boise, Idaho. And from there, once it's 
determined that there are no other civilian resources available, the 
request goes to the Pentagon. Then, once approved by the Pentagon, 
aircraft can be deployed, but unfortunately, some of these aircraft are 
dispatched from other areas of the country like North Carolina, which 
adds to the time it takes to get these assets into action.
    It would seem that these tankers and copters could be pre-
positioned ahead of a formal request. Nonetheless, the process for 
requesting these resources needs to be streamlined.
    While on the topic of fire helicopters, the issue of requiring 
managers, also known as spotters, to be on board military helicopters 
needs to be resolved yesterday. This is a safety issue, and I certainly 
understand that. But Calfire, in partnership with the Federal 
Government, needs to train and make available enough managers so that 
no military helicopter capable of fighting fires sits by unused--either 
at North Island or Miramar or any other base--due to a lack of 
spotters.
    The Governor's Blue Ribbon Fire Commission, which was formed after 
the 2003 fires, recommended that the State and Federal agencies work 
together to utilize military aerial assets. I am hopeful that this will 
be done--and soon.
    As we look to the future, we must also consider utilizing new 
technologies that will enable us to fight fires the way we fight wars. 
This technology could help us greatly when the next fire breaks out, 
and Senator, perhaps you could assist us in this regard.
    For example, San Diego-based SAIC has a monitoring system known as 
CAMS (Conflagration, Avoidance and Mitigation System). It entails a 
network of surveillance cameras, that could be installed in the back 
country, and could help us pinpoint fires within minutes of starting.
    In addition, Northrop Grumman has what it calls the Global Hawk--
it's an un-manned aircraft that flies at an altitude that is twice that 
of commercial jet planes. It can see through smoke and survey existing 
fires, and can determine exactly where the fire is, where it's headed 
and when it will get there. This information is vital to those calling 
the shots on the ground, and can greatly improve our ability to spot 
fires and stop fires before they grow out of control.
    Some of this technology was utilized by the military, but not until 
several days into the fires because it had to be sent in from out of 
State. Having such a system that is locally-based, either here in San 
Diego or in southern California, could be of great help to us.
    In the wake of this disaster, I see an opportunity--a tremendous 
opportunity for our region to become a national leader and model in 
fire prevention and response. It is my desire, and that of my fellow 
San Diegans, to see to it that this happens.
    Again, thank you for inviting me to be here today

    Senator Feinstein. Supervisor Hansberger.
STATEMENT OF DENNIS HANSBERGER, SUPERVISOR, SAN 
            BERNARDINO COUNTY BOARD OF SUPERVISORS
    Mr. Hansberger. Good morning, Senator Feinstein, Senator 
Allard, and Representatives Filner and Gallegly. Thank you so 
much for being here and coming to all of us with your ideas and 
your ears to try and find better solutions to addressing these 
important issues.
    With me this morning, I also have Assistant San Bernardino 
County Fire Chief, Peter Brierty, who's also our County Fire 
Marshal, if you should have specific questions at a later time, 
and also Lance Larson, our legislative director, who will be 
working with us to assist with our comments involved with the 
legislation you've proposed. We appreciate that very much.
    I've submitted written testimony which, if you don't have 
it yet, hopefully you will receive. Your staff should've 
received it.
    Senator Feinstein. I believe we do have it.
    Mr. Hansberger. Good. I'll try to summarize that briefly. 
First of all, some actions that our county had taken prior to 
the fires. Our county had purchased a battery of type four 
engines, which work very well in our particular area to 
navigate narrow roads, and frankly, we've used them to a 
significant degree to use them for applying gel to structures 
to protect them. We found that they work extremely well.
    Additionally, we have done a great deal of fuel 
modification in areas around our communities, and frankly, had 
a great deal of success with it.
    The losses we sustained in San Bernardino County, while 
extremely devastating to those who lost their homes, over 400 
homes, frankly, we could've lost thousands of homes, had it not 
been for the use of the congressionally-designated funds that 
you and Congressman Lewis and others had participated in 
getting for us to do fuel modification, and we were very 
successful in--that effort was very successful in protecting 
thousands of homes, and no doubt that it worked well.
    Additionally, we have added a significant amount of 
staffing in recent years to all of our fire stations, to give 
each of our stations a prompt response time, particularly in 
some of our smaller communities, where they had been lightly 
staffed in past years.
    Many years ago, I think it was 2002, we actually 
established what we call the Mountain Area Safety Taskforce, or 
MAST, which is really a team made up of all of the agencies who 
are involved in looking at the issues of our mountains, 
including the public utilities, Caltrans, and many others, so 
that we're all working together as a team, and we do indeed 
work as a team.
    That has been an extremely successful effort. One of the 
things we're particularly proud of in San Bernardino County is 
that we no longer simply talk about each other, we talk to each 
other.
    Each of the agencies is a partner, and we really work well 
together, much better than we did some years ago. I'm very 
proud of the effort that our teams have made to do that.
    We've adopted more stringent fire-safe building standards 
following the 2003 fires. We've required fuel modification 
zones. We have applied the standards to existing structures, 
but we still have work to do in that regard.
    We've increased building setbacks, reduced densities. Staff 
is currently reviewing all of our codes to develop recommended 
changes based upon yet our most recent experience. Some of the 
comments that prior witnesses have offered are also issues 
which we believe need to be addressed.
    Our tree removal brush clearance or fuel modification 
program removed over 1 million dead and dying and diseased 
trees, thanks to the efforts of the southern California Edison 
Company, the county of San Bernardino's financial commitment, 
and the congressionally-directed funds that we were able to 
use.
    I was thinking, Senator Allard, I was recently in your 
State and the bark beetle problem there has become acute, as 
well. I really understand that there's a lot of work to be 
done. I was concerned to see the challenge you have in your 
State. Certainly, if we've learned anything that might be 
helpful, we'd be delighted to work with you.
    Let me move quickly then to a couple of other items and our 
response. In 2003, we were among the first to have fires start, 
but in 2007, we were one of the last counties to have our fires 
start, and therefore, it took longer for resources to get to 
us, because they were already dedicated in other areas.
    What we really have learned from this is that we must be 
prepared to rely upon ourselves. Resources will not always be 
available to us, because we don't know where in line things 
will fall. We will simply have to be prepared. We responded 
well. We would like to do better.
    There are economic consequences that go even beyond the 
loss of the homes. In the San Bernardino Mountains, for 
example, it's a mecca for tourists, and yet the negative, but 
unintended negative media coverage by the television and print 
media have long-term business impacts on the local economy for 
months and sometimes years to come.
    People think that it's a nuclear waste zone, that there's 
nothing left. Yet, if you drove through our mountains today, 
you would hardly see any evidence of the fires, except in a few 
specific areas.
    It is for that reason we are working very diligently with 
our partners, and the Board of Supervisors has committed funds 
roughly to a tune of $1 million to try and inform people of the 
health of our economy there and their ability to come and play 
in the wintertime in our San Bernardino Mountains.
    We do hear rumors of insurance companies that may refuse to 
write policies. I know you'll be addressing that in a future--
in another panel. We do hope that you'll give some serious 
consideration to that potential problem that may be ahead of 
us.
    Frankly, we have refined and improved our evacuation and 
repopulation plans. We have refined and improved our building 
construction standards. We've learned a lot from our past 
experience, but we keep learning as we go.
    In conclusion, I'd like to say that we will review, once 
again, our construction standards. We need continued funding 
for maintaining and expanding fuel modification areas for 
keeping the forest healthy.
    We need to improve the resources available to speed the 
economic recovery, and we need to find a way to deal with 
economic consequences beyond the loss of homes.
    We look forward to working with you on the legislation 
you've proposed. I stand prepared to answer any questions you 
may have of us. Thank you, again.
    Senator Feinstein. Thank you very much, supervisor. 
Appreciate it.
    Supervisor Campbell, welcome. It's good to see you again, 
Bill.
STATEMENT OF BILL CAMPBELL, SUPERVISOR, ORANGE COUNTY 
            BOARD OF SUPERVISORS
    Mr. Campbell. Thank you, Senator. It's good to see you, 
Senator Allard. Congressmen Gallegly and Filner, thank you very 
much for being here this morning.
    I represent Orange County's 3rd Supervisorial District, 
which is the district that represents our canyon areas, where 
most of our Santiago fire occurred.
    With me today in the audience is our Orange County Fire 
Authority Chief, Chip Prather. He'd be available for detailed 
questions, if the committee had them, regarding our particular 
fire response.
    Senator Feinstein. Could he stand so--because I think I 
talked with him--or I talked with somebody about some problem 
during the fires. Maybe he's the one. Thank you.
    Mr. Campbell. Yeah, he was everywhere, so you probably did 
speak to him, Senator. Senator, I want to thank you for holding 
the hearings here today. I think it's very important that you, 
at the Federal level, get our insights from the local areas as 
you craft your legislation and determine what best responses 
for the Federal side.
    I do want to also compliment you for the four bills that 
you have either introduced or cosponsored. We very much 
appreciate your work on that.
    I will be discussing the Federal Government's support 
efforts in our fire activity and the recovery activity, making 
suggestions for improvements in the Federal Government's 
response, and describing to you a funding issue, as it relates 
to the preparations for anticipated flooding that will be the 
results from these fires.
    In the committee's information, I have provided an outline, 
which details the fire activities during and after the Santiago 
fire in Orange County. The fire events that occurred here in 
southern California were cataclysmic. No scenarios had 
anticipated the number and intensity of those simultaneous 
fires.
    I think it's important to first compliment the Federal 
Government for providing their Southwest Incident Management 
Team, the Federal Fire Service--those agencies, the U.S. Forest 
Service, FEMA, as well as other resources.
    The Incident Management Team helped augment our fire 
command unit and literally became part of the unified command 
under the National Incident Management System. The FEMA 
personnel first arrived with their mobile unit and then 
personally visited individual homes, both those that were 
destroyed, as well as those who had been evacuated for a number 
of days.
    The Federal agencies have been a tremendous asset. They've 
been professional and skilled in their areas of expertise.
    During the dry, windy weather, there is always the concern 
there could be multiple fires at any given time. But because 
our planning efforts rely on mutual aid from the surrounding 
counties, CAL FIRE, and U.S. Forestry, the response didn't 
happen as quickly as we needed this time, because the resources 
were already being utilized in the surrounding areas for fires 
that had started earlier than ours.
    Our request at this time would be for the Federal 
Government to act more rapidly in moving resources from other 
regions in to fire-prone areas when adverse weather is 
forecasted.
    FEMA presently has a model which, among other things, 
prepositions several urban search and rescue taskforces during 
predicted hurricane events into an expected theater of 
operations. We think this could be applied for fire events 
also.
    Orange County is currently reviewing the resources that we 
control and internally determine if there are additional assets 
or alternative deployments which could improve our response.
    We would also note that the U.S. Forest Service grounded a 
sizable portion of its fleet of air tankers for flight safety 
reasons, and we're told has not acquired air assets to restore 
its fleet capacity, either by purchase or contract.
    We ask that the U.S. Forest Service, with the support of 
the Congress and the President, expedite the acquisition and 
deployment of the air tanker fleet for future fire disasters.
    Post fire recovery efforts in Orange County are underway as 
we speak. The fire disaster burned much of the vegetation on 
our hillsides and canyons, so the county is working with 
Federal and State burn area management response, BAER teams, to 
advise residents on how to prepare themselves for the 
inevitable flooding that will occur during the rains as a 
result of a fire.
    The county is carefully documenting what can be submitted 
for funding reimbursement through the Federal Government. We 
have been told that Orange County is not able to seek full 
reimbursement for specific flood control measures that need to 
be implemented in order to keep our residents safe from a flood 
disaster.
    We have been specifically informed that funding is not 
available for clearing creek beds, detention basins, and flood 
control channels in areas that were not directly affected by 
the fire. We believe that it is shortsighted not to fund 
protective measures needed as a result of these fires.

                           PREPARED STATEMENT

    In conclusion, Orange County is thankful for the Federal 
Government's help during and after the fire. We are requesting 
the Federal Government move resources into fire disaster areas 
earlier when catastrophic events can be occurring.
    We ask that Congress's earlier funding for an air tanker 
fleet be implemented. We ask for the expansion of Federal 
funding to include reimbursement for clearing creek beds and 
flood control channels downstream of the immediate fire area. 
I'd be available for questions also.
    [The statement follows:]
                  Prepared Statement of Bill Campbell
    Good morning Senator Feinstein and Committee members. I'm Bill 
Campbell, member of the Orange County Board of Supervisors. I represent 
Orange County's Third Supervisorial District which includes the Canyon 
areas which were the areas most heavily impacted by the Santiago Fire.
    I want to thank you for holding this hearing to allow local 
officials to provide you with our insights into the recent fire 
disasters here in southern California.
    For the Committee's information, I have provided the attached 
outline that details the fire activities during and after the Santiago 
Fire in Orange County. The fire events that occurred in southern 
California were cataclysmic. No scenarios had anticipated the number 
and intensity of the simultaneous fires.
    I will be discussing the Federal Government's support efforts, 
making suggestions for improvements in the Federal Government's 
response, and describing a funding issue as it relates to the 
preparations for anticipated flooding due to the fires.
    I would like to first compliment the Federal Government for 
providing their Southwest Incident Management Team, the Federal Fire 
service agencies, U.S. Forest Service, FEMA, as well as other 
resources. The Incident Management Team helped augment our Fire command 
unit and became part of the Unified Command under the National Incident 
Management System or NIMS. The FEMA personnel arrived first with their 
mobile unit and then personally visited individual homes. The Federal 
Agencies have been a tremendous asset; they have been professional and 
skilled in the areas of their expertise.
    During dry, windy weather, there is always the concern that there 
could be multiple fires at any given time, but because our planning 
efforts rely on mutual aid from the surrounding counties, CALFIRE, and 
U.S. Forestry, the response didn't happen as quickly as was needed. 
Resources from surrounding areas were fully deployed within their 
immediate fire disaster areas.
    Our request at this time would be for the Federal Government to act 
more rapidly in moving resources from other regions into fire prone 
areas when adverse weather is forecasted. FEMA presently has a model 
which, among other things, pre-positions several Urban Search and 
Rescue Task Forces during predicted hurricane events into the expected 
theater of operations.
    Orange County is currently reviewing the resources that are 
controlled internally to determine if there are additional assets or 
alternative deployments which could improve our response. We would also 
note that the U.S. Forest Service grounded a sizeable portion of its 
fleet of air tankers for flight safety reasons and, we're told, has not 
acquired air assets to restore its fleet either by purchase or 
contract. We ask that the U.S. Forest Service, with the support of 
Congress and the President, expedite the acquisition and deployment of 
an air tanker fleet for future fire disasters.
    Post fire recovery efforts in Orange County are underway as we 
speak. The fire disaster burned much of the vegetation on hillsides and 
canyons, so the County is working with Federal and State Burn Area 
Emergency Response (BAER) teams to advise residents on how to prepare 
themselves for the inevitable flooding that will occur during the rains 
as a result of the fire.
    The county is carefully documenting what can be submitted for 
funding reimbursement through the Federal Government. We have been told 
that Orange County is not able to seek full reimbursement or funding 
for specific flood control measures that need to be implemented in 
order to keep our residents safe from a flood disaster. We have been 
specifically informed that funding is not available for clearing creek 
beds and flood control channels in areas that were not impacted by the 
fire. We believe that it would be shortsighted not to fund protective 
measures needed as a result of the fires.
    In conclusion, Orange County is thankful for the Federal 
Government's help during and after the fire. We are requesting that the 
Federal Government move resources into fire disaster areas earlier when 
catastrophic events occur. We ask that Congress'' earlier funding for 
an air tanker fleet be implemented. And we ask for an expansion of 
Federal funding to include reimbursement for clearing creek beds and 
flood control channels downstream of the immediate fire area.
    I would welcome any questions from the Committee.

    Senator Feinstein. Thank you. Thank you. I was just asking 
about the air tanker fleet issue that you raised, supervisor, 
and we will look into it. Thank you very much.
    I'd like to begin by just saying that the mayor, Jerry 
Sanders, has a very comprehensive statement in the record. That 
statement is both a chronological exposition of the fires as 
they evolved in the city, as well as what has been done.
    I'd like to just point this out, in fairness. The mayor 
points out that the Fire Rescue Department Ready Reserve Fleet 
has increased in size to 18 fire engines, up from three 
reserves available last year. Points out that there are six 
reserve ladder trucks in the fleet.
    He mentions that he proposed to the city council, and the 
council has approved funding to allow for eight new engines, 
nine new engines and five trucks being outfitted or pending 
delivery, three ladder trucks, seven support vehicles, and that 
the budget saw an increase in 2007 and 2008, 8 percent and 6 
percent, respectively.
    He describes the clearance in 1,180 acres of urban 
interface open space property. So there is no question that the 
city is moving. Whether it can move vigorously enough, Mr. 
Peters, to do what it needs to do is the question that I have. 
I wanted to just share with you what I saw. I went to every 
greater alarm fire in the 9 years I was Mayor and tried to in 
the 9 years I was county supervisor, as well.
    It's very interesting, and every area has different kinds 
of fires. San Francisco has a lot of what we call type H 
buildings, which are wood frame, so you need ladders that can 
go up, and you need to work the fire a little differently, I 
think, than, say, Rancho Bernardo.
    But while the President was engaged in Rancho Bernardo, I 
looked around at the fire pattern, and what I saw was a very 
pockmarked pattern of absolute devastation of homes that 
burned. Stucco siding, tile roofs, manicured gardens. Not a lot 
of flora around the homes, but they went down. When they went 
down, they would leave a car untouched in the driveway.
    So it was a very interesting pattern. In places, there was 
a single home. In other places, two or three homes that burned 
to the ground. Well, there are 10,000 units of housing, and one 
fire station. Now, if I lived in that area, I'd be all over the 
city council. Do something. You know? We need more fire 
stations, more people in that area.
    In terms of a much bolder effort, again, has the city given 
any consideration to major ways to fund a number of new 
stations and new personnel, and if so, what are those ways?
    Mr. Peters. Well, let me respond in two ways. One is, we 
thought a lot about what you just said about Rancho Bernardo 
and whether an additional fire station would've made a 
difference in this kind of--these kinds of conditions that 
Chairman Roberts described.
    So that would be an initial question about, really, is that 
something that would have made a difference? I think it's a 
fair question and one we're obligated to answer. I'm not sure 
we know the answer to that yet.
    As I mentioned before, we tried a tax increase to the 
voters on tourists, not even something that San Diegans would 
pay themselves. That got 61 percent of the vote, and we operate 
in a very difficult environment in California, as you know, in 
the wake of Proposition 13, which requires a two-thirds vote 
for these kinds of initiatives.
    So I can't tell you that we're going to be able--if that's 
the reaction of the populous after the Cedar fires to increase 
a tourist tax, I'm not optimistic about the ability to raise 
major revenues to----
    Senator Feinstein. Except it's easy to argue against a 
hotel tax increase for fire protection, because hotel taxes are 
usually reserved for convention centers, cultural events, those 
things that attract tourists to a city.
    Have you looked at funding the capital parts of additional 
fire stations, additional truck companies, from a bond issue, a 
GO bond, and then absorbing the ongoing manpower in a different 
way on the property tax rate?
    Mr. Peters. We have not. I think it's something that we 
should probably raise again. We did get fatigued trying twice 
after the Cedar fires. I think now maybe----
    Senator Feinstein. The third time could be the charm.
    Mr. Peters. Yes.
    Senator Feinstein. I mean, I think people now see that 
there is a pattern. This is not a one-time thing. There is a 
pattern, and everything they hold dear could go. To me, Rancho 
Bernardo was a sign of that, because these houses just 
dissolved, and they took everything with them.
    I had never seen homes burn to the ground quite that way. 
Obviously, the fire wasn't fought. I mean, they were allowed 
to--had to have been allowed to burn. You couldn't get manpower 
there.
    But I think now that you know what's coming in the future--
and Ron Roberts spoke about the boxed eaves. I asked the 
question how did the embers get under these--what appeared to 
be fireproof tile roofs? The answer was the eaves weren't 
boxed, so the embers could be blown under the eave and start 
the fire.
    Mr. Peters. Yours is a fair question, Senator.
    Senator Feinstein. Yes. I'd be very interested in working 
with you and helping in any way we could with any Federal 
response along that area. Supervisor?
    Mr. Roberts. I've got a suggestion.
    Senator Feinstein. Sure.
    Mr. Roberts. If you look--let's talk about wildfires for 
the moment. If you look I think you would--if you did an 
analysis, you'd find that we had a lot of firefighters, because 
they didn't have equipment and they were off-duty, that 
couldn't be engaged in fighting the fires. They have to have 
equipment.
    The Governor's Blue Ribbon Commission, if I recall, one of 
the recommendations was the State Office of Emergency Service 
was to buy a lot of fire engines and put those in departments 
where they could be used in an emergency, and with the 
personnel that, in effect, we have standing by.
    So without a lot of----
    Senator Feinstein. Like a county fire department in your 
district?
    Mr. Roberts. Well, let me stay focused on this for a 
minute. I notice that L.A.'s county fire department hasn't done 
such a hot job, either. So let's stay focused, just for the 
moment.
    But what I'm suggesting to you is that you could, at 
minimal cost, buy fire engines that could be placed in fire 
departments throughout all of southern California, and could be 
used then and on call for those firefighting those wildfires 
that are going to happen on occasion.
    No additional staffing is needed, because what you're 
seeing is we have, at any given time, a lot of firefighters who 
don't have the equipment, and they are basically on standby, if 
the equipment was here--and there was a suggestion in the Blue 
Ribbon Task Commission report that this happened, and if I 
recall, it's only happened in a very, very limited way.
    So with the minimum amount of investment perhaps by the 
State or--and maybe even local government, I think we could 
improve in a dramatic way the capability in any one of these 
areas.
    Senator Feinstein. Well, we should certainly take a look at 
that. I'd be very happy to work with you. Perhaps we could talk 
to the Governor about it and see if it is viable.
    Mr. Roberts. I would love to.
    Senator Feinstein. Thank you. Senator Allard?
    Senator Allard. Thank you. I have a general question for 
the panel, and I'd like to have you respond. I know in some 
areas that I'm familiar with, that there's a number of things 
that are taken into consideration when you're going to have a 
fire station and the number of firemen that you're going to 
have and the number of engines you're going to have. I'm 
interested to know how you come to a conclusion as to how 
you're going to need those.
    I know in Colorado, for example, sometimes the distance or 
the response time between the fire house and a home may impact 
the premium rate on insurance on the home and those kinds of 
things.
    I'd like to hear how much of that builds into your 
thinking. I would think that after some of these catastrophic 
fires, that there could be a response from the insurance 
industry, and they'd look very closely at some of your response 
times to fires. I'd like to hear you comment on that, if you 
would.
    Ms. Jarman. If I could address that. When we went through 
the accreditation study, we looked at the 5-minute response 
time. There were areas within the city of San Diego we had 
trouble getting there in 10 minutes. Mission Valley is one of 
those areas.
    So it's the response times, as well as the square miles. 
The maximum square miles is 9 square miles. Some of our units 
cover more than that. I think that's one of the challenges we 
have in the Rancho Bernardo area.
    So it's not only response times, it's the square miles, and 
then it's the density, trying to keep pace with the density and 
the growth.
    If you consider the downtown area of San Diego or the 
University City area, where the high-rises are rapidly growing, 
we need additional response units close by so we can make a 
quick attack, so we can confine the fire to the room of origin 
and hopefully shelter-in-place versus evacuating the entire 
high-rise.
    Those are some of the areas that we consider. We came up 
with the 22 additional fire stations by looking at that 
situation. Since the Cedar fire, we've opened the fire station 
in Mission Valley.
    We've opened a fire station in Santaluz, and we're 
positioned right now to open a fire station in Pacific 
Highlands Ranch in January, initially with an engine, hopefully 
with a truck company. We're looking at the safer grants to 
hopefully help fund some of those firefighter positions.
    Senator Allard. Any other comment? Yes?
    Mr. Campbell. Senator, perhaps we could ask Chief Prather 
to come forward. We just finished a similar evaluation of the 
entire system, in terms of our needs for additional stations 
and deployment of people, and maybe the chief could give you 
better insight.
    Senator Feinstein. Certainly, certainly. Welcome, chief.
    Mr. Prather. Thank you, Senator. Supervisor Campbell's 
correct. We, like many fire departments in San Diego, as well, 
through the accreditation process, did a deployment study. The 
deployment study takes a look at your risk and then how you 
establish an effective firefighting force to match that risk.
    So it takes a combination of what is there to be served and 
then how much time does it require to get the right numbers of 
resources there?
    In Orange County, we completed that study. Our board 
adopted that. We've added a number of resources. We currently, 
just on a sort of daily basis, our comparison to national fire 
loss data in our county, 65 percent below the national standard 
or results, and about 55 percent lower than the national loss 
of life.
    So it's a dynamic process that you look at the risk, look 
at what it takes to get numbers of firefighters, prevention 
measures, all those things together for a systems approach to 
the demands of the community.
    Senator Feinstein. Thank you very much.
    Senator Allard. Thank you for your comments and thank you 
for your expertise and service.
    Now, in some of the recent disasters, there's also been a 
considerable amount of criticism by State and local officials 
to the Federal response. I think this happens to some degree 
whenever you have a fire that involves Federal agencies.
    What I would be--some of it is correctable, some of it is 
not, but I'd be interested to hear what your specific 
criticisms might be, or maybe compliments you might have, as to 
Federal response to your situation that you had here, around 
the San Diego area in California.
    Mr. Roberts?
    Mr. Roberts. Yeah, I don't know that I would have a lot of 
criticism. I think that we've learned some things. I mean, 
first of all, as was pointed out in your introductory comments, 
you had two of the new firefighting tankers that just weren't 
ready to go that were positioned here in California, and we had 
to bring aerial firefighting resources, basically, from as far 
away as the east coast.
    We've also, in sort of the post-fire discussions, 
identified that there's an unusually long lag time. I think the 
Federal Government and certainly the congressional people that 
we've been meeting with I think have a handle on that, and 
we're going to see that shortening.
    It was between 40 and 48 hours before--from the time you 
said go to the time you could have resources online, which is 
quite a delay, again, as the chief pointed out.
    But I think those things--I mean, I honestly feel that 
those things are being corrected. We'll never have it down to 
as short as we want. I think the pre-positioning that was 
mentioned is extremely important.
    At the time of the year we have our Santa Anas, there 
usually aren't many wildfires in other parts of the country. 
It's a Western phenomenon.
    To have in this instance resources that were in North or 
South Carolina that had to come all the way to California, and 
the lag time, it seems to me that maybe we should be pre-
positioning those, at least in the West, if not directly in 
California. I think that could help us.
    But I would hope that some of the things that I've 
suggested, in terms of using military technology, to which 
there is maybe some resistance among even some of our officials 
here in California, that we could start to look at it 
differently. I think it's just as appropriate in Colorado as it 
is in southern California.
    Senator Feinstein. Yesterday, we discussed--it was 
presented to us that it's the incident commander that makes the 
request for Federal help, and so then it has to kind of go up 
the chain, and there's a period of time.
    Did you think about that, Supervisor Roberts, after we 
heard it? Do you think that's the right person to make the 
request is the incident commander, particularly when fires are 
big and broad and multiple?
    Mr. Roberts. First of all, I think that the reason why we, 
to some extent, have incident commanders, it's because they're 
sort of right there watching what's going on.
    Senator Feinstein. The first to the scene, right.
    Mr. Roberts. Yes. I think that, again, if you had a whole 
different way of knowing where the fire was, as I've described, 
with a Global Hawk or Predator or some other type of eye in the 
sky, I think we would start to organize the way we would fight 
fires in a very different way.
    I think it would have dramatic impact on the role of the 
incident commander, because it would give you a method of 
managing your effort that would be far different than what 
we're doing today. We're kind of locked into the technologies 
that are there right now.
    The incident commander probably is the best person to 
assess. But that person is only seeing a little part of San 
Diego County, a little portion of what may be one of several 
fires going. At the same time he's asking for something, you 
could have a whole series of other people asking for exactly 
the same thing.
    But we do have a unified command, so that it does kick up. 
The final word isn't there, and we've tried to--on a countywide 
basis through our emergency operations center, have really 
tried to funnel that command decision, if you will, in a way 
that is not as incidental as it might appear.
    Mr. Hansberger. Senator----
    Senator Allard. Just--yes?
    Mr. Hansberger. I was going to add, if I may, I don't 
disagree with any of the comments that have been made. I would 
add, however, in terms of--rapid response is always desirable, 
but let's not overlook forest management.
    We are all a victim of or guilty of probably 100 years of 
forest mismanagement and vegetation mismanagement. For all of 
the right reasons, we did all the wrong things. Now, what we 
have to do is do precisely what you, Senator Feinstein, have 
helped to fund, and that is to try to back up and do a lot of 
the right things that we needed to do.
    So it's going to take a long time to get all of our 
vegetation stands to a healthy level, where they are more 
manageable, where they're healthy in their own right and that 
we are managing them well.
    So I want to indicate that I really will have to encourage 
that. The one recommendation I continue to make, and I think 
it's probably almost an impractical one, but truthfully, U.S. 
Forest Service folks, where the Forestry has charged, I frankly 
wish they could be given more authority in their own area to 
act more promptly, and not have to go through so many steps and 
layers to get authorization.
    They're outstanding people with outstanding talents and 
great training, and yet, the system in which they work demands 
approval from region and national, and it takes a long time.
    I'm not sure how to fix it, but I want you to know that I 
think they--we have great cooperation from the local Forest 
Service. I have no complaint about that. But many times, they 
cannot respond as promptly as I think they would like to, had 
they more local authority.
    I do think if you could do something in that regard, they 
can respond more quickly with all of us.
    Senator Allard. Very good comments. I just have one more 
question I'd bring up. I think, your questions, about the 
bureaucracy in the Forest Services is a good comment.
    Locally, there are some things that you may take care of 
that are pretty sensitive, I think, for you to deal with. 
Zoning issues are always sensitive. But have you looked at 
certain areas that you may not allow construction of homes and 
commercial development, and have you looked at incentives for 
homeowners to clear the brush away from their homes and those 
kind of things?
    Then I'll finish with that. Thank you.
    Senator Feinstein. Thank you very much. I'm going to 
recognize Senator Filner and Senator--oh, I'm sorry, I thought 
you said--I didn't hear.
    Senator Allard. I asked a question. I wanted a response, if 
you would--yes, yes. Anybody want to respond?
    Mr. Roberts. First of all, we don't provide incentives. 
Instead of using a carrot, we use a stick. In the county, you 
have to clear away 100 feet minimum, and whether it's on your 
property or not, you have to go on the adjacent property.
    If your house, for instance, is 30 feet from the property 
line, you have to clear 100 feet on the adjacent--70 feet on 
the adjacent property, at a minimum, and in some cases, it's 
more than that.
    We did a lot of brush clearance at no cost to the 
taxpayers. What we find is we basically send crews around that 
enforce this in a very significant way. I think of 7,000 
requests for abatement last year, and I have experts here 
that'll give you the exact number. I think we only had about 
two cases where we had to go in and do the clean-up and then 
find the property owners involved.
    So at that level, it's happening. What we're--our program 
is largely removing the dead trees, and I told you over 
400,000, and over $30 million spent on that effort over the 
last 4 years.
    Senator Allard. Thank you, Senator Feinstein.
    Senator Feinstein. Thank you. We have two more panels, each 
one with five witnesses, so we're going to--I know Senator 
Allard and I both have 2 o'clock planes. So we're going to have 
to move this along.
    Senator Filner--I mean Congressman Filner, and then 
Congressman Gallegly.
    Mr. Filner. I was wondering whether you knew something I 
didn't know yet. Thanks for the promotion.
    Just very quickly, and I want to thank, of course, the 
local representatives. We saw a great cooperation, great skill, 
and the city and county of San Diego coming together in a way 
that was very moving and obviously very effective.
    There were a couple problems I hope you'll include in your 
after-action report that I haven't heard mentioned today that I 
would like to just bring up quickly. The first comes as not 
just a Congressman, but as a consumer. I live in southern San 
Diego County. During the Cedar fires, I was packed to evacuate. 
This time, my wife evacuated.
    But it doesn't seem to me that the average homeowner--even 
with the reverse 9-1-1--knows what they are supposed to do and 
where to go.
    By the way, it was on this very panel that a councilman who 
was a predecessor to Mr. Peters couldn't understand why we had 
a 9-1-1 emergency system, because he couldn't find the 11 on 
the telephone dial. So that's why we've gone to nine-one-one.
    Each of the media do a great job, but the radio stations, 
the TV stations do their own thing. There doesn't seem to be a 
central message to know what communities should evacuate when 
and to where.
    When I packed to evacuate, one station said to do so, 
another station said not to. There ought to be a central 
message that each media can read or scroll of every community 
and what they're supposed to do and where they go.
    I tried to call all the emergency numbers that were given 
out and could never get through. I couldn't get a straight 
answer, and I supposedly knew where to call.
    So the average person, I think, still does not get adequate 
information. That's number one.
    Number two, I know I see representatives from SDG&E here to 
protect their interests, I guess. I wouldn't want them to go 
away disappointed that we didn't mention them.
    Several of the fires seemed to be caused by power lines 
falling. I hope there's some investigation. I saw the city 
attorney here. I know he doesn't need new things to 
investigate. But what was the cause of that? I mean, was there 
adequate clearance? Were the laws obeyed? Do we need more 
regulation on that?
    There were severe problems caused by those falling utility 
lines, and I don't know that we have proper safety measures 
there.
    Third, our city is very ethnically diverse. I represent a 
district that's 55 percent Latino. There were numerous problems 
with law enforcement at the stadium, at various checkpoints, 
where ID checks, which were supposed to be used for making sure 
people had access to their own neighborhoods and not others--we 
understand that--where law enforcement used those checks for 
immigration purposes.
    That should not occur in a time of emergency and crisis. We 
had people turned over to immigration authorities when people 
were supposed to be checking ID for the purposes of making sure 
people got into their own neighborhoods.
    So those are three areas I hope you looked at. You don't 
need to necessarily answer them now, because we have other 
panels.
    Just lastly, I know Supervisor Roberts mentioned the 
shelter-in-place. I mean, I'm a layman on this, but it looked 
to me that the four or five communities that had those 
procedures in the northern part of our county were not impacted 
at all, no property damage.
    That is, if homes have clearance of brush, fire resistant 
landscaping and building materials, and inside sprinklers, they 
are supposed to keep you ``sheltered in place.'' We know it 
works.
    I hope Senator, that in your model ordinance, we look at 
these. If I was a mayor of any city here, I would've said right 
after the fire: ``Let us adopt an ordinance which requires 
these shelters-in-place.''
    I mean, whether you need incentives or mandates, it's the 
protection that people have to do. I don't care what any 
developer says or anybody else. We gotta do this. I think every 
city council, every county, ought to be looking at this.
    I'm glad Senator, that you have--you're looking at these 
model ordinances, because they worked, and it looked to me that 
one of the major positive lessons that came out of this fire. 
Thank you again for being here.
    Senator Feinstein. Thank you very much. Representative 
Gallegly?
    Mr. Gallegly. Thank you very much, Senator. I know that 
time is important this morning, but there's a couple issues 
that both Supervisor Roberts and Supervisor Campbell mentioned 
relating to the air tankers. I assume you were referring to the 
C-130.
    Here in California, we have the Air National Guard, the 
146th Air Wing that's stationed in my district, and the MAFFS 
units, the Modular Air FireFighting System program I've been 
working on for over 20 years.
    Up until 3 years ago, we were using E models, the 50-year-
old-plus version of the C-130s, the Hercules, an incredible 
piece of machinery. But they are getting antiquated. They are 
antiquated, and with the help of Jerry Lewis and Duncan Hunter, 
we were able to acquire four new J models, which are almost 
$100 million a copy, and we have them at Naval Base Ventura 
County now.
    The bad news has been that we don't have the modular units 
that work in the J models. As I said in my opening statements, 
we got authorization 14 years ago, appropriation 8 years ago, 
and we've been working with the Forest Service. Why isn't this 
done?
    I have been assured by General Wade, and I've been assured 
by the Forest Service, that these units will be on-site and 
retrofitted in the J models no later than May of next year. You 
can rest assured that I will work very aggressively to see that 
that comes to pass. The money's there, the technology's there. 
It's a matter of retrofitting now.
    I've also been assured by General Renuart, who is the four-
star at NORTHCOM, that these aircraft will remain in California 
and not scattered around the country.
    But you mentioned a very, very important point about the 
amount of time that it takes to get the mission approved.
    Well, you may or may not be aware that the Economy Act that 
was passed 70 years ago, back during the FDR era, required that 
you had to get approval through the bureaucracy that there was 
no civilian assets available before you could rotate military 
aircraft.
    Now, hey, I'm a real private sector guy, but when Rome is 
burning, you need to have somebody out there fighting the 
fires, first responders. Then if you have the assets, fine, 
then you pull off. Well, after years and years and years of 
working to repeal the Economy Act, we have that done.
    Now, my folks at the 146th Air Wing really respond to OES 
now, the Office of Emergency Services, and being able to deploy 
these assets. So that's good news. These assets should be 
completely available in this next fire season.
    Supervisor Roberts, you made a statement that I'm 
embarrassed that I don't know more about. You mentioned the 
Global Hawk as a surveillance aircraft. I assume you're 
referring to the E-2s? This is a naval surveillance aircraft, 
turbo prop?
    Mr. Roberts. I know it as a Global Hawk. I don't know 
whether it's an E-2, but----
    Mr. Gallegly. Okay. Well, because we have the E-2s also 
stationed in my district. I'd like to know more about that, and 
I'd be very happy to work with your office or anyone else that 
would like to coordinate with the commander, with the navy.
    Mr. Roberts. Okay.
    Mr. Gallegly. I'd love to work with you on that. I don't 
know more--enough about it to know--I know what the E-2 is 
capable of doing and I know what it's used for in naval 
surveillance, but--and I know the technology, but I never 
thought about using it for firefighting.
    Mr. Roberts. I think when you finish your next panel, I 
think you're going to know a lot more about it, and you'll have 
an opportunity, certainly, to ask--this next panel up I think 
has got some of the people that would know more than----
    Mr. Gallegly. Senator, I have a lot of questions for these 
folks and some comments, but I would just ask that perhaps I 
could send some of these in writing to the folks and then have 
them made a part of the text of the hearing in due time.
    Senator Feinstein. I'm sure that will be fine.
    Mr. Gallegly. Thank you.
    Senator Feinstein. Thank you very much. Thank you. I'd like 
to thank the panel. Thank you very much for your comments, for 
your expertise and your service. It is very much appreciated. 
Thank you.

           FIRE PREVENTION, PREPAREDNESS, AND RESPONSE PANEL

    Now, we'll call up the next panel. I will begin with the 
introductions now, to save time. The first speaker will be Mark 
Rey. He is the Under Secretary for Natural Resources and 
Environment of the United States Department of Agriculture. 
Mark, I think if you go right to this end where President 
Peters was, that'd be great.
    His duty is to monitor the Department of Agriculture's 
Forest Service and Natural Resource Conservation Service. He 
was the committee's lead staff person for work on the National 
Forest Policy and Forest Service Administration.
    In this position, he was directly involved in almost all 
legislation dealing with United States Forest Service, and with 
an important responsibility for several public lands bills.
    The next speaker is Nancy Ward. She is the Director of FEMA 
Region 9. She has held the position of Division Director of 
FEMA's Response and Recovery Division in Region 9 since the 
Year 2000.
    She's responsible for coordinating FEMA mitigation, 
preparedness, disaster response and recovery activities in 
Arizona, California, Hawaii, Nevada, America Samoa, Guam, the 
Commonwealth of the Northern Mariana Islands, the Marshall 
Islands, and the Federated States of Micronesia. It is a big 
territory.
    Before joining FEMA, Ms. Ward was the Chief of the Disaster 
Assistance Branch and Deputy State Coordinating Officer for the 
California Office of Emergency Services.
    Chief Rubin Grijalva became Acting Director of CAL FIRE in 
January 2006. He was the State Fire Marshal and Fire Chief for 
the city of Palo Alto for 10 years. He has 30 years' experience 
working in the field of public safety and has expertise in 
criminal justice administration and the development of fire 
prevention and hazardous materials regulations.
    Chief Kim Zagaris is the Chief of the Fire and Rescue 
Branch for the Government's Office of Emergency Service. He was 
named 2007 Fire Chief of the Year by the California Fire Chiefs 
Association.
    Chief Zagaris started his career with OES in 1988 as an 
assistant chief, responsible for field operations, and quickly 
rose through the ranks to his current position in 2001.
    The next and the last speaker is Jeff Bowman. He's had a 
long and distinguished firefighting career spanning four 
decades. While he most recently served as the city of 
Oceanside's Interim Fire Chief, from 2002 to 2006, he served as 
the city of San Diego's Fire Chief, and led the city's 
firefighting efforts during the 2003 wildfires.
    Prior to coming to San Diego, Chief Bowman served for more 
than 28 years with the city of Anaheim Fire Department, 
including as its Chief from 1986 to 2002.
    So we will begin with Deputy Secretary Rey. Mark, welcome. 
Thank you again, also, for being here, for being here 
yesterday, participating in both meetings yesterday. We 
appreciate it.
STATEMENT OF MARK REY, UNDER SECRETARY FOR NATURAL 
            RESOURCES AND ENVIRONMENT, U.S. DEPARTMENT 
            OF AGRICULTURE
    Mr. Rey. Thank you, Madam Chairman. I'm going to have to--
--
    Senator Feinstein. Let's see. I think you punch the button 
on the right; is that--there you go.
    Mr. Rey. Okay. This is much more technologically advanced 
than the systems I'm familiar with in the Senate and in the 
House, but I'm sure it'll work just fine, reserving the right 
to object.
    Thank you, Madam Chairman, for that kind introduction. I 
will summarize my statement for the record and submit it for 
the record.
    The fire community, in my experience, is unique in the way 
that it values after-action reviews, because new lessons 
learned can almost always result in improved performance. 
Shortly, I'll speak about some areas where we think performance 
can be improved, particularly with respect to the use in 
southern California of both reserved and active military 
aircraft.
    But in any incident, I think results are what are most 
important and often speak for themselves. So let me compare the 
results we achieved in 2007 with those that we experienced in 
2003, since they are close together benchmark years in 
assessing our effectiveness.
    I'll compare the results in 12 key areas, using data taken 
from all seven southern California counties that were affected 
by both the 2003 incidents and the 2007 incidents.
    I'll start with preparedness. As my testimony indicates, we 
better positioned a larger number of assets in 2007 than we did 
in 2003, based upon our experience in 2003.
    Second, the duration of the event. In 2003, it was a 15-day 
event. As you noted in your testimony, in 2007, we've 
experienced an 18-day event with both higher sustained winds, 
as well as drier fuels.
    In 2003, during the course of the event, we had 213 
separate ignitions. In 2007, we had 271 separate ignitions. 
From those ignitions in 2003, we experienced 14 large fires, 
all of which have names that now live in everyone's memory. In 
2007, we had 20 large fires.
    Doing the arithmetic, that means that in 2003, we had a 93 
percent success rate on initial attack; that is, 93 percent of 
those 213 ignitions were suppressed without incident. In 2007, 
we enjoyed, again, a 93 percent success rate on initial attack, 
in the face of a longer duration event with higher winds and 
drier fuels.
    In 2003, after it was all done, we burned about 750,000 
acres of ground in southern California counties. In 2007, we 
burned 518,000 acres of ground. In 2003, we lost 5,200 major 
structures, most of those were homes. In 2007, we lost 3,050 
major structures.
    In 2003, we unfortunately had 24 civilian casualties. In 
2007, 10 civilian casualties. In 2003, one firefighter 
casualty. In 2007, no firefighter casualties. Firefighting is 
an inherently hazardous profession. In 2003, we had 237 
firefighting injuries. In 2007, 140 firefighting injuries.
    In 2003, we successfully and without major incident 
evacuated roughly 300,000 people. In 2007, with superior 
evacuation methodologies, we evacuated upwards of a million 
people.
    Moving beyond the initial response to my 12th criterion, 
since 2003, we have treated 275,000 acres of Federal, State, 
local, and privately-owned land in southern California to 
reduce fuel loads.
    In my testimony, you'll see three examples of where those 
fuel load reductions resulted in better fire suppression as 
fires laid down--in one case, saving perhaps as many as 8,000 
to 10,000 homes that were in the path of a fire that was 
suppressed, as it entered a fuels treatment zone.
    So my point is that we did learn lessons in 2003 and in 
each of those 12 key criteria, our performance in 2007 was 
superior to the performance that Federal, State, and local 
governments combined were able to muster in 2003.
    Even though 13 is considered an unlucky number, let me add 
a 13th factor for comparison between 2003 and 2007. Since 2003, 
180,000 new homes have been built in the wildland-urban 
interface in these seven southern California counties, backing 
out the homes that were rebuilds from the fire events in 2003.
    What that means is that about 185,000 new homes were built 
in these southern California counties in the wildland-urban 
interface since 2003. The average household size in this region 
is four people per household. That means upwards of three-
quarters of a million people were in harm's way in 2007 that 
weren't there in 2003.
    So there was more to protect, and there probably will 
continue to be more to protect as additional development 
occurs.
    Now, in terms of areas of improvement, we have already 
started and, in some cases, are well along in our after-action 
reports. We'll learn more as those reports continue and as the 
reports and evaluations that we do together with Congress also 
continue.
    We have concluded that with a local agreement between the 
Marine Corps and CAL FIRE, we can and will activate Marine 
Corps aviation assets more quickly.
    We've also concluded that while the time between the MAFFS 
order was placed and the military began acting on it was a very 
brief couple hours, it takes a certain amount of time to both 
get the MAFFS ready and then, of course, to deploy them, if 
they're not in the theater of operation.
    So we will be working with the military to develop a stand-
ready mechanism for the MAFFS so that we can alert them to 
begin to get ready, even before we officially activate them 
into a theater of activity. We have committed to one another 
that we will have the C-130Js available for this next season.
    What's delayed the C-130Js are a series of engineering 
challenges that prove more difficult than anticipated in the 
electronics of the J model. There was also a problem in the 
operation of the discharge tube out the paratrooper doors. But 
I think those engineering challenges have now been overcome, 
and we're ready to begin testing the new models.
    In every after-action review, it's important we think to 
address two separate questions. First, were there things that 
could have been done better? The answer, in this case, and in 
almost every case, is yes. I've just reviewed a couple of those 
instances.
    The second question is the things that weren't done as well 
as they might've been--things that materially affected the 
outcome? In our view, in this case, with respect to the use of 
the military aircraft, there was no evidence to suggest that 
the outcome would've been significantly different, given the 
wind conditions that occurred in the first 2 days of the 
incident--actually, the first 3 days of the incident, all told.
    So we will continue our after-action reviews. We will 
continue to address both of those questions in other areas, and 
I dare say we will find some areas where both answers are yes 
and additional changes will be made accordingly.
    One thing that I noted listening to the first panel is that 
as we talked about development of currently undeveloped lands 
in southern California, farm and ranch lands, we need to 
provide incentives to farmers and ranchers to try to not 
develop their lands.

                           PREPARED STATEMENT

    Of course, since I leave no opportunity untaken to talk 
about the importance of the farm bill before Congress, I'll 
note that there is substantial funding for easement purchases, 
conservation easement purchases, which have been a very popular 
way in southern California and statewide to provide incentives 
to landowners not to have their land developed, to reduce that 
growth of new homes in the wildland-urban interface.
    That concludes my statement. I'll be happy to answer any 
questions.
    [The statement follows:]
                     Prepared Statement of Mark Rey
                              introduction
    Madam Chairman, ranking member, and members of the subcommittee, 
thank you for the opportunity to testify before you today. This is my 
first opportunity to testify on behalf of the administration on our 
response to those events. We are proud of our response and grateful for 
the opportunity to address our efforts.
    The 2007 California fires directly affected nearly one million 
people and caused impacts to hundreds of thousands more. In addition, 
271 fire starts resulted in 20 large fires which burned over 500,000 
acres, destroyed 3,000 structures, and killed ten people. Each of these 
benchmarks has been surpassed only once in the history of California, 
during the fires of 2003. The 2007 California fires were truly an 
historic event, but we believe that investments and actions made by the 
Forest Service, State and local governments, non-governments, and 
private landowners combined with improvements in coordination with 
others resulted in lower loss of life and overall damage to property.
    Since these two catastrophic natural disasters occurred within 4 
years of each other, they provide two logical reference points to 
review size and scope of the events, compare the Federal, State, and 
local response, and determine the effectiveness of investments made 
since 2003. Our analysis shows that Federal investments and 
organizational improvements in the aftermath of the 2003 fires 
contributed to better safety, better coordination, and less severe 
outcomes in the 2007 fires.
  big picture: fire management challenges faced by the wildland fire 
                               community
    Wildland fire and wildland firefighting are influenced by a complex 
myriad of factors. These factors include weather, fuel type, terrain, 
proximity to the wildland urban interface (WUI) and other highly valued 
landscapes, population density, multiple jurisdictions on the 
landscape, current weather conditions, and managerial decisions made 
before and during fire incidents. The Forest Service and other first 
responders have spent significant time and resources over the past 
several years to coordinate response actions, improve inter-
governmental communication, clarify roles and responsibilities, and 
other actions to ensure effective response in these complex 
environments.
    The late October conditions in southern California reflect three 
key components of fire activity that contribute to larger and, coupled 
with agency management responses, more expensive, fires--historic 
drought, build up of fuels on the ground, and the ever increasing reach 
of development into the wildland urban interface. More specifically, 
the National Weather Service documented rainfall during the 2006-2007 
Southwest California rain season at only 21 percent of normal in 
downtown Los Angeles, officially the lowest since record keeping began 
in 1877. Exacerbating these conditions, hot, dry Santa Ana winds came 
across southern California, downing power lines and setting off sparks 
that ignited the 2007 fires. During the first days of the fires, 70 
mile per hour winds with gusts of over 100 miles per hour were 
reported, blowing embers over a mile, causing unsafe conditions for 
aviation resources, and limiting on-the-ground suppression tactics. 
Much of the forested land where weather conditions occurred was densely 
stocked with highly flammable chapparal understory. The growth and 
spread of chapparal in the area had been promoted by wet conditions two 
years ago; yet the subsequent drought ostensibly created a tinderbox of 
dried flammable wood. The large number of residences in the WUI of 
southern California further complicated response to the fires. 
According to the 2005 Quadrennial Fire and Fuels Review by the 
Department of the Interior (DOI) and United States Department of 
Agriculture, 60 percent of new homes constructed in the United States 
in the 1990s were built in the WUI, a trend evident near the southern 
California national forests. Conservative estimates by Forest Service 
researchers show that almost 200,000 new homes were built in the WUI 
between 2003 and 2007 within the seven southern California counties.
                           history repeating?
    The 2003 fires demonstrated that the major fire behavior influences 
of wood, WUI, and weather could converge with catastrophic results. 
Over 10 days, 14 large fires burned over 730,000 acres, destroyed 5,000 
structures, forced several hundred thousand evacuations, and caused 22 
fatalities. In the aftermath of the fires, Federal, State and local 
governmental representatives and elected officials came together to 
review the events and identify ways to improve coordination and 
response in the future. The Governor's Blue Ribbon Fire Commission 
documented their findings and presented recommendations to make 
California less vulnerable to similar catastrophic fire activity in the 
future.
    The Blue Ribbon Fire Commission report was released in April 2004, 
and included 33 findings and 58 recommendations relating to Federal, 
State, and local entities. The 19 recommendations pertaining to the 
Forest Service span a broad range of issues including aviation use, 
interagency cooperation, fire suppression and preparedness funding, 
improved community preparedness, and enhanced communication. Progress 
has been made on all 19 recommendations, resulting in enhanced 
cooperation and vital firefighting resources, training and 
intelligence. The Blue Ribbon Commission Stakeholders Ad Hoc Committee 
met twice in the fall of 2007 to update the status of the original 
recommendations and establish priorities to complete any outstanding 
recommendations.
    Consistent with the Blue Ribbon Fire Commission recommendations, 
the Forest Service has invested considerable resources to mitigate the 
risks of catastrophic wildfires through vegetation treatments, 
partnership with communities, and education of homeowners.
    Forest Service actions in partnership and cooperation with other 
Federal, State, and local entities after 2003 contributed to improved 
performance in the following areas during the 2007 Siege, including:
  --Better advanced deployment
  --Fewer homes and other structures destroyed
  --Fewer fatalities
  --No firefighter fatalities
  --Fuel treatment areas where, ``wildfire laid down''
  --More efficient evacuations
  --Responsive burned area emergency stabilization
  --Effective initial attack on 251 of 271 fire starts
                       improvements in readiness
    The Forest Service served two critical roles during the 
catastrophic fires in southern California. The task of suppressing 
fires on and adjacent to National Forest System land was made safer and 
more successful by investments in hazardous fuels treatments since 
2003. Coordination with other Federal, State, and local agencies to 
respond to fires on private, State and tribal lands was also improved 
due to implementation of recommendations from the Blue Ribbon 
Commission.
    In the days before the 2007 fires, preparedness resources were 
prepositioned to respond to the threat identified by predictive 
services, and a severity request was granted to increase initial attack 
capability. Prepositioning efforts were coordinated with CAL FIRE to 
maximize capacity. Specifically, the Forest Service increased initial 
attack engine capability by 30 percent, implemented 24 hour staffing 
plans on several forests, assigned nine Incident Management Teams (4 
Type 1 and 5 Type 2), doubled the number of available helitankers and 
helicopters, and increased the number of available airtankers from two 
to eight.
 investments in communities since 2003: hazardous fuels and community 
                                planning
    Under the President's Healthy Forest Initiative and using the 
authorities provided through the Healthy Forest Restoration Act, the 
Forest Service and our partners have reduced the risk of catastrophic 
wildfires to communities and the environment. In 2006, the 
Administration treated many overstocked Federal forests. Hazardous 
fuels treatments resulted in qualitative improvements of at least 
994,000 acres in fire regimes classes 1, 2, or 3 that moved to a better 
condition class.
    To improve the focus of our fuels treatments, the Forest Service 
and its partners are using data products such as LANDFIRE to inform 
decision-making and identify areas across the Nation at risk due to 
accumulation of wildland fuel; prioritize hazardous fuel reduction 
projects; and improve collaboration between agencies with regard to 
fire and other natural resource management. Regional modeling of 
potential fire behavior and effects allow resource managers to 
strategically plan projects for hazardous fuel reduction and 
restoration of ecosystem integrity on fire-adapted landscapes.
    Let's look in more detail at fuels treatments that affected the 
2007 fires. Between 2003 and 2007, the Forest Service, Department of 
the Interior and Natural Resources Conservation Service jointly spent 
$300 million on roughly 275,000 acres of fuel reduction in southern 
California, including about $66 million worth of treatments on 81,000 
acres $17 million worth of treatments on 16,000 acres where fuels was a 
secondary benefit of some other management action. Moreover, 75,000 
acres have been treated on high priority State and privately owned 
lands as a result of grants from the Forest Service, DOI and NRCS. 
These fuel treatments are designed to decrease fire severity, provide 
evacuation routes, improve effectiveness and expand tactical 
firefighting options, and ultimately make communities safer.
    The 2007 fires demonstrated the success of recent Federal 
investments in hazardous fuels treatments. Over 40,000 acres of fuel 
treatment were accomplished on the San Bernardino NF between October 
2003 and October 2007. These treatments significantly reduced potential 
consequences from the fires of October 2007 by:
  --providing safe ingress for firefighters and enabling safe 
        evacuation of the public
  --slowing fire spread allowing firefighters to contain fire edges 
        more readily
  --significantly reducing potential damage to utilities and other 
        infrastructure
  --reducing potential ember shower intensity and spotting distance 
        which decreased the number of houses impacted by firebrands
  --reducing fire intensity allowing firefighters to more closely 
        engage the fire and protect structures
    Specifically, the Forest Service Tunnel 2 fuel treatment covered 
almost 250 acres along a ridge southwest of the Grass Valley Fire 
origin. The fire moved into this treatment area at high intensity but 
fell to mostly a surface fire within the treated area. Although most of 
the Tunnel 2 treatment area burned, the reduced intensity within it 
enabled firefighters to contain the fire along roads at its southern 
perimeter, saving 8,000-10,000 homes in the nearby Crestline area. 
Materials describing success stories like this one are included with 
this testimony for the record (Enclosures 1-3).
    Through our State and Volunteer Fire Assistance programs, the 
Forest Service has provided significant support to California 
communities to build wildland firefighting capacity. From 2003 to 2007, 
community grants have totaled over $8.5 million for equipment, $3.2 
million for Preparedness activities, $1.8 million for training, and 
$1.7 million for suppression operations and support.
    State Fire Assistance funds also go to communities for hazardous 
fuels planning as well as direct, on-the-ground fuels reduction 
projects. California has identified 1,264 communities-at-risk from 
wildfire, and 99 percent of these have completed Community Wildfire 
Protection Plans (CWPPs), or the equivalent. The CWPPs are administered 
by over 150 Fire Safe Councils in California. Since 2003, the Forest 
Service has supported these Fire Safe Councils in creating and 
implementing Community Wildfire Protection Plans with $31 million in 
grants.
    The Fire Safe Council formed near the Cleveland National Forest 
after the 2003 fires illustrates a variety of ways communities can 
access funds. Assisted by State Fire Assistance grants, the Council 
developed the Palomar Mountain Community Wildfire Protection Plan, 
identified needed hazardous fuels treatments, and purchased fire gel 
for application by homeowners in the event of approaching fire. Some 
homeowners in the area credit the Forest Service support through State 
Fire Assistance grants and suppression efforts with saving their homes 
during the 2007 fires.
    Efforts to stabilize lands burned during the 2007 fires were 
organized immediately with the goal of protecting life, property and 
critical natural and cultural resources. In addition, the Natural 
Resources Conservation Service is providing $4.6 million to farmers and 
ranchers in southern California through the Environmental Quality 
Incentives Program. Funds will be available at a 75 percent cost share 
to protect newly exposed soil from severe erosion and to install 
agriculture infrastructure necessary to maintain vegetative covers 
essential to protecting hillsides.
                              a look ahead
    The President's Healthy Forest Initiative provides key tools to 
make communities safer from the threat of wildfire, and will serve as a 
framework for future fuels reduction activity in southern California. 
In September 2006, the USDA Office of Inspector General, Southeast 
Region, audited Forest Service implementation of the Healthy Forests 
Initiative. The OIG audit report recommended that the Forest Service 
implement a consistent analytical process for assessing the level of 
risk that communities face from wildfire, strengthen its prioritization 
of projects, and improve performance measures and reporting standards 
in order to better communicate the outcome of treatments. The Forest 
Service concurred with the five recommendations of the report and 
developed an action response and estimated completion date for each. To 
date the Forest Service has:
  --Developed a Hazardous Fuels Prioritization and Allocation Process--
        a national methodology to assess the risk and consequence of 
        wildfire that prioritizes the allocation of hazardous fuels 
        funds to the Regional level. This system will be continually 
        refined with updated data sources.
  --Completed work with the Department of the Interior and other 
        partners in the Wildland Fire Leadership Council to update the 
        10-Year Implementation Plan which sets national performance 
        measures.
  --Completed accomplishment reporting in the fiscal year 2007 
        Performance Accountability Report incorporating new outcome 
        measures from the 10-Year Implementation Plan and report 
        accomplishments by Region.
  --All accomplishment and budget documents for fiscal year 2008 and 
        beyond will reflect new performance measures that demonstrate 
        agency performance by focusing on risk reduction and 
        restoration outcomes.
                               conclusion
    The prepositioning efforts, investments in hazardous fuels 
treatments and community capacity, and coordination between FEMA, CAL 
FIRE, the California Army National Guard, United State Marine Corps and 
tribal entities paid off during the 2007 fires. The 2007 fires had more 
fire starts than the 2003 fires (271 compared to 213) and more large 
fires that escaped initial attack (20 compared to 14). However, the 
resulting damage was much less in 2007. Even though the large fires 
burned one day longer in 2007, the fires resulted in only 65 percent as 
many acres burned, 60 percent as many structures destroyed, 60 percent 
as many firefighter injuries, and 40 percent as many civilian 
fatalities. Nearly 13,000 personnel responded to the 2007 fires, and 
there was not one firefighter fatality.
    Many lessons were learned from the 2003 California fires. Between 
2003 and 2007, coordination was improved between Federal, State and 
local entities; millions of dollars were strategically invested in WUI 
hazardous fuels treatments; and countless hours were invested in 
development of Community Wildland Fire Plans. As a result, we were 
better prepared for the events of 2007 in southern California to deploy 
resources strategically, successfully and most important, safely. In 
the midst of a monumental natural disaster, homes and lives were saved 
as a result of Federal investments, improved coordination with local 
and State entities, and the efforts of the interagency firefighting 
community.

    Senator Feinstein. Thank you very much, Secretary Rey. 
Excellent statement.
    Ms. Ward, welcome, and thank you for being here.
STATEMENT OF NANCY WARD, DIRECTOR, REGION 9, FEDERAL 
            EMERGENCY MANAGEMENT AGENCY
    Ms. Ward. Good morning, Senator Feinstein and other 
distinguished members of the committee. I'm accompanied here 
today by the Federal Coordinating Officer, Mike Hall, and the 
Deputy Federal Coordinating Officer, Bob Fenton, who are 
actually in the leadership positions here in southern 
California overseeing disaster operations, and will try and 
help me answer any of the technical questions on specific 
operations.
    As you mentioned, Senator, I've been with FEMA for 6 years, 
and prior to that, spent more than 20 years in emergency 
management with the State of California, and have overseen my 
share of disaster operations from earthquakes, floods, fires, 
and hurricanes.
    I would first like to commend the local and State response 
efforts. The integrated Federal coordination of the California 
wildfire response has been, in my experience, unprecedented in 
the level of collaboration and cooperation between all 
partners: Federal, State, tribal, local, and the voluntary 
organizations.
    On Sunday, October 21, I personally went to the State's 
operations center, along with members of my staff, to assist in 
initiating joint operations. At that very same time, FEMA 
simultaneously activated both the Regional Response 
Coordination Center in Oakland and the National Response 
Coordination Center in Washington, DC.
    By Monday, October 23, FEMA was hosting daily video 
teleconference calls with Federal, State interagency partners 
and the America Red Cross and DOD.
    That same day, in response to the Governor's request for a 
major disaster declaration, FEMA began alerting our national 
response teams and pre-staging resources and commodities at 
March Air Force Base, the pre-designated Federal staging area 
here in southern California.
    By Tuesday, October 24, the President had issued a major 
disaster declaration for all seven counties and at that time, 
designated Mike Hall the Federal Coordinating Officer.
    Less than 24 hours after the declaration, an integrated 
joint field office housing hundreds of Federal State staff and 
Federal response teams were on site, and many more personnel 
were en route.
    To give you an idea of the scope of the Federal response at 
that time, FEMA had staged more than 79,000 liters of water, 
24,000 cots, and 42,000 meals ready to eat in support of the 
State. We also provided 42,000 blankets and other essential 
items to support sheltering efforts.
    FEMA's joint field office has issued 85 mission assignments 
totaling more than $30 million for Federal assistance from our 
Federal partner agencies.
    We also deployed a national emergency response team, a 
Federal incident response team, communications and equipment 
from our mobile emergency response support detachments, 
disaster medical assistance teams, elements of the U.S. Coast 
Guard's Deployable Operations Group, and a defense coordinating 
element from DOD.
    As local and State and Federal firefighters continued their 
efforts to contain and extinguish the fires, the State and 
Federal governments worked together to develop a unified State 
and Federal recovery strategy to guide the recovery challenges 
that we knew were just around the corner.
    The key elements of this Federal-State strategy included a 
housing taskforce to support the local governments by 
identifying short and long-term housing options and actions to 
be taken to help displaced residents; a debris management 
taskforce to help local governments expedite the safe and 
thorough and timely removal of disaster-related debris; a 
multi-agency support group to support local governments by 
addressing in an environmentally sensitive way potential 
flooding and erosion and debris flow concerns that we knew from 
2003 would be upon us very, very shortly.
    A tribal taskforce was also established to help affected 
tribes locate supplemental resources, including personal and 
public financial assistance.
    These taskforces have been formed to help the lives of 
people in southern California return to normal as quickly as 
possible, and their efforts are ongoing and will be for some 
time.

                           PREPARED STATEMENT

    These are just a few of the examples of the effective 
collaboration and Federal-State response to this effort. As a 
former State official and a current regional administrator for 
FEMA, I'm proud of the State and Federal partnership and the 
way we've come together to help the victims of this disaster.
    That said, we have much work to do, and I look forward to 
our continued partnership. Thank you for the opportunity.
    [The statement follows:]
                    Prepared Statement of Nancy Ward
    Good morning Chairwoman Feinstein and members of the subcommittee. 
I am Nancy Ward, Regional Administrator for the Department of Homeland 
Security's Federal Emergency Management Agency, and I have served as 
Regional Administrator for FEMA Region IX since October 2006. Prior to 
my selection, I served as the Director of Response and Recovery for 
Region IX. I have worked in various roles in the region for the past 7 
years.
    Before coming to FEMA, I spent more than 20 years in emergency 
management with the State of California, including 6 years as chief of 
the State's disaster assistance programs. In this capacity, I oversaw 
the implementation of all disaster recovery activities statewide, 
including recovery activities following the devastating Northridge 
earthquake of 1994 and the statewide floods of 1995, 1997 and 1998.
    FEMA Region IX includes the States of Arizona, California, Hawaii, 
Nevada, and American Samoa, the Commonwealth of the Northern Mariana 
Islands, the Republic of the Marshall Islands, the Federated States of 
Micronesia, and Guam. Our region encompasses 386,000 square miles with 
a breadth of more than 8,000 miles. The natural hazards that these 
States are most challenged by include fires, hurricanes, typhoons and 
storms causing flooding, damaging winds, landslides, and earthquakes. 
Along with those natural disasters, Region IX works with our State 
partners to evaluate readiness and prepare for terrorist events as 
well.
    Since October 20, 2007, the State of California has been affected 
by a series of wildfires across southern California. To date, over 
3,097 homes were destroyed and over 500,000 acres of land were burned 
from Santa Barbara County to the U.S.-Mexico border. At the height of 
the disaster, 23 active fires were burning in the region. Seven people 
died as a direct result of the fires and 124 others were injured, 
including firefighters.
    California Governor, Arnold Schwarzenegger, declared a State of 
emergency in seven California counties where fires were burning, and on 
October 24, 2007, President George W. Bush issued a major disaster 
declaration for the State of California and ordered Federal aid to 
supplement State and local response efforts.
                               background
    FEMA's primary mission is to reduce the loss of life and property, 
and to protect the Nation from all hazards, by developing a 
comprehensive, risk-based, emergency management system of preparedness, 
protection, response, recovery, and mitigation. The Robert T. Stafford 
Disaster Relief and Emergency Assistance Act authorizes the President 
to issue an emergency or major disaster declaration and triggers direct 
and financial assistance to individuals, families, State and local 
governments, and certain nonprofit organizations. The Act also gives 
FEMA responsibility for coordinating the relief through the combined 
partnership of 28 Federal agencies and non-governmental organizations.
    The 2005 Hurricane Season served as a catalyst for change and 
reform within FEMA and for our parent agency, the Department of 
Homeland Security. FEMA is a far more agile, responsive, and pro-active 
partner with State and local jurisdictions than we were just 1 year 
ago. We are proactively working to ensure Federal assistance is 
delivered as quickly and seamlessly as possible in coordination with 
State and local efforts. These changes were evident in the most recent 
response to the California Wildfires.
    Our experience preparing for and responding to the recent wildfires 
demonstrates the strong working relationship that exists between FEMA 
and the State of California. Overall, the Federal response to the 
recent wildfires was organized and effective. In advance of the fire 
season, experts predicted that dry weather conditions and heavy fuel 
loads would affect the severity of fires. After receiving the first 
reports of fire activity several weeks ago, FEMA reached out to State 
and local governments and other Federal departments and agencies to 
open a channel of communication that has been maintained throughout the 
response efforts.
    When the fires began, the Federal Government moved quickly to 
support the Governor's requests for assistance. Prior to the 
President's major disaster declaration on October 24th, FEMA awarded 
eight Fire Management Assistance Grants (FMAG). FMAGs provide 
assistance to the State to mitigate, manage, and control fires that 
threaten such destruction as would constitute a major disaster. Some of 
the costs these grants cover include:
  --Costs for equipment and supplies;
  --Emergency protective measures (evacuations and sheltering, police 
        barricading and traffic control, and arson investigation);
  --Pre-positioning of resources; and
  --Safety items for firefighter health and safety.
    In addition, the President issued an emergency declaration on 
October 23rd for life saving activities to support the State and local 
authorities in fighting the fires.
    The Federal coordination of the California Wildfire response has, 
in my opinion, been unprecedented in the level of collaboration and 
cooperation between all partners--Federal, State, local, and voluntary 
organizations. On Sunday, October 21st, I personally visited the 
State's Operations Center along with other FEMA program staff to assist 
in initiating joint operations. At that time, FEMA simultaneously 
activated both the Regional Response Coordination Center in Oakland, 
California, and the National Response Coordination Center in 
Washington, D.C. All 15 Emergency Support Functions (ESF) were 
activated at the national level during the response. ESFs are the 
primary means through which the Federal government provides assistance 
to State, local, and tribal governments. It is an effective mechanism 
to group capabilities and resources into the functions that are most 
likely to be needed during actual incidents where Federal response is 
required.
    By Monday, October 23rd, FEMA was hosting daily video 
teleconference calls with Federal and State interagency partners and 
the American Red Cross. That same day, in response to the Governor's 
request for a major disaster declaration, FEMA began alerting our 
national response teams and pre-staging resources and commodities at 
March Air Force Base, the pre-designated Federal staging area in 
southern California. By Tuesday, October 24th, the President had issued 
a major disaster declaration for seven southern California counties, 
and designated Mike Hall as the Federal Coordinating Officer (FCO) to 
oversee the disaster operations on the ground. Less then 24 hours after 
the declaration, an integrated Joint Field Office was established with 
a Federal response team on-site and many more personnel en route. By 
being proactive and anticipating needs before they arose, FEMA was able 
to move personnel and position supplies to where they would be readily 
accessible to the areas in need.
    At the peak of the State's evacuation efforts, there were 54 
shelters open with approximately 22,000 people being housed and several 
hundred thousand people who self-evacuated. To give you an idea of the 
scope of the Federal response, FEMA staged more than 79,000 liters of 
water, 24,000 cots, and 42,000 meals-ready-to-eat in response to the 
State's request. We also provided 42,000 blankets and other essential 
items to support sheltering efforts. FEMA's Joint Field Office issued 
85 Mission Assignments, totaling over $30 million, for direct Federal 
assistance from our partner agencies. In the initial days of the 
disaster, FEMA's Joint Field Office had staffing levels of over 900 
personnel, representing 28 Federal agencies and departments, all 
unified under the Incident Command System (ICS) structure. FEMA also 
deployed a National Emergency Response Team, a Federal Incident 
Response Team, and communications personnel and equipment from its 
Mobile Emergency Response Support detachment, as well as four Disaster 
Medical Assistance Teams, elements of the U.S. Coast Guard Deployable 
Operations Group, and a Defense Coordination Element. At the height of 
the wildfires, thousands of local, State and Federal fire personnel 
were in southern California. Fortunately, there were no firefighter 
fatalities.
               the california wildfires recovery efforts
    Even as local, State and Federal firefighters continued their 
efforts to contain and extinguish the fires, the State and Federal 
governments worked together to develop a Unified State/Federal Recovery 
Strategy to guide the recovery activities and address the immediate and 
long-term needs of individuals, businesses and communities. We 
recognize that carrying out this strategy will require the same level 
of cooperation, determination, innovation, creativity and persistence 
that has characterized the joint response effort. In order to ensure 
that recovery efforts achieve their objectives, the State of California 
and FEMA are committed to address each challenge confronted during the 
recovery period with effective and efficient collaboration. The 
strategy will serve as the overarching plan guiding an aggressive 
recovery approach for the individuals and communities affected by the 
fires and is intended to bring together Federal, State, local and 
tribal governments, volunteer organizations, the private sector and 
individuals to ensure that essential services are provided and that 
recovery challenges are addressed.
    Key elements of this State/Federal strategy include:
  --A Housing Task Force to support local governments by identifying 
        short- and long-term housing options and actions that can be 
        taken to help displaced residents find transitional housing.
  --A Debris Management Task Force to help local governments expedite 
        the safe, thorough and timely removal of disaster-related 
        debris.
  --A Multi-Agency Support Group to support local governments by 
        addressing, in an environmentally sensitive manner, flooding, 
        erosion and debris flow concerns.
  --A Tribal Task Force to help affected tribes locate supplemental 
        resources, including personal and public financial assistance.
    These task forces have been formed to help the lives of people in 
southern California return to normal as quickly as possible. The State 
of California and FEMA are also committed to providing open and 
transparent communication, examining all authorities, capabilities and 
capacities that can be brought to bear to resolve issues.
    One of the greatest challenges presented by the scope and scale of 
catastrophic disasters is the ability to house displaced evacuees. Last 
week, FEMA released a Joint Housing Task Force Housing Strategy which 
identifies efforts that support the State and local governments by 
identifying short and long-term housing options and actions that can be 
taken to help displaced residents find transitional housing quickly. 
Again, here is another example of collaboration between our Federal and 
State partners.
    The Joint Housing Task Force is comprised of officials from the 
California Office of Emergency Services, FEMA, the U.S. Army Corps of 
Engineers, the U.S. Department of Health and Human Services, the 
American Red Cross, the U.S. Small Business Administration, the U.S. 
Veteran's Administration, the Department of Housing and Urban 
Development, the U.S. Department of Interior, and the U.S. Department 
of Agriculture. Collectively, these agencies have developed a 
comprehensive housing plan that includes identifying the most heavily 
impacted areas, on-the-spot registration of shelter populations, 
analyzing shelter and mass care operations, transitioning applicants to 
temporary housing, individual case management for applicants with major 
damage to their primary residences, identifying available rental 
resources, assessing and assisting special need populations, and 
working with local voluntary agencies to identify additional assistance 
resources. The Task Force's efforts are ongoing and have recently lead 
to the implementation of a comprehensive housing plan that utilizes all 
available expertise and resources from the Federal, State, and local 
levels to ensure that assistance efforts are maximized to meet the 
disaster housing needs of all eligible applicants.
    These are just a few examples of the effective collaborative 
Federal/State response to this disaster. As a former State official and 
current Regional Administrator for FEMA, I am proud of the State/
Federal partnership and the way we have come together to help the 
victims of this disaster. That said, we still have much work to do and 
I look forward to continued close collaboration and cooperation with 
our State, local, and tribal partners.
    Whether man-made or natural--whenever an incident occurs, FEMA is 
committed to establishing a unified command with State emergency 
management offices, deploying staff, and positioning ourselves as 
rapidly as possible in response to or in anticipation of disasters and 
emergencies. We have seen first-hand in the California Wildfire 
response that we cannot, and should not wait for the State to become 
overwhelmed prior to offering assistance. By pressing forward in an 
engaged partnership with our States, FEMA ensures that resource gaps 
are filled and that the American people get much needed assistance 
faster. This effort helps us fulfill our mission to reduce the loss of 
life and property.
    Thank you for the opportunity to testify. I would be pleased to 
answer any questions you may have.

    Senator Feinstein. Well, thank you very much. I'd just like 
to take a moment and really commend FEMA. Having watched FEMA 
work over the past 14, 15 years, I've come to have a great 
appreciation, beginning with the Northridge earthquake.
    I think FEMA really did very good work in this disaster. 
The speed with which you got up the one-stop center that I 
visited, which was fully staffed at the time--I think you just 
got it up at 3:00 the afternoon before we came out, Bob, with 
Air Force One--and there were fire victims there. Everybody was 
organized, and it was very impressive.
    I'd also like to acknowledge and thank the American Red 
Cross. They are a superior organization and once again, did 
just really great work. I always tell people, ``If you want to 
give to help a disaster-prone area, give to the American Red 
Cross.'' They're really irreplaceable and we're very lucky to 
have them.
    But I want you to know how grateful we are for FEMA's rapid 
response. Mr. Paulison came right out. He came out again and 
again. That kind of top level follow-up I think is really 
important.
    Ms. Ward. Thank you, Senator.
    Senator Feinstein. Thank you. Chief, would you like to go 
ahead, please?
STATEMENT OF RUBEN GRIJALVA, DIRECTOR, CALIFORNIA 
            DEPARTMENT OF FORESTRY AND FIRE PROTECTION
    Mr. Grijalva. Thank you, Senator Feinstein. Members of the 
committee, thank you for inviting me to testify today.
    As the chief of CAL FIRE and someone who's been in the 
business of firefighting for over 33 years, let me begin by 
saying that saving lives is always the first priority of 
firefighters who respond on wildfires. In southern California 
last month, the actions taken by all emergency responders 
resulted in dramatic improvements over 2003.
    In addition to the 23 fires that were most widely 
publicized, 251 additional fires were put out and held without 
damage due to aggressive tactics during the Santa Ana wind 
event from October 21 through October 26.
    Last month, Federal, State, and local emergency authorities 
saved lives through the safe evacuations of hundreds of 
thousands of people. At the same time, no emergency responders' 
lives were lost in the extremely dangerous conditions.
    California's firefighting strategy begins with protecting 
lives. That is the number one mission of government during a 
disaster, and that's the mission our unified commanders carried 
out. Those unified commanders came from Federal, State, and 
local firefighting agencies, as well as law enforcement 
agencies, as well as the military.
    This success includes nearly a million residents evacuated 
from the path of fires, as well as thousands of men and women 
deployed on the ground or in the air. Over 15,000 firefighters 
fought the most recent southern California wildfires.
    Those 15,000 firefighters came from as many as 1,150 
different firefighting agencies throughout California and other 
States. We are extremely proud of their collective effort.
    Fires are fought and won on the ground. These fires were 
wind-driven, they were fuel-driven, they were topography-
driven, and they were structure to structure flying embers 
driven. That is the worst possible mix of a fire scenario that 
you can face, to have all those conditions present.
    In spite of our emphasis on safety, sadly, over 130 
firefighters were injured while saving lives or protecting 
structures. Accomplishing this mission with as few major 
injuries is nothing short of remarkable, considering the 
extreme conditions that were faced.
    In the State of California, roughly one-third of the acres 
are protected in their responsibility of Federal authorities. 
About one-third are the State responsibility area, and about 
one-third are local responsibility areas.
    CAL FIRE, U.S. Forest Service, and local government, 
regardless of jurisdictional lines, deployed additional 
engines, aircraft, and personnel to southern California in 
advance of the fires because we knew the potential of the 
conditions present. It should be noted that this kind of pre-
deployment did not occur in 2003 at the same level as it did in 
2007.
    The mutual aid system in California is second to none and 
under normal conditions, local firefighting officials have a 
rapid access to mutual aid from other local government fire 
agencies, as well as CAL FIRE resources and the U.S. Forest 
Service.
    The calls for assistance are acted upon immediately, and 
resources are made available. The improved communications among 
multiple jurisdictions was evidenced in this event.
    Tragically, 10 lives were lost in these fires. However, 
despite worse conditions faced in 2007, the 2003 fires resulted 
in hundreds of more homes destroyed and 24 lives lost.
    California managed the most orderly mass evacuation in 
history. People risked their lives over and over again. Many 
lives and thousands upon thousands of homes were saved.
    In the unincorporated San Diego County, preliminary 
estimates of structural loss is around $700 million. 
Preliminary estimates of damaged structures is around $450 
million. The initial estimates of structures saved exceeds $10 
billion.
    Of course, improvements can always be made, and we welcome 
a thoughtful and thorough review. The Fire Service always does 
these types of reviews.
    We will improve where it is needed. However, to be 
effective, the improvements in emergency response capability 
must be accompanied by better local land use decisions, better 
planning, improved building construction, increased defensible 
space, more fuel treatments of forested lands, and vegetation 
near communities.
    Planned areas for sheltering in place and areas of refuge 
that would minimize large-scale evacuations must be a part of 
developments in the wildland-urban interface.
    Until we build more fire-resistant homes in the wholesale 
areas and have better defensible space, our State will continue 
to have firestorms with significant losses.
    CAL FIRE's Office of the State Fire Marshal has moved 
forward with the adoption of wildland-urban interface building 
standards that were voluntary for the past 2 years and become 
mandatory on January 1, 2008.
    These new standards will require ignition-resistant 
materials on all the exteriors of homes built in the wildland-
urban interface, including the decks, the siding, dual-paned 
windows, vents, eaves, and all the portions that are subject to 
ember intrusion.
    California has also updated the State's fire severity zone 
maps for the State responsibility areas and is in the process 
of updating those maps and working with local government in the 
local responsibility areas.
    But the most important partnership that we need is with 
homeowners who reduce the threat of wildfires by removing 
flammable vegetation and brush around their homes. In response 
to the Governor's executive order this year, CAL FIRE added 
wildland-urban interface inspectors to conduct inspections in 
high hazard areas as an extra preventative measure during this 
fire season.
    CAL FIRE has also granted millions of dollars statewide, 
including nearly $2 of Proposition 40, for chipping in fuel 
reduction programs. We budgeted $32 million from fiscal years 
2004 through 2006 for vegetation management program and Prop 40 
spending.
    CAL FIRE supports all community-based nonprofit fire 
prevention organizations that are dedicated to providing 
wildland prevention and education programs and projects.
    Wildfire preparedness is not solely a State issue. Other 
responsible local government communities must add additional 
resources and be prepared and have their personnel prepared 
with community and community wildfire protection plans.

                           PREPARED STATEMENT

    California remains one of the most wildland fire-prone 
States in the Nation. We must partner together, local, State, 
and Federal government, to do a better job in fire prevention 
and land use planning. Thank you.
    Senator Feinstein. Thank you, Chief.
    [The statement follows:]
                  Prepared Statement of Ruben Grijalva
                              introduction
    Senator Feinstein, members of the Committee, thank you for inviting 
me to testify today. As CAL FIRE's Chief, let me begin by saying that 
saving lives is always the first priority of firefighters who respond 
to wildfires. In southern California last month, the actions taken by 
all emergency responders resulted in dramatic improvements over the 
2003 fires. In addition to the 23 fires most people have read about, 
251 other fires were put out and held without damage due to aggressive 
tactics during the Santa Ana wind event from October 21 through 26.
    Disaster response is a highly coordinated skill that takes years of 
experience and millions of dollars to put into place. No where else in 
the world does it work as well as in California. Planes and helicopters 
are certainly important tools, but they are ineffective without boots, 
bulldozers and engines on the ground, an effective evacuation plan, and 
properly managed shelters.
    All of these components have one thing in common, and that is the 
safety of the public and our emergency response personnel. They must 
all work in tandem to achieve the maximum possible results.
    Governor Schwarzenegger understands this. He has increased CAL 
FIRE's general fund budget for firefighting from $309 million in 2003 
to the current budget's $568 million, a boost of $259 million or about 
84 percent. CAL FIRE now has 336 engines, and we have invested $26 
million in 108 new engines to replace old trucks since 2003.
    Last month Federal, State and local emergency authorities saved 
lives through the safe evacuation of hundreds of thousands of people. 
At the same time, no emergency responder lives were lost in the 
extremely dangerous conditions.
    California's firefighting strategy begins with protecting lives. 
That is the Number 1 mission of government during a disaster, and 
that's the mission our unified commanders carried out.
    This success includes the nearly half a million residents evacuated 
from the path of the fires, as well as the thousands of men and women 
deployed on the ground or in the air. Over 15,000 firefighters fought 
in the most recent southern California wildfires. We are extremely 
proud of their collective effort.
    Fires are fought and won on the ground. Air coverage is an 
important fire suppression tool, but continuing to solely focus on that 
aspect minimizes the primary role of most firefighters and their 
successful efforts.
    Our firefighters and pilots all want to succeed. Their recent 
efforts were heroic. However, it takes a true professional to be able 
to decide when it is just too dangerous to fly or to defend structures. 
Since the fires were contained, I've spoken to several of our tanker 
pilots. Many tried to fly when it was not safe and had to turn back.
    In spite of our emphasis on safety, sadly over 130 firefighters 
were injured while saving lives or protecting structures. Accomplishing 
this mission with as few major injuries is nothing short of remarkable 
considering the extreme conditions they faced. What the San Diego Union 
Tribune referred to as ``time lost'' is actually what professionals use 
to maintain pilot safety levels. We demand that we have alert, 
informed, and mission ready crews before queuing up and flying again.
    We do not take lightly the decision to fly fire missions. Our 
experienced pilots face the harshest firefighting conditions in the 
world. In October we had more than twenty fires burning at once, and 
any firefighter can tell you that the conditions at each fire varied 
widely. Weather, terrain and visibility can vary erratically in 
southern California. The sheer magnitude of the October fires was 
incredible, and the fires moved in ways we have never seen. In some 
locations, flames were advancing at an acre per second amid 80 mph wind 
gusts.
    CAL FIRE, the U.S. Forest Service (USFS), and local government 
deployed additional engines, aircraft and personnel to southern 
California in advance of the fires because we knew of the potential of 
the conditions present. It should be noted that this kind of pre-
deployment did not occur in 2003 at the same level. When the recent 
fires hit, every aerial mission that could safely be flown was 
launched. CAL FIRE aircraft alone flew over 800 hours and dropped 
1,153,882 gallons of fire retardant. The USFS and their contractors 
also flew as safety permitted.
    Under normal conditions, local firefighting officials have rapid 
access to mutual aid from other local government fire agencies, as well 
as CAL FIRE resources. The calls for assistance are acted on 
immediately as resources are available. Improved communication among 
the multiple jurisdictions was evidenced by multiple media reports of 
everyone working together effectively.
    As the Chief, I believe that one life lost in a fire is too many. 
Tragically, 10 lives were lost to these fires. However, despite worse 
conditions faced in 2007, the 2003 fires resulted in hundreds more 
homes destroyed and 24 lost lives.
    While a review of performance is an important process, we cannot 
deny that our collective response and performance in October was 
extraordinary. California managed the most orderly mass evacuation in 
history. People risked their lives over and over again. Many lives and 
thousands upon thousands of homes were saved.
    Of course, improvements can always be made and we welcome a 
thoughtful and thorough review. The fire service does with all fires. 
We will improve where we need to improve. However, to be effective, 
improvements in emergency response capability must be accompanied by 
better local land use decisions, better planning, improved building 
construction, increased defensible space, and more fuel treatments of 
forested lands and vegetation near communities. Planned areas for 
sheltering-in-place or areas of refuge that would minimize large scale 
evacuations must be part of developments in the Wildland Urban 
Interface (WUI).
                        actions that worked well
    During the October fires, pre-deployment of CAL FIRE resources 
included additional air tankers at Ramona, Hemet, Porterville, Paso 
Robles, and Fresno.
    There was good communication between the involved Contract Counties 
on evolving issues in order that we could work together to find 
solutions.
    There was outstanding coordination and working relationship between 
USFS and CAL FIRE in the southern Operations Center (SOC). We were able 
to work closely together to find solutions to challenges before they 
got problematic.
    This fire siege mobilized a massive amount of personnel in a 
condensed period of time. In a 2-day timeframe, we mobilized more than 
we did in the 6-day 2003 fire siege. We also mobilized and utilized 
more and different types of equipment than in 2003. At peak there were:
  --Total firefighters--15,616
  --Engines--2,585
  --Strike Teams/Task Forces--263
  --Dozers--225
  --Handcrews--298
  --Watertenders--284
  --Overhead personnel--1,707
  --Assistance from Arizona, Idaho, Colorado, North Carolina, 
        Washington, Wyoming, Nevada, New Mexico, Oregon and the country 
        of Mexico.
  --Number of different fire departments involved approx. 1,148.
    Relatively low serious injury rate among the firefighters, coupled 
with the intensity of the fire siege, can only be credited to a strong 
emphasis on safety and situational awareness among the personnel 
assigned.
    The Federal grant funding for fuel treatments that was used to open 
up escape routes and in some instances caused the crowning fire to drop 
to the ground help save lives, property and money.
    The activation of a satellite/GIS situation status function 
utilizing new technologies with the military served emergency 
operations well. This provided data to incidents, the MACS, and the SOC 
Situation Unit.
    Mutli-Agency Coordination System (MACS) was in place and conducting 
calls (setting priorities) at 2 pm on Sunday, October 21, 2007.
    Cal Fire and OES were very active and represented at the SOC in 
both the communications (JIC) and Situation Status functions.
    Cal Fire immediately assigned a documentation group to begin 
working on the after action report elements for the department.
    Mobilization Centers were established at Prado (inmate crews) and 
Chino (other crews and engines)
    In addition to the large fires that occurred, between Oct 20-25 
there were 251 vegetation fires started in the south that were caught 
on initial attack (per 209s).
  --Riverside--51
  --San Bernardino--30
  --Orange--49
  --Los Angeles--9
  --San Diego--45
  --Southern 4 National Forests--67
                        what were the challenges
    Severe weather and visibility from sustained Santa Ana winds. At 
times the winds reached hurricane-level speeds in some areas.
    The absence of a local operating plan impacted the activation of 
the Marine aviation assets.
    Multiple ordering processes caused difficulties in the ordering of 
out-of-State resources. The arrival of these resources impacted the 
mobilization centers.
    Federal, State, and local agency preparedness and capability to 
prepare for, respond to and recover from a disaster incident varies 
widely. This complicates the organization, quality and speed of 
response.
    The Federal Resource Ordering and Status System (ROSS) slowed and 
broke down several times during the siege due to an overload of the 
system.
    We had 3 Accident Investigation deployments and 2 others that we 
could have put a team on but elected not to because of unavailability 
of people to fill the positions.
    We had Critical Incident Stress personnel deployed in San Diego 
prior to the burnover and fires due to a recent Cal Fire line of duty 
death. They activated every available Critical Incident Stress 
Management (CISM) personnel in CAL Fire, peer support, Chaplaincy 
programs and local programs to assist in the accidents and the fires. 
This was beyond burnout for these personnel, half of them having been 
doing CISM for 4 weeks solid by the time it was over. We need to 
finalize the CISM policy and start the training for these teams this 
winter.
    The Fire Weather personnel predicted this as a moderate event. It 
strengthened very late in the game and this did not give us much lead 
time to react.
    Need to change the Multi-Agency Coordination System (MACS) 
guidelines to reflect a need for coordination with Area Command when 
one is established. The MACS operated to establish priorities without 
Area Command oversight even after the Area Command was established.
                         recommended solutions
    Land use decisions are all local, including in State Responsibility 
Areas (SRA). There is a need to enhance Fire Prevention and Planning 
involvement in State Responsibility Areas (SRA) with local government. 
(Defensible Space, Land Use Guidelines and Incentives, Vegetation 
Management, Public Education) and ensure that local government is 
taking responsibility for appropriate fire prevention and protection in 
Local Responsibility Areas (LRA).
    CAL FIRE has started to develop a local operating plan with the 
Marine units by entering into an interim agreement, beginning training 
sessions with Marine helicopters and Cal Fire personnel, and scheduling 
a meeting on November 28 to continue development of a long term 
operating plan.
    Firefighting should be made a principle mission for the military 
and funding for equipment, training, and coordination with other 
Federal, State, and local firefighting organizations should be provided 
by Congress especially for the California National Guard, U.S. Navy 
Reserve, and U.S. Marines in the State.
    Revisit the ordering processes and where necessary provide 
clarification. Provide training for MACS and South Ops agencies.
    Develop an agreement that would guide Federal, State and local 
agencies to prioritize and implement pre-fire prevention (e.g. fuel 
breaks), preparedness and post-fire rehabilitation and recovery 
activities (e.g. Multi-Agency Burn Area Assessment and Response Teams) 
consistent with existing fire suppression mutual aid agreement 
methodologies.
    Update aviation assets for Federal, State, and local government.
            california preparations for the 2007 fire season
    California has adopted new Wildland Urban Interface Building 
Standards. For the past two years those standards have been voluntary. 
The new codes go into mandatory effect in January 2008, as do the new 
adoption of the International Building and Fire Codes. The new code 
will require buildings built in high fire severity zones to be 
constructed under newly adopted standards for ignition resistant 
materials on the exterior of the buildings. Along with defensible 
space, these standards are expected to reduce the potential for 
ignition from radiant heat, direct flame contact, and flying embers 
during wildfires.
    California has also adopted new 100 feet defensible space standards 
which went into effect in 2006 when approved by the State Board of 
Forestry and Fire Protection. The standards require 30 feet of lean, 
green, and clean space around homes and an additional 70 feet of 
reduced fuel loads.
    California has updated the State's fire severity zone maps for 
State Responsibility Area (SRA) and is in the process of working with 
local government on the fire severity zone maps for Local 
Responsibility Areas (LRA).
    In preparation for what looked to be a very challenging fire season 
due to extraordinarily dry conditions, CAL FIRE had coordinated its 
preparation efforts with the Governor's Office of Emergency Services, 
the California National Guard, the FIRESCOPE Board of Directors, and 
all of our contract counties (Los Angeles County, Orange County, 
Ventura County, Santa Barbara County, Kern County, and Marin County). 
In addition, pre-fire season meetings had been held with the Fire 
Chiefs of the City of San Diego and the City of Los Angeles. During the 
2007 Griffith Park and Catalina Island fires, CAL FIRE worked well with 
our local and military counterparts.
    CAL FIRE had made ready all of its 804 statewide fire stations. CAL 
FIRE has a statewide workforce of 4,510 firefighters including 1,604 
seasonal firefighters who were trained and staffing most of the State's 
emergency response equipment at increased levels. An additional 450 
seasonal firefighters are in the CAL FIRE workforce as a result of a 
contract with CDF Firefighters approved by Governor Schwarzenegger last 
year.
    CAL FIRE operates 23 air tankers, 11 helicopters, and 14 air 
tactical aircraft from 13 air attack and 9 helitack bases located 
statewide. Under normal conditions, aircraft can reach most fires 
within 20 minutes. The CAL FIRE emergency response Aviation Program was 
ready for deployment anywhere in the State.
    Off-season aviation maintenance was on-schedule. Readiness and 
safety training had been conducted for all pilots. Pre-fire season 
training had been completed with the Navy Reserve and California Air 
National Guard's helicopter resources.
    The CAL FIRE Aviation Program is the best firefighting operation in 
the world. The recently signed Executive Order from the Governor also 
allows the deployment of a contracted DC-10 Supertanker on large fires, 
on an immediate-call basis beginning June 15. DC-10 and lead plane 
training had been completed. The DC-10 had flown several missions 
throughout the fire season. The DC-10 is capable of dropping 12,000 
gallons of water or retardant on large fires compared to the 1,200 
gallon capability of the CAL FIRE S2T Air Tankers which make air 
strikes with surgical precision during initial attack.
    Readiness training had been conducted for all CAL FIRE inmate fire 
crews. CAL FIRE operates 39 Conservation Camps statewide that house 
over 4,300 inmates and wards. These Camps are operated in conjunction 
with the California Department of Corrections and Rehabilitation. 
Through these cooperative efforts CAL FIRE operates 198 fire crews 
year-round. Each fire crew is typically composed of 16 crew member 
inmates and 1 fire captain. These crews are available to respond to all 
types of emergencies including wildfires, floods, search and rescue, 
and earthquakes.
    In addition to seasonal resources and the year-round staffing 
authorized by the Governor's Executive Order, many permanent resources 
have been added in southern California since the Fire Siege of 2003, 
the largest fire in California history. CAL FIRE has 147 cooperative 
fire agreements to provide fire protection for local government in 35 
of the State's 58 counties, in 25 cities, 31 fire districts, and 34 
special districts.
    CAL FIRE Riverside County added 9 new fire stations and 9 
additional engine companies along with165 additional personnel. The 
City of Riverside added 2 new engine companies. CAL FIRE Riverside has 
also added an additional fire crew at the Oak Glen Camp which is an 
addition of 16-20 firefighting inmate personnel. During 2007, they will 
add about 35 additional firefighters for four person State engine 
companies for the fire season.
    CAL FIRE San Bernardino Unit added one new fire station with 6 new 
firefighters. CAL FIRE San Diego Unit added 2 fire stations and 11 
volunteer stations along with 21 new firefighters. An additional 
station is pending with 6 new firefighters, 21 engines, 4 rescues, and 
5 water tenders were added to their equipment fleet. San Diego County 
added 2 helicopters in 2 helitack facilities (El Cajon, Fallbrook) and 
27 firefighting personnel.
    In addition, CAL FIRE Contract Counties have added resources since 
2003. Los Angeles County Fire Department added 6 stations for a total 
of 165 stations and added 290 firefighters since 2003 for a total of 
4,635 today. Orange County Fire Authority (OCFA) added 54 firefighters, 
a 2nd helicopter, and one additional hand crew. OCFA also just recently 
received approval for helicopter replacements. Ventura County Fire is 
now operating 4 Super Huey helicopters (1 reserve) with 3 pilots.
    But the most important partnership is with homeowners who reduce 
the threat of wildfires by removing flammable vegetation and brush 
around their homes. In response to the Governor's Executive Order, CAL 
FIRE had added Wildland Urban Interface (WUI) inspectors to conduct 
defensible space inspections in high-hazard areas as extra preventative 
measures during this fire season.
    CAL FIRE has provided equipment, staff time and personnel to 
countless projects throughout the State for decades. The department has 
granted millions of dollars statewide, including nearly $2 million in 
Prop 40 funds, for chipping and fuel reduction programs in the Lake 
Tahoe Basin alone since 2004 alone.
    CAL FIRE supports all community based non-profit fire prevention 
organizations that are dedicated to providing wildland fire prevention 
and education programs and projects. It is important that all eligible 
individual non-profit fire prevention organizations in the State have 
an equal opportunity to receive grant funding to support their 
programs. There are nearly 90 statewide. CAL FIRE wants to ensure that 
taxpayer money is appropriately distributed, coordinated, and evaluated 
in accordance with statewide objectives and priorities.
    CAL FIRE has developed cooperative working relationships with a 
variety of partners in order to accomplish common goals. Partners 
include the California Fire Alliance and the California Fire Safe 
Council. Many fire prevention education materials used by the local 
Fire Safe Councils are provided by CAL FIRE and other fire agencies.
    Objectives include those outlined in the California Fire Plan and 
the National Fire Plan. Organizations such as Mountain Area Safety 
Taskforce (MAST) located in Riverside and San Bernardino Counties, 
Forest Area Safety Taskforce (FAST) in San Diego County, nationally 
recognized Firewise Communities, Community Emergency Response Teams 
(CERT), Fire Corps, and CAL FIRE Volunteers-In-Prevention are other 
important partners.
    There is not one single group throughout the State that works these 
issues. Most are local programs created at the grassroots level. Our 
job is to help them succeed. CAL FIRE personnel spend a significant 
amount of time and effort working with these fire prevention groups and 
other agencies with jurisdiction in and around their communities. 
Coordinating the message of homeowner, local and State responsibility 
is a fundamental goal of our efforts because Wildland-Urban Interface 
fires crosses all boundaries and affects all residents. Consistent 
messages and strong integration of programs are the keys to 
successfully mitigating fire risk.
    In addition CAL FIRE administers several State and Federal forestry 
assistance programs with the goal of reducing wildland fuel loads and 
improving the health and productivity of private forest lands. 
California's Forest Improvement Program, and other Federal programs 
that CAL FIRE administers, offer cost-share opportunities to assist 
individual landowners with land management planning, conservation 
practices to enhance wildlife habitat, and practices to enhance the 
productivity of the land.
    The Department also delivers the Forest Stewardship Program which 
combines funds from State and Federal sources to assist communities 
with multiple-ownership watershed and community issues related to pre-
fire fuels treatment, forest health, erosion control, and fisheries 
issues.
    Homeowner Associations and nationally recognized Firewise 
Communities have made a huge impact on the fire prevention education of 
wildland urban interface residents. Our goal is to continue these 
partnerships. We encourage all Californians to get involved with local 
groups to expand the message of wildfire safety throughout California. 
For more information on how you can get involved, visit our website at 
www.fire.ca.gov
    Wildfire preparedness is not solely a State issue. Other 
responsible local government communities have added resources since 
2003 and have prepared their personnel and communities with Community 
Wildfire Protection Plans. With the adoption of 100 feet defensible 
space requirements by the Board of Forestry and Fire Protection last 
year, local and State governments have been provided with guidelines 
for making their communities better prepared to reduce the risk of 
wildfires and make California a safer place to live. However, 
California remains one of the most wildland fire prone States in the 
Nation.
                       2007 fire season strategy
    Over the past several years the cost of fire protection and 
utilization of the State of California's emergency fund has risen 
dramatically. Emergency fund expenditures over the last fiscal year are 
approaching $200 million, more than 200 percent of budgeted funds. 
These rising costs of fire protection are occurring at the Federal 
level, as well. As discussed below, the cost of fire protection will 
continue to rise until local, State, and Federal Government get a 
better handle on land use, planning, and development.
    Contrary to discussions taking place at the Federal level, giving 
up on fighting structure fires, solely based on financial reasons, or 
passing the responsibility on to other jurisdictions will not resolve 
these issues anytime soon in California. Sound public policy will not 
allow this to occur. However, taking a ``defensive strategy'' on those 
structures which are not defendable or survivable by firefighters due 
to fire conditions, lack of defensible space or inadequate resources 
will NOT continue to be an acceptable firefighting strategy for CAL 
FIRE.
    Life safety, property safety, and the environment remain our 
highest priorities. Our goal continues to be to keep 95 percent of 
fires at 10 acres or less. This is a goal we have continually met. 
However, last year the emergency fund cost of all fires over 10 acres 
(less than 5 percent of our total) greatly exceeded the emergency fund 
cost of all fires kept to 10 acres or less (over 95 percent of our 
total).
    This year's fire conditions are as extreme as ever, including 2003, 
the year of California's worst fires. In some parts of southern 
California the conditions are the worst ever recorded due to drought, 
winter freeze, and infestation.
    We cannot continue to do things in the same way and expect a 
different outcome. We must keep fires smaller more frequently. This 
will save lives, reduce property loss, and reduce green house gas 
emissions in California.
    The best strategy to accomplish this is to conduct effective fire 
prevention and defensible space inspections; keep the public educated 
and informed; and hit fires fast, hit them hard, hit them with lots of 
initial attack resources
    To control large fires we have invested budgeted emergency funds 
early, in a manner authorized by the Governor's Executive Order as 
follows:
    (1) Develop frequent press releases regarding successes and lessons 
learned for public consumption;
    (2) Aggressively conduct inspections and require defensible space 
around structures in extreme fire hazard areas in the early part of the 
fire season;
    (3) Staff State fire engines at 4.0 staffing where fire hazards are 
extreme; and
    (4) Contract for immediate availability of the DC-10 for the peak 
part of the fire season beginning on June 15th.
    While this has not been done in the past, our management team 
believes, and I concur, that these measures, effectively applied in 
combination, will meet our objectives of:
    (1) Saving lives;
    (2) Reducing Property loss;
    (3) Improving firefighter safety; and
    (4) Reducing Green House Gas Emissions.
    Management staff has begun the implementation of this new strategy. 
We will measure the effectiveness of these strategies on a monthly 
basis to see if the additional aviation, prevention and suppression 
resources are having the expected impact on the magnitude and size of 
fires, firefighter safety, loss of life, protection of property, and 
environmental quality.
                      the true costs of wildfires
    What are the true costs of a wildfire? When we calculate a fire's 
cost, our focus is limited to what occurs within the fire's perimeter 
and ends when our finance section closes the books shortly after full 
control. With this traditional approach we capture such things as 
gallons of retardant dropped, personnel costs, assistance by hire 
costs, meals served, rental equipment time, rehab work and the number 
and value of structures damaged or destroyed. No cost is, or can be, 
attached to the pain and suffering of family and friends when lives are 
lost in a wildfire, be they firefighters or civilian.
    In our post-fire financial analysis we often fail to consider all 
of the true costs of a wildfire. Some of the financial impacts are not 
easily determined. The costs that we don't consider include; economic 
loss due to business disruptions, loss of tax revenue to local and 
State government, insurance payouts and premium increases, utility rate 
increases, restoration costs, as well as the environmental impact on 
air quality, contribution to global warming, and possibly most 
importantly, the impact on the watershed and its downstream influence 
to greatly affect the environment and the economy of California.
    Let me touch on the environmental and financial impacts of a 
wildfire. The Old and Grand Prix fires of 2003 cost $61 million to 
fight. However, the true cost of these fires is closer to $1.3 billion. 
The fire suppression costs account for only 5 percent of the total. The 
remainder is divided between insured property loss of $576 million (45 
percent), damage to southern California Edison of $100 million (8 
percent), other government losses of $28.7 million (2 percent), and 
watershed restoration in the amount of $506 million (40 percent).
    The majority of the costs associated with these two fires were paid 
for by tax payers, from higher insurance premiums, and from utility 
customers far removed from the fire's perimeter. These fires burned in 
San Bernardino County and a small portion of Los Angeles County. Damage 
to watershed occurred in San Bernardino, Los Angeles, Riverside and 
Orange Counties. Residents in those watersheds bore 40 percent of the 
costs of the fire, yet, for the most part, had no say in the land use 
practices that contributed to the fire's intensity and size.
    Our first priority in any fire is protecting lives. Four people 
died as a result of the Old Fire. They suffered heart attacks during 
the course of the evacuation. Six weeks after the fires were controlled 
a rainstorm occurred, resulting in mud and debris flows that claimed 
fourteen lives.
    The life loss and fiscal impacts from these two fires clearly show 
that we must broaden our perspective of a fire's true costs and risks, 
and develop strategies to prevent or minimize the impacts of wildfire 
and its after-effects.
    We all have seen the fire/flood sequence in California and 
recognize that we will be sandbagging around homes that were saved from 
fire months earlier. What we are not adequately addressing are the 
consequences to the State when we permit damage of this magnitude to 
occur in our watersheds.
    Encroachments into California's watersheds have reduced both the 
effective size and quality of the land functioning as watershed. Water 
is a prime economic engine for our State. It is required for 
agricultural, industrial, and urban development. In the past, there was 
little encroachment into watershed lands, partly out of recognition of 
their role in a primarily agricultural economy. Also, their remoteness 
from existing developed communities protected their existence. Times 
have changed and our watersheds have been impacted by the following 
trends:
    Trend 1.--As housing costs in many areas have skyrocketed into 
unaffordable ranges people look further out to find affordable housing. 
They are moving to communities being built on the closest available 
open land, which happens to also be, in large part, the State's 
watersheds. Significant development in these areas can result in large 
cumulative acreages being covered up by man-made structures and paved 
surfaces. This is turn increases the amount of surface water runoff 
during storms, which leads to more soil erosion, water impoundment 
degradation and less water available for trees, vegetation, irrigation, 
and recreation during the critical summer months.
    Trend 2.--Multi-generational, large extended families are 
purchasing and living in what traditionally were viewed as single 
family homes. As housing prices increase, this concept of extended 
family home ownership is becoming more widespread throughout 
California. This demographic change puts more demand for all services 
and increases the draw on existing water supplies at the same time that 
watersheds are being reduced by development.
    Trend 3.--Baby-boomers are retiring in large numbers. Many are 
choosing retirement outside of the urban areas. They are taking equity 
derived from their urban lifestyle and building large homes in the 
Wildland Urban Interface (WUI).
    Trend 4.--By far, the largest percentages of wildfires are human-
caused. Increased human presence in the Wildland Urban Interface 
equates to an increase in fire starts, whether intentional or 
accidental.
    Trend 5.--As more people move into and live in the WUI, more people 
are at risk during a wildfire, and more people are in need of 
evacuation. Fire ground commanders must use initial resources on 
evacuation, rather than controlling the fire perimeter. Fires grow 
while we evacuate more and more people.
    Trend 6.--Regulatory uncertainty, an increasingly cumbersome and 
overlapping regulatory environment, economic competition, and return on 
investment are driving landowners toward timberland conversions to 
housing developments in the WUI and private forests.
    Trend 7.--The growing concern for the environment will not end with 
a change in land use. The responsibility and cost of environmental 
review will most likely shift to the local land use planning agencies 
and be reflected in increase costs to permit applicants. Litigation 
will follow the growing competing interest for use of more traditional 
rural acreages with new, more restrictive environmental laws and 
regulations as a result.
    Trend 8.--Recent studies show a causal link between Global Warming 
and the increase in fire frequency. All fires spontaneously release 
stored carbon. This released carbon contributes to greenhouse gasses 
and Global Warming.
    Trend 9.--Increased fire frequency and intensity accelerates fuel 
type conversion in watersheds. This conversion generally results in 
light flashy fuels and shortened fire return interval. Light flashy 
fuels such as grasses and small brush species have much less value in 
sequestering and storing carbon than the tree dominated landscapes.
    Trend 10.--Homes are regularly built or re-built in harm's way 
despite historic evidence of the dangers. In San Bernardino, 280 homes 
were destroyed in the Panorama Fire in 1980. 230 of those same homes 
were in the fire area of the Old Fire of 2003.
    These trends create a self sustaining ``Wildfire Frequency and 
Intensity Loop.'' We cannot alter this ``Wildfire Loop'' through 
traditional means. Due to public and political expectations, the fire 
service typically addresses an increased fire threat with an increased 
fire suppression capability. While beneficial as a short term strategy 
to save lives and property, it will do nothing to break the ``Wildfire 
Loop'' or affect the long term environmental impacts.
    The real solution will require us to go back to one of our primary 
responsibilities of watershed protection. We must recognize that 
development is going to continue in California. There is far too much 
demand. Housing starts have not kept pace with projected needs for 
several decades. While responsibility for the political solutions 
surrounding these complex issues lie elsewhere, it remains our 
responsibility to provide leadership and technical support, responsible 
resource management, and outstanding emergency response capabilities 
for the policies chosen.
    Development can occur in a sustainable manner that recognizes the 
resource demands of new or proposed developments. Limiting factors have 
to be acknowledged in development, especially those factors that have 
impacts beyond the development itself. First and foremost among those 
limiting factors is water. Mark Twain once said, ``Whiskey is for 
drinking and water is for fighting over.'' This will be truer in our 
near future than it ever was in our past. Second, environmental impacts 
on the land and air may be limiting to development in many areas. And 
finally, the ability for State or local government to provide emergency 
response services must be considered.
    As firefighters, we need to better understand the role that 
watersheds play in the economic sustainability of California. In order 
to do so, we must draw on the knowledge and expertise of our CAL FIRE 
Resource Management staff, as well as our counterparts in the other 
Resource Agency Departments. Furthermore, CAL FIRE and the Resource 
Agency must be engaged in the development and land use practices 
throughout the State to ensure that our watersheds remain a vital 
resource for the economic and social well-being of California. We have 
a responsibility to help ensure the future health and vitality of our 
watersheds, not just from fire, but from all actions that degrade their 
size and function.
    I believe it is important that we reach out to our State and 
Federal partners, local government, city and county planners, 
environmental stakeholders, and fire officials. The complexity of 
operating today results partially from a myriad of jurisdictional 
boundaries, agency regulatory responsibilities, and a reluctance to 
move away from a ``this is my turf'' mentality. If we look for mutually 
beneficial solutions, rather than just for what others can do for us, 
the benefits of a coalition can be realized.
    The true costs and impacts of wildfire will continue to 
dramatically increase if we do not act. They will negatively impact 
firefighter and public safety, sustainable development, and watershed 
vigor. Somewhere in our future there is a tipping point beyond which 
our State will not recover easily. A significant part of California's 
future lies in CAL FIRE's beginnings in watershed protection. Our 
department must protect California's watersheds not just from fire, but 
from our own future decisions.

    Senator Feinstein. Chief Zagaris.
STATEMENT OF KIM ZAGARIS, CHIEF, FIRE AND RESCUE 
            BRANCH, GOVERNOR'S OFFICE OF EMERGENCY 
            SERVICES
    Mr. Zagaris. Thank you, Senator, and other honorable 
members of the committee. You already have my testimony and I'm 
going to just--some of the items have already been covered by 
the panel.
    I will tell you that California has probably one of the 
best emergency management systems in the country. It's used as 
a role model for the rest of the Nation, and we're very proud 
of the program we have. That being said, there is always room 
for improvements and lessons learned every event that we do 
have.
    Besides myself today, I have with me Steve Sellers, who's 
our southern Regional Administrator and part of our leadership 
staff here in southern California, working with our good 
friends from FEMA on several of our projects that we'll be 
needing to work through, and both the response and especially 
the recovery side, which is always a more daunting task for all 
of us.
    Since you already have my testimony, I'm going to move 
right into my recommendations on my testimony and start right 
in with a couple thoughts.
    One panel--the earlier panel already talked about it, but 
we would ask Congress to support and maybe adjust and allow the 
States to start applying for some of the Federal firefighting 
assistance grants that DHS and FEMA do manage. This would allow 
possible funding for those additional 150 OES engines that were 
recommended in the 2003 fire siege.
    Right now, we're unable to apply for those, based upon 
those rules and regulations. But I will tell you, in 1950 and 
1951, the current 110 OES engine fleet came about through 
matching Federal funds.
    After those funds purchased with assistance from the 
State's share--we purchased those 110 engines, we continued to 
manage that program over the last 50 years, and adjusting that 
would be a great assistance to us, as well.
    California is not only a receiver of mutual aid, but we're 
a great provider of mutual aid, too, throughout the western 
region of this country.
    International Association of Fire Chiefs has a national 
fire system mutual aid program. We'd be grateful--we could 
also, by that funding, be able to provide additional apparatus 
and search capacity in western United States and throughout the 
country, if necessary.
    We would also, as already mentioned, ask Congress to 
support the modular airborne firefighting system MAFF 2 modules 
for C-130J models.
    We would also again ask that additional support be looked 
at for supporting the U.S. Forest Service to bring back up its 
air tanker fleet to its earlier capability to several years 
ago. That would be a great assistance not only to California, 
but to the western United States.
    One of the things we worked with with the Federal agencies, 
California and CAL FIRE and our Federal wildland agencies had 
originally developed a program called MERPs. It was eventually 
replaced with a program called Resource Ordering Status System, 
ROSS.
    We do need to take a look at its capability and how it 
responded to meet our needs in California with our State fire 
and rescue mutual aid system, CAL FIRE, and our Federal 
wildland agencies.
    We do know that there are some adjustments and some 
corrections that could be needed, and that will take some 
support and working with you, as well as with U.S. Forest 
Service, to meet some of those challenges.
    We'd also ask Congress to support the development of a 
National Guard firefighting helicopter aviation training and 
standardized program. As we talked yesterday, arson has long 
been a weapon of choice for sabotage, civil disturbance, and, 
of course, terrorists. As I reminded the committee yesterday, 
the FBI sent out a warning on July 12, 2003 that Al-Qaeda had a 
plot to burn our western forest.
    So I would once again ask that we look at making the 
National Guard firefighting program part of its national 
mission.
    Five, I would ask that Congress support the State's request 
that Department of Defense, in particular, NORTHCOM, enter into 
a master interagency agreement with California through our 
California Fire Assistance Agreement for the provisions of 
coordinating resource and providing support pre-emergency 
operations and during-emergency operations, not just for 
wildland, but for all risks.
    Six, I would request to support the expansion of the OES 
Fire and Rescue Command Net by installing additional 
mountaintop repeaters to provide greater interoperability both 
with local, State, and Federal agency for our agencies and 
personnel to meet--there were challenging needs that we do have 
day to day.
    From the emergency management side, we would ask that the 
inclusion of wind damage in Federal declarations. The Governor 
has asked for clarification on including wind damage in Federal 
declarations. We are waiting to hear back from the Bush 
administration on that particular answer.
    The ability to maximize Federal reimbursement for debris 
removal on private property. Want to ensure that FEMA policy 
debris removal and private property is taken care of in a 
timely manner.
    We'd ask also that reimbursement to State and local 
agencies for emergency protective measures implemented can--if 
not funded, can forestall post-fire threats. The MASG group 
that was actually put together, Multi-Agency Support Group, by 
local, State, and Federal agencies to look at some of that 
would be important.
    Adequate funding by USDA's Natural Resource Conservation 
Service for emergency watershed programs funding would ensure 
the effective post-fire mitigation measures could be undertaken 
on private property as part of the comprehensive effort to 
address watershed, be managed by the MASG.
    Ensure that Emergency Management Performance Grant is 
enhanced to support local and State emergency management system 
building. An established and well-managed emergency management 
system at the local, State level makes tremendous difference in 
managing any disaster at both the local, State, and Federal 
level. That has some of our recommendations for you and the 
committee.

                           PREPARED STATEMENT

    Senator Feinstein. Thank you very much. I was just going 
through your written statement. I take it the recommendations 
you were speaking about are those that begin on page 11 of your 
statement; is that correct?
    Mr. Zagaris. Correct.
    Senator Feinstein. Thank you. That's helpful. Thank you 
very much.
    [The statement follows:]
                   Prepared Statement of Kim Zagaris
    Good morning Senator Feinstein and Allard, my name is Kim Zagaris 
and I am the State Fire and Rescue Chief for the State of California, 
Governor's Office of Emergency Service.
    The Office of Emergency Services Fire and Rescue Branch is 
responsible for the development, implementation and coordination of the 
California Fire Service and Rescue Emergency Mutual Aid Plan. The Plan 
is developed and updated under guidance and approval of the Fire and 
Rescue Service Advisory Committee/FIRESCOPE Board of Directors.
    The continued success of California's unique and highly-effective 
Fire and Rescue Mutual Aid System demands a maximum level of 
understanding and cooperation by all who use and support it.
    From inception, California's Fire and Rescue Mutual Aid System has 
been guided by the fire services operating within the State including 
local, State, and Federal agencies.
    The California's Fire and Rescue Mutual Aid System Program has 
seventeen members Committee/Board that provides input and direction for 
the Governor and the Office of Emergency Services. The Fire and Rescue 
Service Advisory Committee/FIRESCOPE Board of Director provides 
guidance in determining the nature and scope of services to be 
provided, and in developing operational policies. Membership represents 
all branches of the fire service, the U.S. Forest Service, National 
Park Service, California Department of Forestry and Fire Protection, 
State Fire Marshal, Bureau of Land Management, county, city and 
volunteer fire departments, and fire districts. Special Advisors to the 
Committee are representatives from California Professional Fire 
Fighters Association and California State Firefighters Association.
    The OES Advisory Board's role is to deal with mutual aid, 
cooperative agreements, and fire/rescue regional policy issues and to 
advise the Director of OES in matters of statewide importance. The 
decision-making process for these matters rest within a majority rule 
process due to the size of the Board and limited discussion time. 
Minority viewpoints are also forwarded to the OES Director for 
consideration.
    The FIRESCOPE Board of Director's role is maintaining and improving 
FIRESCOPE products and services [i.e., Incident Command System (ICS) 
and the Multi-Agency Coordination System (MACS)]. The decision-making 
process for these matters is built upon the FIRESCOPE organization and 
the ``consensus'' decision-making process that creates buy-in among 
diverse local, State, and Federal fire agencies toward a common goal.
                           mission statement
    The mission of the FIRESCOPE Board of Directors is to provide 
recommendations and technical assistance to the Office of Emergency 
Services (OES); to maintain the FIRESCOPE Decision Process and continue 
the operation, development, and maintenance of the FIRESCOPE Incident 
Command System (ICS) and the Multi-Agency Coordination System (MACS); 
and maintain a system known as the FIRESCOPE Decision Process to 
continue statewide operation, development, and maintenance of the 
following FIRESCOPE developed Incident Command System (ICS) and Multi-
Agency Coordination System (MACS) components.
  --Improved methods for coordinating multi-agency resources during 
        major incidents.
  --Improved methods for forecasting fire behavior and assessing fire, 
        weather and terrain conditions on an incident.
  --Standard terminology for improving incident management.
  --Improved multi-agency incident communications.
  --Multi-agency training on FIRESCOPE developed components and 
        products/services.
  --Common mapping systems.
  --Improved incident information management.
  --Regional operational coordination centers for regional multi-agency 
        coordination.
    The mission of the OES Fire and Rescue Services Advisory Committee 
is to provide professional recommendations and technical assistance to 
the Director of OES and the OES Fire and Rescue Branch on the following 
program elements:
  --Statewide Fire and Rescue Mutual Aid Plan
  --Statewide Fire and Rescue Mutual Aid System
  --Mutual Aid Use and Application
  --OES Fire and Rescue Branch Staffing Needs/Requirements
  --Policies and Programs
  --Apparatus and Equipment Programs
      california fire service and rescue emergency mutual aid plan
    The plan supports the concepts of the Incident Command System 
(ICS), the California Standardized Emergency Management System (SEMS), 
and mulit-hazards response planning. It is intended that more detailed 
operational plans will supplement this document at the local, area and 
regional levels. California fire and rescue services conducts emergency 
operations planning at four levels; Local, Operational Area Regional, 
and State. To effectively implement the plans formulated at the various 
levels, all plans should be developed with the framework of the 
California Fire Service and Rescue Emergency Mutual Aid Paln.
    Although mutual aid plans and agreements have existed in California 
for many years, the California Fire Service and Rescue Emergency Plan 
as we know it today, was first prepared and adopted in 1950 as Annex 3-
C of the California State Civil Defense and Disaster Relief Plan. The 
original plan and subsequent revisions were prepared, approved, and 
adopted after careful consideration by the Fire and Rescue Service 
Advisory Committee.
    The Plan, basic and uncomplicated, is based on the concept of 
``self-help'' and ``mutual aid.'' The State of California, all 58 
counties, and nearly all city governments are signatory to a Master 
Mutual Aid Agreement. Mutual aid extended under this agreement and the 
operational plans' adopted pursuant thereto, shall be available and 
furnished in all cases of ``local emergency,'' ``state of emergency,'' 
and ``state of war emergency'' as defined in the Emergency Services 
Act. The act also provides the basis for exchange of mutual aid under 
any and all other circumstances.
    The Plan provides for:
    1. Systematic mobilization, organization and operation of fire 
service resources of the State and its political subdivisions in 
mitigating the effects of disaster.
    2. Comprehensive and compatible plans for the expedient 
mobilization and response of available fire service resources on a 
local, area, regional, and statewide basis.
    3. Establishment of guidelines for recruiting and training 
auxiliary personnel to augment regularly-organized fire personnel 
during disaster operations.
    4. Annual update of fire service inventory of all personnel, 
apparatus and equipment in California.
    5. A plan and communication facilities for the interchange and 
dissemination of fire-related data, directives and information between 
fire officials of local, State and Federal agencies.
    6. Coordination and implementation at State level of government 
(Chief, State Fire and Rescue Coordinator).
Basic Tenets of the Plan--Self-Help and Mutual Aid
    Fire and Rescue officials have the basic responsibility for 
preparing their communities for potential threats.
    The Responsible Agency will reasonably exhaust local resources 
before requesting Mutual Aid.
  --This should not preclude requesting Mutual Aid early, when it is 
        apparent the incident will likely exceed local resource 
        capability.
    Fire and Rescue officials must preplan emergency operations to 
ensure efficient utilization of available resources. These preplans may 
include:
Mutual Threat Zone Planning
  --Automatic Aid Agreements
  --Plans for utilization of other locally available resources, both 
        private and public
    No community has resources sufficient to cope with any and all 
major emergencies for which potential exists.
    No party shall be required to unreasonably deplete its own 
resources in furnishing mutual aid.
    The responsible local official in whose jurisdiction an incident 
has occurred shall remain in charge at such an incident.
    Agencies receiving mutual aid are responsible for logistical 
support to all mutual aid personnel and equipment received.
                        functional organization
    The State's Fire and Rescue Mutual Aid System was developed through 
the cooperation of every segment of California's fire service. To 
maintain system integrity, local fire officials are actively involved 
in day-to-day system management and operation.
    Fire chiefs of each county (Operational Area) elect, from among 
themselves, an Operational Area Fire and Rescue Coordinator. 
Operational Area Fire and Rescue Coordinators are responsible for 
maintaining fire defense resource inventories, area mutual aid plan, 
and the dispatch of fire and rescue mutual aid resources. They are 
responsible for annual submission of fire and rescue resource 
inventories to Regional Fire and Rescue Coordinators.
    Operational Area Fire and Rescue Coordinators of each of the six 
mutual aid regions elect a fire chief, from within their respective 
region, to serve as Regional Fire and Rescue Coordinator. Regional Fire 
and Rescue Coordinators are responsible for maintaining regional fire 
and rescue resource inventories, regional mutual aid plan, and for the 
coordination of intra-regional mutual aid. They are also responsible 
for the annual submission of fire and rescue resource inventories to 
the State Fire and Rescue Coordinator.
    The State Fire and Rescue Coordinator (Chief, Fire and Rescue 
Branch) is a member of the Director, Office of Emergency Services 
staff. The Chief is responsible for the California Fire Service and 
Rescue Emergency Mutual Aid Plan, coordination of inter-regional mutual 
aid, inventory of fire defense and rescue resources within the State, 
acquisition, deployment, and maintenance of OES-owned fire and rescue 
apparatus and equipment.
OES Fire and Rescue Branch on Equipment
    110--1,000 GPM Triple Combination Fire Engines (Type 1)
    12--Water Tenders (Type I)
    3--Heavy Rescue/Fire Vehicles
    10--Swift Water Trailers
    22--Mountain Top Repeaters
    68--Base Radio Stations
    6--Mobile Communication/Support Units
    6--Portable Radio Caches with Portable Repeaters
    2--Maintenance repair units
    4--1,500 GPM Trailer Mounted Pumps
    OES Fire and Rescue Branch personnel work with the fire services 
throughout the State providing assistance in:
    1. Mutual aid fire and rescue planning;
    2. Major emergency operations;
    3. Urban Search and Rescue;
    4. Coordinating the use of OES fire apparatus, communication units, 
and other OES fire service resources during emergency operations;
    5. Purchase and assignment of supplemental fire and rescue 
apparatus and equipment;
    6. Coordination of the California Fire Service and Rescue Emergency 
Plan;
    7. Inspection and inventory of all OES fire and rescue equipment;
    8. Training for the local fire service in the Statewide Fire and 
Rescue Mutual Aid System, plans, operations, and procedures;
    9. Active participation in fire chief's organizations, committees, 
etc;
    10. Maintaining and up-to-date inventory of all fire and rescue 
resources in the State;
    11. Special assignments, fire and rescue EOC development, fire 
research, current issues in the fire service.
               statewide fire defense system (mutual aid)
    All resources responding on mutual aid operations are under the 
direction of the local fire chief requesting the mutual aid support. 
OES Fire and Rescue Branch personnel provide assistance to the 
responsible fire officials in obtaining the optimum benefits from the 
California Fire Service and Rescue Emergency Plan.
use of the california fire service and rescue emergency mutual aid plan
    The complexity, frequency, and magnitude of disastrous fire 
problems in California places an ever-increasing demand for coordinated 
mutual aid plans and operation of the fire and rescue services. As fire 
disasters are not uncommon to California, particularly in the forest 
and watershed areas, neither is it uncommon to provide mutual aid fire 
apparatus in large numbers. The 1970, 1977, 1980 and 1985, 1987, 1991, 
1992, 1993, 2003 and 2007 fire seasons placed great demands on the fire 
service. Personnel and equipment were constantly moved around the State 
in response to requests for help. During the siege of fires throughout 
southern California in the fall of 1970, 1977, 1980, 1985, 1987, 1993, 
2003 and again in 2007, large fires were commonplace throughout the 
State. Major fires consumed hundreds of thousands of acres of 
California wildland and destroyed hundreds of homes. The system 
provided vast amounts of resources in 1991 for the East Bay Hills Fire 
in Oakland, 1992 Los Angeles County riots, 1993, 2003 and the 2007 
southern California Fire Sieges. The system has repeatedly been proven 
effective in mobilizing fire defense forces sufficient to materially 
reduce losses.
    The California Fire and Rescue Emergency Mutual Aid System today 
operates under two Primary California Agreements, the Master Mutual Aid 
Agreement which is both Voluntary Mutual Aid and Obligatory Mutual Aid. 
The other is the California Fire Assistance Agreement an agreement made 
and entered into by and between the State of California, Office of 
Emergency Services (Representing the California Fire and Rescue Mutual 
Aid System) and five Forest Agencies (California Department of Forestry 
and Fire Protection, USDA Forest Service, USDI National Park Service, 
Bureau of Land Management and Fish and Wildlife Services) for the 
purpose of coordinating the use of and reimbursement for local 
government Fire and Rescue resources used at wildfire incidents. Local 
jurisdictions that provide their personnel and equipment to Forest 
Agencies through the State Fire and Rescue Mutual Aid System and this 
agreement, do so on a voluntary basis, and accept the provisions for 
reimbursement.
Interstate Agreements
    California continues to maintain Interstate Civil Defense and 
Disaster Compacts with its boarding States as well as Sub-Agreement to 
provide interstate assistance between the five southwestern States. 
California is also signatory to the Emergency Management Assistance 
Compact (EMAC) which is administered by the National Emergency 
Management Association (NEMA). OES also maintains an Agreement for 
Interstate Wildland Fire Suppression Assistance to Federal Agencies 
with the U.S. Forest Service, Bureau of Land Management, and National 
Park Service.
    During the recent 2007 southern California Fire Siege, California 
started requesting assistance on Monday, October 22, 2007 through 
Interstate Civil Defense and Disaster Compacts and the Emergency 
Management Assistance Compact. By Tuesday, October 23, 2007 we started 
were made through the southern Operation Coordination Center to the 
U.S. Forest southern California Geographical Coordination Area 
Coordination Center for additional resources. On Thursday, October 25, 
2007 we placed an order through FEMA Region IX Joint Field Office and 
Emergency Support Function for Firefighter ESF-4 under the Federal 
Response Plan for an additional 125 Firefighting Engine Strike Teams 
(600 fire engines).
Wildfire Hazard Mitigation, Fire Preparedness and Prevention
    ``California Fire Prevention and Suppression Action Plan-Sept. 
2004''. OES and California Department of Forestry (CDF) continue to 
work with Federal and local counterparts to ensure that programs and 
agreements for use of land and aerial assets are efficient and 
effective. OES and CDF continue to enhance the level of protection 
available for firefighting in the sensitive wildland/urban-interface 
(WUI).
    OES promotes and supports wildfire hazard mitigation efforts 
through various efforts and programs. OES administers two FEMA hazard 
mitigation grant programs--the Hazard Mitigation Grant Program (HMGP), 
and the Pre-Disaster Mitigation Program (PDM) that fund fire mitigation 
efforts. OES also administers the Fire Management Assistance Grant 
Program (FMAG).
    The Hazard Mitigation Grant Program (HMGP) provided funds to the 
University of California at Berkeley Fire Lab that created building 
component testing standards and tested the components for fire 
resistance. Landscaping material was tested for fire resistance and the 
findings were provided to Fire Marshal's Office for development into 
building standards. NOTE: OES HM Branch intends to meet with UC 
Berkeley to learn construction techniques of an ``ignited'' 
demonstration model that will enable OES HM Branch to provide 
additional public outreach efforts related to fire-safe homes and 
construction materials.
    OES HM Branch participates in community outreach events to 
distribute publications and provide information related to Fire 
Prevention and Mitigation efforts (examples include: coordination/
funding for 100,000 CDF Prevention Publications for distribution by CDF 
and OES throughout the State; participation and distribution of public 
information publications at the 15th Anniversary Commemorative of the 
1991 Oakland Hills/Berkeley Firestorm; community group trainings/
presentations).
    The OES Office of Public Information (OPI) spent considerably time 
and effort planning and implementing California's first-ever multi-
hazard disaster preparedness outreach campaign. On April 25, 2005, 
California's First Lady Maria Shriver joined OES Director Henry 
Renteria in launching the new ``Be Smart, Be Responsible. Be Prepared. 
Be Ready!'' Campaign. Within 30 days, television and radio stations 
statewide began airing a 30-second PSA highlighting the importance of 
having a family disaster plan, an emergency supply kit, and being 
prepared for an emergency or disaster. The campaign's disaster 
preparedness actions were highlighted on billboards and bus signs 
throughout California's major metropolitan areas. OES staff is 
maintaining the ``Be Smart'' Web page on the OES website. OPI has 
distributed nearly one million copies of the campaign brochure and 
approximately 10,000 coloring books.
    Disaster Resistant California (DRC): Promoting mitigation to 
emergency management professionals from throughout California, the 
Nation and the world, has been the focus of DRC, and OES sponsored 
annual conference. In 2006, the 6th annual DRC took place. The 
conference drew more than 5,000 participants from multiple disciplines 
including elected and appointed officials and representatives from 
emergency management, homeland security and education fields. DRC 
hosted over 300 professional development courses, workshops and field 
trips.
    The formation of the Governor's Emergency Operations Executive 
Council (GEOEC) in which OES participates, will assess Federal 
resources that are required to improve State prevention and response 
capabilities; OES Hazard Mitigation Branch (HM) continues to monitor 
Federal and State funding opportunities and notifies fire response 
agencies of availability.
    OES representative participated in the Fire Safe Council Clearing 
house review of projects during the 2005, 2006 & 2007 review. The 
California Fire Safe Council (CA FSC) and supports local Fire Safe 
Councils. The councils teach home and business owners about the 
importance of vegetation management to protect their homes and 
businesses from wildfires. OES has also assigned a Senior Emergency 
Services Coordinator permanently to the CA FSC. The State Hazard 
Mitigation Officer supervises OES participation in the CA FSC.
FSC Update Information
    More than 100 Fire Safe Councils are active statewide;
    Comprised of homeowners, business owners, insurance and real estate 
representatives, public utilities, and many others;
    Involved in 300 community based fire defense projects;
    Have secured $13 million of grant funded projects;
    Is duplicated nationally; and
    Recognized by the National Association of State Foresters, National 
Academy of Public Administrators, and Western Governors Association.

    TOTAL VALUE OF MITIGATION PROJECTS FUNDED BY CALIFORNIA FIRE SAFE
                                COUNCILS
------------------------------------------------------------------------
                                           Total value of projects
              Program              -------------------------------------
                                        2005-2006          2006-2007
------------------------------------------------------------------------
Bureau of Land Management (BLM)            $1,500,000         $3,100,000
 Community Assistance.............
USDA Forest Service Community               2,500,000          1,200,000
 Protection (CP)..................
USDA Forest Service State Fire                890,000          4,200,000
 Assistance (SFA).................
National Park Service (NPS)                   250,000            150,000
 Community Assistance/WUI.........
                                   -------------------------------------
      Total.......................          5,140,000          8,650,000
------------------------------------------------------------------------
Source: The Fire Safe Council.


    The CA FSC recently announced opportunities for the 2007 Western 
Wildland- Urban Interface State Grant Program administered from the 
U.S. Forest Service. The CA FSC also provides listings on their website 
of other fire related funding opportunities that become available. A 
CWPP ``Template'' is also provided on the website.
    OES is a charter member of the California Fire Alliance (CFA). OES 
participates in monthly staff group meetings and in all leadership 
meetings. The HM Section has permanently assigned a Senior Emergency 
Services Coordinator from the Hazard Mitigation Section to the staff 
group. During 2005, OES gave presentations at the two CWPP workshops 
sponsored by the CFA, and during 2006, OES presented six of their own 
CWPP workshops in coordination with the LHMP workshops being held. 
These presentations /workshops focused how CWPP plans and Disaster 
Mitigation Act of 2000 (DMA 2000) plans compare and contrast with each 
other, as well as how the CWPP can meet LHMP Fire Hazard standards. 
Additionally, OES has supported the CFA by providing space at the 
annual Disaster Resistance California Conference. The State Hazard 
Mitigation Officer supervises OES' participation in the CFA.
    California Alliance for Response Forums: The forums were made 
possible with funding provided by OES as part of their commitment to 
disaster preparedness, response and mitigation. There were four forums 
given throughout California in October 2006. The forums focused on 
providing education to cultural institutions on local disaster 
management issues and protocols, raising first responders awareness of 
the need to protect cultural and history resources, encouraging 
disaster planning and mitigation coordination amongst cultural 
institutions and their local first responders, developing strong 
networks to facilitate effective response.
    OES received a grant from Federal Emergency Management Agency 
(FEMA) to promote development of Local Hazard Mitigation Plan (LHMP) 
and Community Wildfire Protection Plan (CWPP) through standardized 
software and training. OES announced this opportunity to counties, 
cities, and special districts on Dec. 5, 2005. The HM Branch developed, 
coordinated, and provided technical assistance training and materials 
during a series of six workshops throughout the State during 2006.
    The development of the Statewide Emergency Management Strategic 
Plan in 2005 identifies common priorities for mitigation, preparing 
for, responding to, and recovering from natural and human-caused events 
in CA. The plan is designed to influence the development of strategies 
and plans throughout the emergency management community over the next 5 
years.
    During 2006/2007, OES completed a series of well-attended Joint 
Information Center (JIC) Trainings throughout the State in which 
hundreds of local and State personnel were trained in standard and 
effective communication processes. Specifically, these trainings were 
held in San Jose, Stockton and Anaheim.
    Additionally, OES routinely offers a 5-day Crises Communication 
course conducted by our California Specialized Training Institute 
(CSTI). Furthermore, OES PIO staff conducts customized JIC training to 
local agencies upon request and availability of resources to address 
target communication areas.
    OES, in coordination with the Public Utilities Commission, held two 
workshops to discuss the development of an alert and warning system 
using cellular phones. Cell phone providers as well as Federal, State 
and local government representatives were invited to attend the 
workshops in hopes of forging a public/private partnership to develop a 
system to quickly alert cell phone users within a specific geographic 
area when an emergency occurs. The goal is to have a system in place 
within 1 year.
    OES Regions: In 2004/2005, regional staff facilitated and/or 
participated in 200 emergency management exercises.
2003 Blue Ribbon Fire Commission
    On November 6, 2007 the 2003 Blue Ribbon Fire Commission Task Force 
met at the Orange County Fire Authority Headquarters to review the 2003 
and 2007 southern California Fire Sieges. The recent fires have shown 
how California is faced with a new kind of fire threat, and we must 
adjust our perspective to meet this new threat.
  --Four years ago, we had what we were told was a 100 year fire. This 
        year, we had another.
  --If we're going to have 100 year fires every 4 years, we need to 
        dramatically change our perspective of the real fire danger in 
        California.
    Governor Schwarzenegger has empowered 2003 Blue Ribbon Fire 
Commission Task Force to provide true expert advice on how to address 
California's new wildland fire risk. We accept the challenge.
  --The governor clearly recognizes the need to have a process that 
        isn't bogged down by bureaucracy and politics.
  --It makes sense that the best advice comes from the people who live 
        with the problem day in and day out--the firefighters on the 
        ground and the fire chiefs.
    Our commitment to the Governor and the people is to tell them what 
we think needs to be done to respond to the new fire risk in our State.
  --We're going to tell it like it is, and like it should be.
  --As the Governor requested, we're going to look at all of the 
        questions, and we're not going to hold any sacred cows.
    We're looking at the whole picture, but in the aftermath of the 
2007 fires, we see the following issues as the ones we believe should 
be focused on immediately.
  --Year-round staffing for CAL FIRE and Northern California with 4 
        person staffing on all State-funded engines during fire season.
    --Require CAL FIRE to shift to permanent staffing in Northern 
            California
  --Identify funding for 150 additional OES engines to address surge 
        capacity and continuing replacement of CAL FIRE fleet, all as 
        identified in original Blue Ribbon Commission.
  --Update California Title 8 (CALOSHA) to adequately reflect 
        Firefighter Personal Protective Equipment.
  --Land use and prevention:
    --Establish stable funding source for fire safe councils.
    --Identify defensive space and mitigation requirements that have 
            teeth in the local zoning process.
    --Standardize existing construction standards on the basis of 
            scientifically based guidelines.
  --Secure legislation with funding to provide POST mechanism for 
        firefighter training.
  --Urge the Govornor and western governors to advocate with congress 
        to support Modular Airborne Firefighter System and Federal 
        airtankers. Assess whether overall national asset inventory is 
        needed to deal with multiple risk.
  --Seek Federal legislation to address firefighter and command staff 
        liability issues through office of inspector general.
  --Implement adequate resource ordering and tracking technology.
    This is just the first list of immediate needs, from our view. But 
this is a long-term process. We'll be meeting again next month, and we 
will continue to bring these issues to the people of California.
OES Fire and Rescue Recommendations
    1. Generate support and advocate to Congress to support adjustment 
to allow States to apply for Federal Firefighter Assistance Grants. 
This would allow possible funding for 150 OES additional fire apparatus 
to address the need for surge capacity during large events to support 
the California Fire and Rescue Mutual Aid System and International 
Association of Fire Chiefs National Fire Service Mutual Aid System. 
(BRC Section 1, Jurisdictional and Operational Barriers, State 
Recommendation 6).
    2. Generate support and advocate to Congress to support Modular 
Airborne Firefighting System (MAFFS-2) and Federal Airtankers via 
Governor, Western Governors. Assess whether overall asset inventory is 
appropriate to deal w/multiple risks. (BRC Section 1, Jurisdictional 
and Operational Barriers, Federal Recommendation 1 and new issue).
    3. Further address dispatch, coordination, command and control 
systems use and implementation during rapidly escalating incidents. 
Resource Ordering Status System (ROSS), Evaluate ROSS capability and 
it's responsive to meet demand with the California Fire & Rescue Mutual 
Aid System, CAL FIRE and the Federal Wildland Fire Agencies. (BRC 
Section V, Communications and Interoperability, Recommendation.).
    4. Generate support and advocate to Congress to support and develop 
a National Guard Firefighting Helicopter Aviation Training and 
Standardized Program. Arson has long been weapon on choice for 
sabotage, civil disturbances and terrorist. On July 12, 2003 the FBI 
warned of al Qaeda forest fire plot. (BRC Section I, Jurisdictional and 
Operational Barriers, Federal Recommendation 1 and new issue).
    5. Seek Federal support and advocate to Congress that Department of 
Defense/NORTHCOM enter into one master Inter-agency Agreement with 
California through the California Fire Assistance Agreement for the 
provision of coordination resources and providing support pre-emergency 
and during emergency operations. (BRC Section III, Interstate/Regional 
Mutual Aid Systems: Multi-Jurisdictional Recommendation 1).
    6. Generate support and advocate to Congress to support the 
expandation OES Fire and Rescue Command Nets by installing additional 
mountain top repeaters to provide greater interoperability for local, 
State and Federal fire agencies and their personnel. (BRC Section I, 
Jurisdictional and Operational Barriers: Multi-Jurisdictional 
Recommendation 7).
Emergency Management
    The Joint Field Office (JFO) operation for this event has been very 
effective in managing recovery operations:
  --OES integrated with FEMA at the JFO that opened in Pasadena on 10/
        24/07.
  --JFO management has emphasized a unified effort with the State of 
        California and has worked effectively to identifying key areas 
        of focus.
  --FEMA and other Federal agency representatives at the JFO have been 
        very collaborative in problem-solving efforts with the State. 
        Post-Katrina Improvements have clearly been made by FEMA and 
        California hope that this continues.
    Key Areas of focus for recover at the Joint Field Office have been:
  --The delivery of the Individual Assistance Program.
  --Debris management, particularly as related to private property.
  --Direct Housing (mobile homes).
  --The conduction of the Public Assistance Program.
  --Establishing an effective Multi-Agency Support Group to identity 
        post-fire concerns (e.g. erosion and debris flows) and to 
        undertake emergency protective measures in anticipation of rain 
        events.
    Current Areas of Concern for California are:
    The inclusion of wind damage in the Federal declaration. The 
Governor has asked for a clarification on this and we are awaiting an 
answer. The ability to maximize Federal reimbursements for debris 
removal on private property. We want to ensure that the FEMA policy, 
Debris Removal from Private Property (7/8/07), is not applied in an 
overly restrictive fashion but supports the State of California's 
intent to remove all debris on the properties adversely effective by 
this event. Thus far, we have had very positive discussion with FEMA on 
the application of the policy based on local debris management plans 
and procedures and we are interested in seeing this continue. 
Reimbursement for to State and local agencies for emergency protective 
measures implemented to forestall post-fire threats.
    The Multi-Agency Support Group (MASG) was established to: identify 
post-fire vulnerabilities of the Southern California fires; to identify 
risks to the public such as potential debris flows; to implement 
protective measures in collaboration with local government; and, to 
identify program and funding gaps. Agencies represented include: the 
Governor's Office of Emergency Services, CAL FIRE, the Department of 
Water Resources, FEMA, the U.S. Forest Service, and the Army Corps of 
Engineers. Local government representatives from the seven affected 
counties are involved in the effort. Working in collaboration, these 
agencies are taking a comprehensive view of the impacted watersheds, 
identifying solutions to identified threats and identifying any program 
gaps and associated funding shortfalls. Adequate funding of the USDA 
Natural Resource Conservation Service, Emergency Watershed Program. 
This will ensure that effective post-fire mitigation measures can 
undertaken on private property as part of the comprehensive effort to 
address watersheds being managed by the be MASG.
    An established and well-managed emergency management system at 
local and State levels makes a tremendous difference in managing 
disasters.
    Recommendation: Ensure that the Emergency Management Performance 
Grant is enhanced to support local and State emergency management 
system building.
The Future
    After 57 years, the California Fire and Rescue Emergency Mutual Aid 
System has continued to remain relevant and effective, a lasting 
tribute to the vision of its founders.
    Cooperation between local, State and Federal agencies is a must . . 
. its local fire agencies that make the system work with the management 
of full time staff at CA-OES and support from CAL FIRE.
    Continued Support for the California Incident Command Certification 
System (Certification & Qualification System).
    Continued Support for the International Association of Fire Chiefs 
National Fire Service Mutual Aid System, Interstate Compacts and EMAC.
    The California Fire and Rescue Mutual Aid System was designed in 
the early 1940's for neighbor helping neighbor (a jointing 
jurisdictions and anointing counties) without reimbursement. Today 
neighbor helping neighbor is all 58 counties, cities, special 
districts, volunteer departments and boarding States. The current 
system is being threaten by the fiscal times that local and State 
government have been in since the early 1990's. The question for 
today's elected officials is how far for how long will local fire 
agencies go without a guarantee of reimbursement?
    On Behalf of the State of California, Governor's Office of 
Emergency Services and the California Fire and Rescue Mutual Aid 
System, I would like to say Thank You for inviting me.

    Senator Feinstein. Now, former Chief Bowman, welcome.
          STATEMENT OF JEFF BOWMAN, FIRE CHIEF, SAN DIEGO 
          FIRE-RESCUE DEPARTMENT
    Mr. Bowman. Thank you, Senator. It's great to be here. I've 
sat through so many of these over the years. It's just dejavu 
again. My comments would be really simple, that for this 
process to be effective, I think you need three things.
    You need leadership. You need accountability from the 
policymakers and the people that implemented the plans that 
took place during this recent firestorm. Last, you need action, 
and that's probably the most important thing that needs to come 
out of this review.
    I commend you, Senator, for your leadership. This is the 
most important step, is to get people together and talk about 
what happened.
    I believe everyone that you're interviewing needs to be 
honestly accountable for what they did and humble about what 
went well and very honest and open about what didn't go well, 
so we can fix it.
    Last, the action that needs to take place probably can be 
found in one of the many documents that's been created over the 
years, the Blue Ribbon Commission, on which you and I sat.
    If you look at the recommendations of that Commission that 
took place after the Cedar fire, the blueprint exists for what 
needs to be done. Most of the issues that you're hearing about, 
most of the questions that your esteemed colleagues have asked, 
can be found. The answers and the questions both could be found 
in the Blue Ribbon Commission document.
    I will focus very quickly on the three subjects. The 
Federal response, I would say of the three groups, Federal, 
State, and local, you all deserve the highest marks for what's 
been done. I truly believe that.
    If you look at the funding that's taken place to deal with 
brush and fuel mitigation issues in California, and compare 
what the feds have done versus what local government or even 
State government has done, it greatly exceeds any work that's 
been done on the local level.
    I think if you look at the State issues of improvements 
that have happened State and locally in California, much of it 
has come from what Chief Zagaris mentioned, our Federal 
Homeland Security Fund grants. So the Federal Government, 
again, has paid for many of the improvements, the reverse 9-1-1 
program that happened here in the county.
    You look at all of these improvements. Most of them have a 
Federal hand in them. Look at the State response.
    Senator Feinstein. If I might thank you for saying that, 
because some--we always get the flak. So it's very nice, 
because everybody up here has tried very hard on the financial 
aspects of this, and virtually I think all of the mitigation 
money has been Federal.
    So there's nothing for free. It has to be paid for. But we 
have really tried. So I, on behalf of my colleagues, really 
appreciate that recognition. Thank you.
    Mr. Bowman. Well, I believe it's worthy. I think you've 
done a good job. Are there things that could be done better? Of 
course. We'll talk about those. I know on the Blue Ribbon 
Commission, things have been recommended that aren't completed 
yet.
    At the State level, you keep hearing about this aerial 
situation. If you go back to the Blue Ribbon Commission, there 
are two recommendations--and I brought it with me. I could open 
it and read it, but I don't need to. I helped write it, so I 
know what it says.
    It says that in July of every year, the Chiefs of the 
Office of Emergency Services in California, CAL FIRE, the U.S. 
Forest Service representatives, and FIRESCOPE will sit down 
with State and Federal military assets and hammer out whatever 
agreements need to be done in July, so that when the wildfire 
situations in the fall--that occur typically in the fall. 
Unfortunately, they're happening year-round now.
    But at least once a year, that group would meet, and out of 
that meeting would come a written list of action items and what 
needs to be done and who participated.
    If that happened this year, I'd like to read the minutes 
and I'd like to read the action items. If it had happened this 
year, I don't think we'd be having this debate.
    If it did happen and certain members of those groups did 
not do what they said they were going to do, that's, I think, 
what should be found as a result of your investigations here 
about what needs to be done.
    I don't believe you need to go back and criticize. We just 
need action, because 4 years ago, we committed this wouldn't 
happen again, these intergovernmental arguments would not 
exist. I sat with the ash raining down on my house this time 
and I didn't see any aircraft in the air, or very little.
    I know from firsthand information from those involved in 
that that it could have been much, much better than it was. My 
only hope is that we fix it again and do it every year like 
that Commission recommended.
    It was mentioned the State was supposed to buy 150 fire 
engines, and the recommendation was made in 2004. As of this 
date, my friend to my left has only been allowed to order 19 
engines. He's not going to tell you this, but I will. He's 
ordered 19 engines because that's all the funding that was made 
available. He has yet to take delivery of one.
    If he could be honest with you, he'd probably tell you that 
the bureaucracy he has to go through to even order a fire truck 
is ridiculous.
    My recommendation would be we need some pressure to be put 
on the system to buy those 150 engines and put them throughout 
the State of California.
    I have a second recommendation that relates to that here in 
San Diego County. You talked to Supervisor Roberts about the 
fact that this is the largest urban county in California that 
doesn't have a fire department.
    You're absolutely right. That decision was made in the mid-
1970s. Are they to be held accountable for that today? Maybe 
not, but somebody needs to be held accountable for that.
    My recommendation to the San Diego County Board of 
Supervisors is they buy 50 fire engines just for this county, 
model what the State's program is like, disburse them, not into 
the wilderness, but into city fire departments here in this 
county, so that they can be staffed in the case of an 
emergency.
    I can tell you for a fact the counties to the north of San 
Diego are frustrated with the lack of action that's taking 
place here.
    Last, in the city, all of your numbers were absolutely on 
point. Do you know that the Rancho Bernardo area--which you 
brought up and asked a question. I'd like to respond to your 
question earlier.
    That one fire station covers 24 square miles in a city 
area. The national standard is 9 square miles. If you exceed 9, 
you're supposed to add another fire station. That's not the 
only area in the city of San Diego that's just like that.
    So my comment--and as you probably know, one of the many 
reasons I left as fire chief here in this city is out of abject 
frustration that nothing happens. These recommendations get 
made and very little happens.
    You've heard that three more fire stations have gone online 
since the Cedar fire. None of those were related to the Cedar 
fire. One was related to a gasoline tanker that exploded 
outside Qualcomm Stadium, where two fire stations were 
recommended to be built in the 1970s. They have yet to be 
built.
    The other two stations that have been brought online are in 
areas that were developed, and they were developed or built by 
mandate. So none of that had anything to do with the Cedar 
fire. They were naturally occurring incidences.
    What needs to happen here is action. I applaud you for 
doing what you're doing, and I look forward to answering any 
questions that you have.
    Senator Feinstein. Thank you. Thank you very much. 
Appreciate the testimony of everybody. I think this is very 
hard, because you're dealing with such tremendous loss by 
people of their homes, their land, their family, everything. It 
becomes extraordinarily emotional.
    Yet, governments have to respond and communities have to 
respond, and we have to do the right thing. The only way we can 
do the right thing is to learn lessons and not be--cast 
recriminations, but learn lessons and then move.
    I must tell you, I deeply believe that San Diego has to 
increase the size of its fire services. I think there is so 
much at risk, and it is very dangerous not to do it. People 
have to understand this, and their campaigns have to be waged.
    But this means eventually loss of life of a major scale if 
nothing happens. I think the fact that--I don't know whether it 
was you, Chief, that brought out the number of new homes that 
have been built in fire patterns just since the Cedar fire. 
It's as if we don't really learn anything.

                        FEDERAL AIR TANKER FLEET

    Well, I want to thank all of you for your comments. Let me 
begin with Mark Rey, if I might. Deputy Secretary Rey, could 
you respond to the issues raised obliquely by Supervisor 
Campbell and then by Chief Zagaris, and update us on the status 
of the Federal air tanker fleet?
    What is the Forest Service doing to update its aviation 
assets?
    Mr. Rey. I'll try to do this quickly. As you probably 
recall, in 2004, based on recommendations by the National 
Transportation Safety Board, we grounded the large, fixed-wing 
air tanker fleet until we could ensure that each model and each 
aircraft that was in use could be flown safely.
    We have returned two models to service, the P-3 Orions and 
the P-2Vs, which gives us a substantially reduced fixed-wing 
air tanker fleet than that which we enjoyed prior to that time.
    We have, however, modified the fleet and substituted a 
significant increased number of helitankers in place of the 
fixed-wing aircraft, as well as smaller type 2 and type 3 
helicopters.
    So today, if you compared the size and configuration of our 
aircraft fleet to what it was in 2004, before the NTSB 
recommendations, what you'd find is what we're actually putting 
more aircraft in the air today, with a higher percentage of 
them being helicopters or helitankers.
    There have been, parenthetically, some advances in 
helicopter technology, including in rotor blade technology, 
which has increased airspeeds of certain makes of helicopters. 
That's made them a much quicker responding asset than was even 
the case as recently as 3 years ago.
    We are also looking at the next generation of large fixed-
wing air tankers. One of the challenges is that at this point 
in time, neither excess military nor civilian models have 
emerged that look to us to be what we want to be the next 
generation of fixed-wing large air tankers.
    It is inevitable, I think, that over time, this fleet will 
be more heavily configured to helicopters, as we're enjoying 
somewhat better results with helicopters than was previously 
the case.
    There still is a role for large fixed-wing tankers because 
of their superior airspeed. At some point, I hope within the 
next couple of years, we will introduce the next generation of 
fixed-wing tankers.
    Until that time, we are confident that the reconfigured 
fleet is performing just as effectively as the fleet that 
existed prior to 2004 performed.
    The principal value of aviation access is initial attack 
success and we can document that because our initial attack 
success rates have stayed at about 98 percent systemwide 
through the last 3 years.
    Senator Feinstein. Can you give the subcommittee in writing 
an assessment, beginning with what you think would be optimum, 
and then where we are today, and be specific with respect to 
fixed-wing and where they're geographically located, and the 
large helos and where they would be geographically located----
    Mr. Rey. Sure.
    Senator Feinstein [continuing]. So that we might get, say, 
5 years out, some planning for the purposes of appropriations?
    Mr. Rey. What we can do is we can give you the 
configuration of the fleet over, say, the last 10 years, so you 
can see how it's evolved.
    I would say the short answer to your question is the 
difference between optimum and where we are today is that we'd 
like to bring another generation of large fixed-wing tanker 
online, and that would give us, we think, the optimum mix of 
aerial assets. But we can get in more detail for the record.
    [The information follows:]

     NUMBER OF AVIATION FIREFIGHTING RESOURCES ACQUIRED THROUGH EXCLUSIVE USE CONTRACT BY THE FOREST SERVICE
----------------------------------------------------------------------------------------------------------------
                                                                                      Type I          Type II
                              Year                                  Airtankers      helicopters     helicopters
----------------------------------------------------------------------------------------------------------------
2007............................................................              19              27              39
2006............................................................              16              17              32
2005............................................................              17              30              36
2004............................................................               8              28              51
2003............................................................              33               5              14
2002............................................................              44               4              14
2001............................................................              41               4              14
2000............................................................              40               4               9
1999............................................................              39               4              18
1998............................................................              34           \1\ 3          \1\ 12
----------------------------------------------------------------------------------------------------------------
\1\ Estimate.Note.--The number of exclusive-use contracts at the beginning of the year retrieved from Forest Service data.
  Call-when-needed contracts are not shown since use is periodic and episodic. Also, to improve efficiency, more
  type I and type II helicopters are being converted from regional short duration contracts to national long
  duration contracts. Not shown are other fixed-wing aircraft types (e.g., water scoopers or single-engine
  airtankers) and smaller type III helicopters.

    Senator Feinstein. I think that would be very useful. Thank 
you.

               EMERGENCY FUNDING FOR SOUTHERN CALIFORNIA

    Can you tell me how much of the fuels grants and 
restoration funding, the $500 million in emergency funding, 
will be spent in southern California forest?
    Mr. Rey. We're still completing the allocation process for 
what was put into the continuing resolution. We'll have that 
information for you in detail shortly. But I can tell you today 
that the lion's share of those funding categories will be spent 
in southern California.
    Senator Feinstein. Good. Thank you very much. Well, then 
you don't have any idea how many acres of fuels reduction we 
can expect to treat, but perhaps you would--when you get those 
figures, you could give us this, as well?
    Mr. Rey. Sure. What we'll do is give you the dollar figures 
and then the average--by using the average per-acre cost, we 
can extrapolate to how many acres we expect that'll involve.
    [The information follows:]

    The Department of Defense Appropriations Act provided a total of 
$500 million in emergency supplemental funding related to wildland fire 
and recovery activities throughout the United States. Of this amount, 
the USDA Forest Service has been provided $329 million for emergency 
suppression efforts, hazardous fuels reduction and mitigation, and 
restoration and rehabilitation of burned-over lands, as well as 
construction or reconstruction of destroyed or damaged agency 
facilities as a result of the catastrophic fires in California in 
October.
    Of the $50 million provided for hazardous fuels reduction, $42 
million will be allocated to the Pacific Southwest Region (Region 5) 
for use in southern California. These funds will be used to treat 
approximately 24,300 acres, including 3,800 acres on the Angeles 
National Forest (NF), 6,000 acres on the Cleveland NF, and 17,500 acres 
on the San Bernardino NF.
    A total of $30 million provided for fuels reduction on State and 
private lands will be distributed through grants to States for local 
communities; a total of $26 million is allocated to Region 5 and will 
be used in southern California.
    Southern California will receive approximately half of the $10.9 
million which the Pacific Southwest Region will receive for restoration 
and rehabilitation work. Funds will be used for critical tasks such as 
planting of native tree species and grasses, erosion control, and 
invasive species prevention on national forests damaged by catastrophic 
wildfires that occurred in 2007. These funds may also be used for road 
repair work to provide emergency access to remote areas in southern 
California.
    Funding of $14 million is being provided for construction and 
reconstruction of destroyed or damaged facilities on the Angeles NF, 
including the Santa Clara Ranger District office.
    A total of $110 million will be used for suppression activities 
throughout the United States wherever and whenever wildland fires 
occur; as such, no specific amount has been designated for southern 
California.

                       MANDATORY RETROFIT PROGRAM

    Senator Feinstein. All right. That would be very useful. I 
think it was Chief Zagaris, did you mention the mandatory law 
going into place, or was it you, Chief Grijalva, with respect 
to new building codes?
    My question was this: Is there any mandatory retrofit 
program that requires over a period of time that certain 
structures in Santa Ana wind patterns of wildfire would have to 
replace roofs or siding or anything that is mandatory in that 
program?
    Mr. Grijalva. Senator, no, this is for new construction 
only. There are no retroactive requirements. However, it is 
believed that the new technologies that have been developed as 
a result of the new standards in the materials of construction 
will become primary elements for building replacement.
    So when someone who lives in a wildland-urban interface 
goes to replace a deck, the cost of the material is going to be 
competitive, and it will be largely available. So the market 
will drive the replacement of those kinds of materials, but 
there is no mandatory retroactive requirement.
    These are statewide minimum standards. Local government can 
make, with the adoption, amendments that might make it more 
restrictive and could apply retroactive requirements, but that 
will be based on local government decisions.
    Senator Feinstein. Well, that's always very difficult to do 
and not popular, so you have to sort of gird your loins when 
you go out to do that. But fire-resistant paint is getting 
better now. At least taking some steps to be able to improve 
fire resistance.
    Former Chief Bowman, let me ask you this question. You 
resigned, I gather, out of frustration because of the lack of 
resources. I think you heard the president of the city council 
say that they have tried twice on bond issues, which have 
failed.
    What would you do, in view of that, in this community to 
move it along toward better fire services?
    Mr. Bowman, Being the successful politician that you've 
been all these years, I would tell you that it takes 
leadership, and it takes the kind of leadership where public--
the voting public, who are the only ones that can change 
taxation in our State, are educated.
    In my opinion, what it takes is leaders who will stand up 
and very simply say, ``This is the tax revenue we bring in 
today to run your city government. Here are our needs.'' After 
they list how their priorities are--we all know local 
government was created to provide public safety.
    If a city generates $500 million in tax revenues to provide 
city services and only $100 million of those go to provide 
public safety, or $200 million, the other $300 million that are 
currently being brought in by taxes need to be accounted for.
    In my opinion, that's what the public doesn't understand. I 
doubt the public in California, and least of all, in the city 
of San Diego, knows that only 17 cents of every property tax 
dollar goes to the local government.
    I doubt that the average voter in California and in this 
city of San Diego probably doesn't know that. Sixty-three of 
those cents goes to the State educational fund.
    Now, when they pay their property taxes, they believe that 
all public services that are provided on the local level are 
paid for by those property taxes. They're not.
    So if a leader were to stand up and say: ``Here's what we 
currently bring in and here's how we spend it. Would you rather 
we reprioritize what we bring it, or would you rather that we 
add additional tax revenue?'' Until that exercise happens, I, 
and probably most voters, are not going to increase taxes. 
That's the simple truth.
    Senator Feinstein. Okay. Thank you very much. Senator 
Allard?
    Senator Allard. Thank you, Senator Feinstein. Mark, as 
you're certainly aware of that I'm one to hold the agency's 
feet to the fire when need be.
    Also, if it's in order to praise you for a job well done--
I'd like to say that the Region 2 office has done a very 
impressive job, I believe, in Colorado. You've done a good job 
of stretching the dollar a long ways, I think, in trying to 
help manage the forests there.
    I'd like to specifically recognize Rick Cables, as well as 
Rich Stemm, in getting their work done. I'd also like to see 
every region be able to perform as well as they've been able to 
perform in that region.
    Having said that, does the Forest Service have all of the 
authority it needs to perform the work that should be done to 
keep forests in a healthy State?
    Mr. Rey. We have, as a consequence of the President's 
Healthy Forests Initiative and the enactment of the Healthy 
Forests Restoration Act, which all four of you were strong 
supporters of, increased the authorities that we have to do 
this work.
    There are a few additional authorities for partnership and 
contracting that we sent to Congress last year in the form of 
the Healthy Forest Partnership Act that would, I think, 
accelerate doing a good deal of this work. So those are some 
additional authorities that we can talk about as the session 
unfolds.
    I think most of them are non-controversial. They don't have 
anything to do with environmental requirements. They have 
everything to do with some of the General Services 
Administration contracting requirements that we have to meet in 
order to elect contracts to do forest treatment work.
    There are, because of the unique nature of that work, some 
impediments that we think can be overcome. So I think that's an 
area where some additional profitable inquiry should be.
    But with the authorities you've given us, we have, since 
2001, treated nearly 25 million acres of federally owned land 
that were at risk for fire. That's an area equivalent of the 
size of the State of Ohio.
    Senator Allard. Oh, yes. Twenty-five million acres is a 
pretty good-sized amount of acreage, but I think maybe we need 
to work at concentrating more of our resources, and not just 
talk about acres in general, but----
    Mr. Rey. Sure.
    Senator Allard [continuing]. Concentrating them in those 
areas where there's the greatest risk, whether that's property 
risk or risk to lives or whatever.
    In the past, I think when you had this approach in managing 
forests, that you let natural burns occur, now began to realize 
in some cases that may not be appropriate, particularly where 
you're close to an urban forest interface there.
    What needs to be done in that area? Is there anything that 
Congress can do to help you in focusing more towards risk 
areas, as opposed just to large areas of acreage?
    Mr. Rey. Well, when I talk about cumulative acres, I do so 
only to give the average person in the public a sense of the 
scope of the problem, not to say that every acre is created 
equal. There are acres that we let burn in the Alaska bush that 
there's no reasonable reason to try to put out or to try to 
treat to avoid fire.
    When we look at what we're going to treat, we use a 
prioritization and allocation system that focuses on, first, 
what the wildfire potential of the area is; second, what the 
consequences of a wildfire would be, in terms of property, 
human loss, or environmental consequences; third, what our 
individual field units are experiencing, in terms of efficiency 
of operation. We're rewarding the most efficient of our 
regions.
    Your compliments to Regional Forester Cables and Deputy 
Regional Forester Stemm are on point. They've managed to reduce 
the per-acre cost of doing fuels treatment in the front range 
relatively significantly.
    So looking at that as something that we want to recognize, 
that also goes into our priority system.
    When I talk about 25 million acres of treatment over the 
past 6 years, I would say that 70 percent of that is in areas 
that meet the criteria that I just described. So we're not any 
longer out to treat any acre. We're out to treat the ones that 
are most important first.
    Senator Allard. Senator Feinstein and I, I think will be 
working closely on a lot of forestry issues, because we have 
similar problems, I think, in both of our States.
    I would characterize the bark beetle problem that we have 
in Colorado as very serious. My understanding is that here, in 
southern California, they have a serious bark beetle problem, 
and that some of those areas that were treated were subject to 
some fire.
    Do we have an analysis as to whether those treatments were 
effective or not?
    Mr. Rey. We do in many cases, and appended to my testimony 
for the record are three instances where treated areas were 
critical in allowing fires to be attacked, because of the 
reduced fuel loads.
    We'll do a more thorough analysis as we get further along 
after this fire season. But you'll see at the end of my 
statement three examples with a narrative description of what 
happened, as well as photographs.
    Senator Allard. Are those those areas in your testimony 
where you had actual pictures?
    Mr. Rey. Yes.
    Senator Allard. Yes, I thought those were pretty 
impressive, actually. That's good to know that there is some 
effect on that and we can make a difference with the proper 
treatment in that.
    I guess the next question I have is for Nancy. FEMA has a 
program that provides firefighting assistance grants to local 
communities. I think that was mentioned here earlier.
    My understanding is these grants are pretty much there to 
augment--to provide for funds for structural fires in urban 
areas. Are those funds also available to augment wildland 
firefighting capability?
    Ms. Ward. Senator, quite frankly, I'm not sure about that, 
but I can find that out and get that back to you quickly.
    Senator Allard. Well, I think that's important.
    Ms. Ward. It is.
    Senator Allard. I think in areas like what we're talking 
about here in southern California, I think you can just as----
    Ms. Ward. Absolutely.
    Senator Allard. There's just as great a need there as you 
would face for structural, because they're eventually going to 
lead to structural damage, and may in the long run save a very 
expensive structure.
    Ms. Ward. Correct. I'd be glad to do that.
    Senator Allard. So if you need some language or maybe 
something needs to be done on that program to give you that 
flexibility, I would hope that you'd let us know so that we can 
work with you on that.
    Ms. Ward. Definitely. We'll get back to you quickly.
    Senator Allard. Chief Zagaris?
    Mr. Zagaris. Yes, Senator. The current program does allow 
for local agencies to use those funds for wildland equipment, 
as well as buy wildland engines, water tenders.
    There's also the Rural Fire Assistance Grants funds that 
come down from USDA down to the State forestry for populations, 
I believe, of 10,000 or less are available.
    We're constantly fighting to maintain funds in both the 
firefighter assistance side, as well as the Rural Fire 
Assistance Grants. I believe even the State foresters have gone 
on record as continuing to support Rural Fire Assistance Grants 
that come down to the States, that they make those available to 
local agencies.
    We believe they're of great benefit, both from USDA and 
Department of the Interior, like--as well as the firefighting 
assistance grants. The firefighting assistance grants, only the 
prevention side are open to the state agencies. So that's--it's 
more restrictive on how those are used.
    Senator Allard. So is there anything we can do to help make 
those better programs, as far as more fire prevention--well, 
maybe fire prevention activities, but also firefighting 
activities in those areas?
    Mr. Zagaris. If Chief Grijalva and I two agencies can 
actually participate all-around in the entire fire assistance 
grants--and I'll be real honest with you. Generally, you see a 
fire engine purchased today underneath those grants somewhere 
around $300,000 or under--maybe a little bit more some days.
    I think Chief Grijalva and I would tell you that if the 
States were allowed to participate, we wouldn't even ask for 
that type of--we'd be willing to match dollar for dollar what 
was put in there to help offset trying to maintain our fleets 
or to expand them in some cases, if necessary.
    So I think some small adjustments in there--and I think in 
the State of California's case, a program was started 57 years 
ago. It was really a model for the entire Nation. A lot of 
folks participated in it 57 years ago.
    California's really the only State that has continued to 
maintain it. It provides a great search capacity, not only for 
us in-state, but to support the rest of the Western United 
States, and the Nation as a whole, during a time of need.
    Senator Allard. Now, just a final question. What do you see 
as the future as to how the insurance industry will view 
providing insurance to people in certain fire-prone areas? Do 
you have a comment on that one?
    Mr. Zagaris. We've already seen some of the insurance 
agencies backing out of providing services to California. I 
think that Chief Grijalva--recently just got through meeting 
with the insurance industry--may be more ample to answer that 
question.
    Mr. Grijalva. You're actually going to have the Insurance 
Commissioner from California on the next panel, but the 
Insurance Commissioner and I have entered into a memorandum of 
understanding, where we will be working together to educate the 
insurance industry throughout California, as well as 
homeowners, on how to make the conditions such that they won't 
lose insurance, and be educated about defensible space, and 
provide more information to them.
    The Insurance Commissioner and I will be working together 
very closely on working with the insurance industry.
    Senator Allard. Yes, I'm planning on asking in the next 
panel, but I thought maybe we could get some of your 
perspective on those issues.
    Madam Chairman, I'm finished, and----
    Senator Feinstein. Thank you. Thank you, Senator.
    Senator Allard [continuing]. We'll have some more questions 
we might want to submit for the record.
    Senator Feinstein. Right. Okay, thank you.
    Senator Allard. Thank you.
    Senator Feinstein. Do you have any questions, Bob?
    Mr. Filner. Very briefly, Madam Chair. You prescribed some 
very tough medicine for San Diego. You tried to get a direct 
response from the council president and the fire chief, and I 
don't think you got that.
    I want to thank--because we didn't deal with those tough 
questions, we lost a good chief, Chief Bowman. I read some of 
your comments over the last few weeks. Thank you for bringing 
us some honesty. I think we have to do what you talked about. 
You prescribed the elements of it, chief, so thank you.
    To the FEMA Director, I know FEMA was really trying to be 
proactive, unlike some of the recent publicity. I must say, you 
succeeded, and those blue shirts that were available gave 
people a lot of hope. I mean, when you showed up and you were 
there pretty early, people felt very, very good.
    I think I would just add, again, from our section of the 
country--I think it was FEMA that--you might correct me--you 
need some more Spanish language staff to communicate with the 
population. I would just suggest that for your future staffing 
needs. Thank you, Madame Chair.
    Senator Feinstein Thank you very much, Congressman. 
Congressman Gallegly?
    Mr. Gallegly. Thank you, Senator Feinstein. I certainly 
agree with Chief Zagaris. We have the finest OES operation of 
any State in the Nation. Chief Bowman, I really appreciate your 
candor.
    Director Ward, I have been a great admirer of FEMA for a 
long time. I was on the bridge at Loma Prieta, in the trenches 
at Northridge, and following what you did in this disaster was 
nothing short of--there's just not enough accolades to express 
my appreciation and gratitude for the job that you folks 
continue to do in the toughest of situations.
    Forest Service, I've always been an advocate of what you do 
because we are a State where wildfires are a way of life. It's 
not a matter of if, it's always a matter of when.
    I really don't want to be the skunk that spoiled the dinner 
party. However, I have to express some of my frustrations over 
the last 8 years, as it relates to the MAFFS units. I discussed 
that a little bit earlier.
    Every year for the last 8 years, I have been promised 
they're going to be online before the next fire season. We saw 
a project manager with a contractor quit, get fired, retire, 
whatever, and the new manager that came on said: ``We need 
aluminum tanks rather than composite tanks.''
    I've heard this, I've heard that, and so on and so forth. 
But rather than going back and rehashing everything over the 
last 8 years, your leaders from your operation, from your 
organization, Mr. Under Secretary, were in my office a couple 
weeks ago. They assured me, under no chance of failure, that 
these MAFFS units will not only be certified, but ready for 
operation in the J models no later than May of next year.
    Can you publicly go on record and give us that assurance, 
that may be a little more assuring than what I've had for the 
past 8 years?
    Mr. Rey. They've assured me of the same thing, under 
penalty of death; is that satisfactory?
    Senator Feinstein. If you can carry it out.
    Mr. Gallegly. It'll be satisfactory, Mr. Under Secretary, 
when I see the units, not only with a stamp of certification, 
but flying. I mean, it's a very serious issue.
    Mr. Rey. It is.
    Mr. Gallegly. Granted, this last disaster we had clearly, a 
large portion of the time, the MAFFS could not have been 
flying. But they lay down a firebreak unlike anything that any 
bulldozer can do or any other piece of apparatus or people in 
the field.
    But let's just leave it at that. I want to continue to work 
with you, not on a monthly or weekly, but hourly basis, until 
these things are up and operating.
    Mr. Rey. Fair enough.
    Mr. Gallegly. Can I have that assurance?
    Mr. Rey. You can. In fact, let's arrange to attend the 
first training flight.
    Mr. Gallegly. General Ward and I have been in very close 
discussion on that. One thing, Senator, I'd like to clear for 
the record, when I was talking with Supervisor Roberts in the 
previous Committee, I may have confused our Hawkeye, the E-2 
Hawkeyes, with the Global Hawk, which I believe is an unmanned, 
if my memory serves me right--is a surveillance--although the 
Hawkeye, as you know, the E-2, is a surveillance aircraft, too, 
and I wasn't familiar with the program.
    For the record, can one of you--maybe you, Mr. Under 
Secretary, or you, Chief Zagaris--can you give me information 
on what Supervisor Roberts was referring to as it relates to 
a--I don't know whether it's infrared or what type of 
surveillance that they may be able to provide that we aren't 
currently using?
    Mr. Rey. I think it's infrared surveillance from unmanned 
aircraft. We do have some infrared capacity, but the 
technologies are advancing there. Supervisor Roberts has 
identified an area of additional productive discussion with the 
military.
    Now, understand that some of the technologies that they 
have that are advanced are still classified technologies, and 
it takes time to get them declassified for civilian use. That's 
a constant source of discussion with an interagency task group 
for just this purpose.
    So I think our experience here in southern California in 
this season suggested a couple more technologies that we want 
to approach the military to see if we can use in a civilian 
capacity.
    Mr. Gallegly. Well, I'm glad we clarified that. I should 
have known better. The Global Hawk is something that I know the 
Senator and I have worked with our respective committees in a 
different capacity.
    In any event, I really don't want to alienate my good 
friends at the Forest Service, but I do make a heartfelt appeal 
to work aggressively to solve this situation so the next fire 
season, we won't be talking about next year.
    Thank you very much, and Senator, I yield back.
    Senator Feinstein. Thank you very much. Let me thank the 
panel. It was most interesting, and we appreciate your 
comments. Chief Bowman, I particularly appreciate your very 
candid comments. Thank you very much, ladies and gentlemen.
    Mr. Rey. Thank you.
    Senator Feinstein. We'll proceed with the last panel. I 
will introduce the witnesses as they come forward. The first 
are Skip and Linda Miller. They are fire victims.
    They are the only San Diego family to lose their home in 
both the 2007 wildfire and the 2003 Cedar fire. The Millers 
just finished rebuilding their home from the Cedar fire 1 year 
ago, and it went in this fire.
    Then we have Steve Poizner. He is the State Insurance 
Commissioner. He's held the office since January. Prior to this 
office, he has worked in Silicon Valley as a high-technical 
entrepreneur. He founded both SnapTrack and Strategic Mapping.
    Following SnapTrack's sale for $1.2 billion to Qualcomm, 
Mr. Poizner served a year under Richard Clark on the National 
Security Counsel as a White House Fellow. So we welcome him.
    Third is Joe Craver, the interim CEO of San Diego/Imperial 
County American Red Cross. He's the founder of Galaxy 
Management, a nationwide marketing company, with 
representatives in nine locations throughout the United States. 
He has served as a colonel in the U.S. Air Force. He's served 
in the Pentagon. He's a combat veteran. He's received many 
awards, and he's now the interim CEO of the American Red Cross. 
We welcome him.
    We have Eric Larson, who met with us yesterday, who is the 
executive director of the San Diego County Farm Bureau. He has 
held that position since January 1997. Began working in the San 
Diego agricultural industry in 1971.
    His professional activities included 2 years as President 
of the San Diego Flower and Plant Association. We welcome him.

                         INTRO OF JON E. KEELEY

    Dr. Jon Keeley, Research Ecologist, Western Ecological 
Research Center, U.S. Geological Survey. He earned his Ph.D. in 
botany and ecology from the University of Georgia in 1977. He 
holds a master's degree in biology from San Diego State. 
Currently, a Research Ecologist with the Geological Survey, 
stationed at Sequoia National Park.
    Prior to this appointment, he served 1 year in Washington 
as Director of the Ecology Program for the National Science 
Foundation, a very respected organization.
    He was Professor of Biology at Occidental for 20 years, and 
spent a sabbatical year at the University of Cape Town in South 
Africa. His resume goes on and on, but I'll leave it at that.
    We will begin with the Miller family. Mr. Miller, I know 
Senator Allard and I really want to extend our very deep 
sympathy to you and your wife and your family. I can't think of 
anything worse than losing a home, if it isn't losing two 
homes, which has happened to you.
    We are most interested in your testimony, and what aid you 
have needed, what aid you've received, what you need and you 
can't get, so your testimony will be very interesting to us. 
Please begin.
    Everybody, if you can confine your remarks to 5 minutes, 
that would be appreciated.
STATEMENT OF SKIP AND LINDA MILLER, VICTIMS IN THE SAN 
            DIEGO FIRES
    Mr. Miller. Okay. Like you had mentioned, we lost our home 
in the Cedar fire, and very unexpectedly lost it again in 
actually the McCoy fire.
    Senator Feinstein. Just as soon as you rebuilt it; is that 
right? You just----
    Mr. Miller. Yes, pretty much. We had just done final 
inspection in it in April 2006, so we were--it took us about 3 
years to rebuild.
    Regarding the building codes, we had rebuilt pretty much 
under the codes--the new building codes that the Fire Chief had 
described here. We had fire-resistant siding, fire-resistant 
roof, dual-paned windows, pretty much everything----
    Senator Feinstein. Did you have a composite roof? Was it 
a----
    Mr. Miller. It was a Class A fire-rated composite, not 
tile.
    Senator Feinstein. The siding was?
    Mr. Miller. Siding was the hardy board, cement board 
construction. And----
    Senator Feinstein. You had boxed eaves?
    Mr. Miller. Boxed eaves.
    Senator Feinstein. Double-paned glass?
    Mr. Miller. Double-paned glass, yes. Everything described--
the things that--the issues that--I am going to rebuild, so--
the issues that to me would be important would be the venting, 
the under eave vents.
    Senator Feinstein. I'm sorry, the what?
    Mr. Miller. The venting, the attic vents under the eaves. 
Also possibly some kind of fire-resistant shuttering for any 
opening, especially in a high wind prone area. These would be 
issues that when I do rebuild, that I'll be looking at.
    Senator Feinstein. Now, have you tried to get any help? Is 
the help you need there, or are you adequately insured?
    Mr. Miller. Yes, I did upgrade my insurance right after the 
Cedar fire, so I should be pretty well-insured. One thing that 
I kind of just thought of that kind of came up in one of the--
the other panel is there was assistance for building code 
upgrades--or actually, there wasn't assistance. It was for the 
fire service to upgrade--the Federal grants.
    Typically, at least my insurance specifically States that 
it does not cover building code upgrades. So even though I am 
insured for what was the value of my home, new building code 
upgrades could cause a hardship. So that might be an issue with 
the Insurance Commissioner.
    Senator Feinstein. If I might just quickly ask this, do you 
know--where was your home exactly, and did other homes burn 
around it? Was it just your home at that point?
    Mr. Miller. Yes, we were in the McCoy fire, which was a 
very small fire, and it's--there was a lot of misinformation 
regarding that. On the news coverage, it looked like it was out 
near Salton Sea somewhere, which actually, it's just west of 
the Cuyamaca Mountain Range.
    There were actually three homes lost and several 
outbuildings I noticed on the chart, and talking with some 
other firefighter representatives, there is only one home 
listed as being lost.
    It's actually way out in the middle of chaparral, which 
is--you can expect--if you live there, you expect to be burned. 
I mean, that's almost a given, and it's kind of a risk.
    I think homeownership is kind of a compromise between what 
your ideal would be and what reality is. So if you live in a 
high fire-prone area, then you need to accept that risk that 
you probably are going to burn at some point.
    Senator Feinstein. Did you have brush cleared away 100 feet 
from the house?
    Mr. Miller. Yes. Actually, the--I had a minimum of 100 
feet, and probably up to over 200 feet in most areas. The area 
had previously burned in the Cedar fire, so essentially, the 
odds that this would burn again were very small, almost to the 
point of the odds of being struck by lightning.
    Now that it's burned a second time, I would say the odds 
might be more like burning up in the middle of the Sahara 
Desert or something like that. So hopefully----
    Senator Feinstein. Now, you mentioned two things in your 
new house, the ventilation----
    Mr. Miller. Yes.
    Senator Feinstein. Do you suspect that's how your house 
caught fire?
    Mr. Miller. That would be a possibility. One of the things 
that--and you had mentioned this--and apparently fire-safe 
homes in Rancho Bernardo, and they were just burned. They were 
in a high wind. There was a structure upwind from my house.
    When we saw the fire coming, this house was virtually 
disintegrating. Very large burning objects, fire--were coming 
pretty much directly toward us. So that was the time to get 
out.
    So that could've penetrated the structure through glass or 
possibly even a wall. Because somebody had clocked the winds in 
that area at over 90 miles per hour, so this is hurricane force 
winds with flaming objects blowing right directly toward you.
    Senator Feinstein. Well, thank you very much for your 
testimony. It's very much appreciated. If there's anything we 
can do to help, let us know. I've got a good colleague here. 
We'll try and help.
    Mr. Miller. Okay.
    Senator Feinstein. Thank you. Mr. Poizner----
    Mr. Miller. Thank you for inviting me.
    Senator Feinstein. Please wait, because there will be other 
questions.
    Mr. Miller. Okay.
    Senator Feinstein. Mr. Poizner, welcome. It's good to see 
you. Thank you and everyone else for waiting this length of 
time. We do appreciate it.
STATEMENT OF STEVE POIZNER, COMMISSIONER, CALIFORNIA 
            DEPARTMENT OF INSURANCE
    Mr. Poizner. Sure. Nice to be here.
    Senator Feinstein. I'm very interested in your comments.
    Mr. Poizner. First of all, let me just say that there are 
2,100 families that lost everything in these southern 
California fires. My heart goes out to these folks. Senator, as 
you said, other than losing a family member, there's nothing 
worse. You lose everything. Your memorabilia, your photos, 
everything.
    When I was elected a year ago as Insurance Commissioner 
here in California, one of my chief duties immediately became 
focused on helping people that survived these fires get back on 
their feet as quickly as possible.
    At the Department of Insurance, I do have 1,300 employees 
that have extensive experience at this. So the day after the 
fires started, I had teams of people down here in southern 
California assessing the situation.
    We do now believe that the total personal property damage 
will be close to $2 billion. There is a--in addition to the 
homes that were destroyed, there were several hundred 
businesses and about 600 other non-residential structures.
    A total of 33,000 insurance claims have been filed so far. 
We do believe that of all the money that will help rebuild 
these homeowners and these businesses, at least 80 percent will 
be coming from insurance companies. Hence, my role as Insurance 
Commissioner.
    So my handout today lists the key areas that we have--begin 
to implement, broken out in four areas that describe our plan 
to help rebuild southern California, since the--at least $1.6 
billion will be coming from insurance companies.
    Our activities at the Department of Insurance really fall 
into four categories, all focused on helping survivors get back 
on their feet as quickly as possible.
    Category number one is survivor outreach, and really just 
educating survivors on their rights and responsibilities and 
the legal obligations of insurance companies.
    Second category is survivor protection, mainly against 
these scam artists that show up at these natural disaster 
sites. Number three category is--has to do with expediting 
payments from insurance companies. There's all kinds of things 
we can do at the Department of Insurance to cut through the 
redtape to get these people paid as quickly as possible, and 
we're doing that.
    The last category has to do with long-term mitigation 
plans. You heard the Chief of CAL FIRE describe our partnership 
that we've put together in this area. Let me just quickly, 
given time, just highlight some of the key programs we're 
implementing in each of these four categories.
    With regards to survivor outreach, within days of the fire, 
I sent a strike force from my Consumer Services Division to be 
here on the ground to interact directly with the survivors of 
the fire.
    We were manning all the one-stop shops. We held town halls. 
We extended our 800 number hotline. We set up special places on 
our website to provide information. We went door to door, in 
some cases, to get the information directly into the consumers' 
hands, the hands of survivors.
    That was key, and I had several dozen people from my 
Consumer Services Division handling that direct consumer 
outreach activity.
    Second category had to do with protecting these survivors 
against these scam artists. As we all know, these terrible 
natural disasters bring out the best in people, like we saw in 
San Diego, when people really stepped up to provide food and 
shelter for the survivors, and it also brings out the worst in 
people, unfortunately.
    It is like clockwork. Every time there's a natural disaster 
in the State, these scam artists show up, pretending to be 
contractors or claims adjusters, and they're trying to rip off 
victims, trying to victimize them twice.
    We're simply not going to let that happen. We know that we 
can nip it in the bud by having my law enforcement folks--I 
have 300 fraud investigators, police officers--by teaming up 
with local law enforcement officials, we can really make a big 
impact, and that's exactly what we've done.
    I formed a southern California Insurance Fraud Taskforce 
with the San Diego County District Attorney and the San Diego 
County Sheriffs and other law enforcement officials, together 
with about 150 of my fraud investigators, and we've arrested 10 
people so far, mainly undercover work, where, with the 
permission of the homeowner, we're disguised as homeowners 
ourselves, and then these criminals come to us, pretending to 
be who they're not, and we' ll arrest them.
    By being very public about our activities, we're able to 
nip it in the bud. That's exactly what we did in the South Lake 
Tahoe fires, and by being here early and in force, we've been 
able to really minimize this type of criminal activity.
    The third category is really cutting through the redtape to 
get this $1.6 billion paid as quickly as possible so homeowners 
can get back on their feet. We've already been able to secure 
over $330 million of insurance payments for these victims. The 
one thing that I wanted to make sure of is that the insurance 
industry had no reasons, no excuses not to process these claims 
as quickly as possible.
    So I've been in contact with the CEOs of all the major 
insurance companies here within days of when the fire started, 
and they all told me: ``We're going to be overwhelmed by this. 
Thirty-three thousand claims is a huge number of claims.''
    So with--a few days after the Governor declared an 
emergency, I declared an insurance emergency, which is 
something California statutes allow me to do.
    By declaring an insurance emergency, I was able to 
authorize insurance companies to bring in out-of-state claims 
adjusters from all over the country. That was over 500 of them 
that have come into the State--they're not normally allowed to 
do this--in order to process these claims as quickly as 
possible.
    So that was a key step that's been really effective at 
allowing the insurance industry to stay on top of all these 
claims.
    Finally, with regards to long-term mitigation activities, 
it's ironic that the MOU that the Director of CAL FIRE referred 
to between the Department of Insurance and CAL FIRE, we signed 
that MOU, which had to do with long-term mitigation activities, 
one week before the fire started.
    There's three aspects of this MOU that we're now beginning 
to implement in a bold way. The first is consumer education. 
When I took a tour of the damaged areas, which I've spent a lot 
of time down here in southern California, and I've met with the 
firefighters.
    These firefighters would tell me they would go into these 
neighborhoods. The neighborhoods would be ablaze. Houses would 
be on fire all over the neighborhood, except a few houses 
weren't on fire at all, and how's that? Well, of course, these 
mitigation techniques actually work in most cases.
    Now, when the winds are blowing so rapidly, sometimes, no 
matter what you do, you're going to get consumed. But in a lot 
of cases, these mitigation programs do indeed work.
    So CAL FIRE and the Department of Insurance and the 
insurance industry, we're going to launch a series of education 
programs to really educate consumers, homeowners in California 
about what they need to do.
    The second thing we're going to do is train insurance 
agents and brokers and underwriters on the latest mitigation 
techniques, and we're going to send this army of experts then 
into the field to meet directly with homeowners.
    Finally, we're going to work with the insurance industry to 
provide greater incentives, so that people will get a discount 
if they actually implement these wise mitigation techniques.
    Let me just conclude by mentioning just a couple other 
things real quickly here. I'd be happy to take your questions. 
First of all, let me just be crystal clear. I was elected 
Insurance Commissioner to protect consumers, and I will do 
whatever it takes to make sure that insurance companies fulfill 
their obligations to policyholders. You can count on that.
    The second thing is I do want to make sure that everyone 
knows how to contact the Department of Insurance. We have an 
800 number, 1-800-927-HELP. We're online, insurance.ca.gov. 
Contact us if you have any questions or problems with your 
insurance company.
    Third, with regards to town halls, we are holding a series 
of town halls here in southern California directly with the 
fire survivors to hear their feedback directly. We have one 
this Thursday, November 29, in Ramona. We have one on December 
5 at 7 o'clock in Running Springs, and then one on December 13 
in Malibu, given the fires there.
    Finally, Senator Feinstein, let me just say with regards to 
your four potential new pieces of legislation, the Fire Safe 
Community Act, the Managing Arson Act, the Mortgages and Renter 
Relief Act, and the Disaster Rebuilding Assistance Act, my team 
and I have closely analyzed all four of these pieces of 
legislation. We strongly support them.
    They will help survivors. They will help the State of 
California. Please let me know how I can help you.
    Senator Feinstein. Thank----
    Mr. Poizner. I'd be happy to take questions.
    Senator Feinstein. I will. Thank you very much. I 
appreciate it. Thank you, Mr. Poizner.
    Senator Feinstein. Mr. Craver.
STATEMENT OF JOE W. CARVER, CHIEF EXECUTIVE OFFICER, 
            SAN DIEGO/IMPERIAL COUNTY AMERICAN RED 
            CROSS
    Mr. Craver. Thank you very much. I am very pleased and 
honored to be here and to represent the American Red Cross in 
this very important hearing.
    For more than 125 years, the American Red Cross has been 
our Nation's partner in preventing, preparing for, and 
responding to all disasters of all types and sizes.
    Each year, our more than 750 chapters across the country 
respond to more than 70,000 disasters, ranging from single-
family home fires to events like California wildfires and 
Hurricane Katrina. Our responsibilities are mandated by the 
congressional charter, and we take that very, very seriously.
    California wildfires. I am pleased to report that your 
American Red Cross performed well in responding to the largest 
evacuation in California history, and the largest relief 
operation in more than 2 years.
    More than 5,400 Red Cross disaster relief workers--90 
percent of those were volunteers--came from all across 
California, and they represented all 50 States in the Union, to 
help shelter, feed, and deliver comfort and hope to those 
affected by the fires.
    In total, the American Red Cross so far has fed over 
350,000 meals, provided over 30,000 overnight stays in our 
shelters, distributed over 225,000 clean-up kits, and needed 
items, provided mental health assistance to over 36,000 
individuals, and provided health services to almost 15,000 
people in need. Our operation here in southern California has 
not stopped and will continue.
    This level of response was enhanced by two investigations 
the American Red Cross has made in the wake of Hurricane 
Katrina. First, in the preposition of supplies particularly 
effective in handling responses, the Red Cross had cots, 
blankets, clean-up supplies, comfort kits, and other supplies 
nearby at easy, accessible warehouses in San Pedro, California 
and Reno, Nevada.
    The second is the importance of partnership and 
relationship building. First and foremost, the strong 
collaboration working relationships with California emergency 
management and our Federal agency partners were critical to the 
success of these operations.
    In addition to strong government relationships, 
collaboration with faith-based organizations in the local and 
nonprofit significantly improved our ability to set up shelters 
and respond to community needs.
    With a diverse population in California, including many 
non-English-speaking residents, our partnerships with diverse 
groups were pivotal to our success. I would like to highlight a 
few examples: Farmworkers CARE Coalition and Border Angels.
    The outreach to the non-English-speaking Hispanic 
communities were essential. The Mexican Red Cross, the Mexican 
Consulate, Catholic Charities, Las Flores Nazarene Church in 
the Carlsbad Shelter area, the Mission Church of the Disciples 
of Jesus Christ, were tremendous supports.
    We gathered information from our local community faith 
organizations, such as Muslim Community Centers of Greater San 
Diego, NAACP, several local affiliates of La Raza, Asian 
American Legal Centers, and the Temple Adat Shalom for 
distribution to clients.
    We worked closely with our strategic partners, such as the 
Southern Baptists, Salvation Army, then the National Council of 
La Raza, to identify needs and to provide those.
    We have just started to work with the 100 Black Men of 
America, the Asian American Justice Centers, and Legal 
Services.
    Red Cross programs and services are only beneficial to 
those who need them and can access them. Diversity in 
partnerships are key to ensure that we can reach all who are in 
need, and we are grateful to our partners and helped us deliver 
our services during the wildfires.
    Additionally, our relationship with the Business Roundtable 
and individual companies resulted in generous offers of 
assistance from Corporate America.
    Observations. Madame Chairwoman, the one observation I'd 
like to convey today is about the charitable sector. The very 
nature of charitable organizations is to address needs--needs 
that perhaps are not met by government or social services, or 
that are better left with a neighbor helping neighbor model.
    The American Red Cross are generous in support in the 
response of local scale disasters. During Hurricane Katrina, we 
told the American people it would cost our organization more 
than $2 billion, and they generously gave.
    Our work so far with wildfires have cost almost $15 
million, and the Americans have given us enough money to cover 
these costs. We are thankful to each one of our donors with 
their compassion and generosity.
    Americans want their charitable dollars to go directly into 
programs' activities, like feeding and sheltering, and the 
American Red Cross honors donor intent.
    Yet, somehow, we must pay for the everyday operation 
expenses, in addition to enhancing our infrastructure to meet 
the expectations of our government, our clients, and more 
importantly, the American people.
    Since Hurricane Katrina, the American Red Cross has spent 
over $100 million on improvements, including 
telecommunications, vehicles, warehousing, and supplies. This 
year, we are providing a projected substantial deficit.
    As members of the disaster increase and as the expectations 
of charitable organizations and their services increase, we 
look to the Federal Government to partner with us and provide 
additional funding to augment our investment in infrastructure 
and capital projects to protect our communities.

                           PREPARED STATEMENT

    The American Red Cross, in conclusion, is proud of the work 
we do for our Nation every single day. We are honored by the 
responsibility bestowed on us by the government and grateful 
for the partnership with others in the nonprofit sector. Thank 
you again for the opportunity for us to appear before you 
today.
    Senator Feinstein. Thank you for all you do.
    [The statement follows:]
                  Prepared Statement of Joe W. Craver
    Chairman Feinstein, Senator Allard, I am pleased to be here on 
behalf of our national Chief Executive Officer, Mark W. Everson, to 
represent the American Red Cross at this very important field hearing. 
My name is Joe Craver, and I serve as the interim CEO of the San Diego/
Imperial Counties Red Cross.
    For more than 125 years, the American Red Cross has been the 
Nation's premier partner in preventing, preparing for, and responding 
to disasters of all types and sizes. Each year, our more than 750 
chapters across the country respond to more than 70,000 disasters--
ranging from single family home fires to events like the California 
wildfires and Hurricane Katrina. Our responsibilities are mandated in 
our Congressional Charter, and we take them seriously.
                          california wildfires
    I am pleased to report that the Red Cross performed well in 
responding to the largest evacuation in California history and our 
largest relief operation in more than two years.
    More than 5,400 Red Cross disaster relief workers--90 percent of 
them volunteers--came from across California and all 50 States to help 
shelter, feed and deliver comfort and hope to those affected by the 
fires. In total, the American Red Cross so far has fed over 350,000 
meals, provided over 30,000 overnight stays in our shelters, 
distributed over 225,000 cleanup kits and needed items, provided mental 
health assistance to over 36,000 individuals, and provided health 
services to almost 15,000 people in need. And our operations here in 
southern California continue.
    This level of response was enhanced by two specific investments the 
Red Cross made in wake of Hurricane Katrina. First, pre-positioning 
supplies was particularly effective in aiding our response. The Red 
Cross had cots, blankets, cleaning supplies, comfort kits and other 
supplies nearby in easily accessible warehouses in San Pedro, CA and 
Reno, Nevada.
    The second is the importance of partnerships. In California, the 
Red Cross was able to set up shelters more quickly because of our 
collaboration with faith-based organizations and other local and 
national nonprofits. With the diverse population in California, 
including many non-English speaking residents, our partnerships with 
diverse groups were pivotal to our success. I would like to highlight a 
few examples:
  --Working with organization such as Farm Worker CARE Coalition and 
        Border Angels, we were success in delivering clean-up kits, 
        water, meals and supplies to under-served communities;
  --Outreach to the non-English speaking Hispanic community was 
        essential, and our partners in the Mexican Red Cross, Mexican 
        Consulate, MAAC Project, San Ysidro Health Center, Community 
        Housing Works, La Roca Communidad Cristiana (Chula Vista 
        shelter site), Las Floras Nazarene Church (Carlsbad shelter 
        site), and the Missionary Church of the Disciples of Jesus 
        Christ were of tremendous support; and
  --We gathered information from faith organizations such as Muslim 
        Community Center of Greater San Diego and Temple Adat Shalom 
        for distribution to clients.
    Red Cross programs and services are only beneficial if those who 
need them can access them. Diversity and partnerships are key to ensure 
that we can reach all who are in need, and we are grateful to all our 
partners who helped us deliver our services during the wildfires.
    Additionally, our partnership with the Business Roundtable and 
individual companies resulted in generous offers of assistance from 
corporate America.
                              observations
    Madam Chairwoman, the one observation I would like to convey today 
is about the charitable sector. The very nature of charitable 
organizations is to address needs--needs that, perhaps, are not met by 
government or social services, or that are better left with a 
``neighbor helping neighbor'' model.
    The American people are generous in their support of our responses 
to large-scale disasters. During Hurricane Katrina, for instance, we 
told the American people it would cost our organization more than $2 
billion--and they generously gave. Our work so far on the wildfires has 
cost almost $15 million, and Americans have given us enough money to 
cover these costs. We are thankful to each one of our donors for their 
compassion and generosity.
    Americans want their charitable dollars to go directly into program 
activities--like feeding and sheltering--and the American Red Cross 
goes to great lengths to honor donor intent. Yet, somehow we must pay 
for our every day operational expenses in addition to enhancing our 
infrastructure to meet the expectations of our government, our clients 
and the American people.
    Since Hurricane Katrina, the American Red Cross has spent more than 
$100 million on improvements--including telecommunications, vehicles, 
warehouses, and supplies. This year, we are projecting a substantial 
deficit. As the numbers of disasters increase, and as expectations of 
charitable organizations and their services increase, we will look to 
the Federal government for additional funding to augment our investment 
in infrastructure and capital projects.
                               conclusion
    Madam Chairwoman, Senator Allard, the American Red Cross is proud 
of the work we do for our Nation every day. We are honored by the 
responsibilities bestowed on us by the government, and grateful for our 
partnerships with others in the nonprofit sector. I thank you again for 
the opportunity to appear before you today, and I look forward to our 
continued work together. I would be happy to entertain any questions 
you may have.

    Senator Feinstein. Mr. Larson--and thank you, Mr. Larson, 
for yesterday, as well. I thought it was very interesting. 
Thank you for being a part of it.
STATEMENT OF ERIC LARSON, EXECUTIVE DIRECTOR, SAN DIEGO 
            COUNTY FARM BUREAU
    Mr. Larson. Thank you, Senator Feinstein and honorable 
members of the committee. Thank you for asking about what's 
happening on the farms in San Diego County.
    In addition to our reputation as a vibrant urban and 
tourist center, San Diego County is home to the 12th largest 
farm economy amongst all counties in the United States. We rely 
on high-valued crops to overcome the cost of land and the high 
cost of imported water.
    Our climate and terrain lend themselves well to crops we 
grow, but those same attributes make our region vulnerable to 
fire. Because farms here are small--60 percent of our more than 
5,000 farms are 10 acres or smaller--they are not contiguous 
and they're disbursed throughout the region. This disbursal 
often places them in the more fire-prone areas adjacent to 
native brush.
    This resulted in nearly 3,000 acres of farmland damaged or 
destroyed and more than $42 million in crop losses. The actual 
cost to farmers will go much higher when losses to irrigation 
systems, equipment, and several years of lost income while new 
trees and plants mature are calculated. Plus, there will be the 
cost of new financing to overcome these losses.
    When fires blew into the areas with farms, little defense 
for farms was available, as firefighting capacity was 
appropriately directed to structures and public safety. As with 
urban evacuations, farmers took what they could and left. The 
difference between them and their urban neighbors that lost 
their homes, when the farmers returned, many had lost their 
livelihoods.
    Once the fires had passed, several issues arose for 
farmers. The first was difficulty in gaining access back onto 
farms to feed livestock, milk cows, or irrigate crops because 
of concerns about security for unprotected evacuated 
properties. The matter is under review by local authorities, 
and we hope for a reasonable solution.
    The next problem was the municipal water systems that took 
days to return to full service, while crops went unwatered, 
resulting in additional losses to farmers that weren't damaged 
by the fires.
    As time has passed, farmers have reviewed their options and 
the paramount concern is the financial resources needed to 
repair irrigation systems, clear debris and unsalvageable 
crops, replace equipment, and buy trees and plants for 
replanting.
    As we look to the future, the greatest financial challenge 
for farmers who choose to replant will be the multiple years 
without income while trees and plants mature to productive 
size.
    The U.S. Department of Agriculture's Farm Service Agency 
and Natural Resources Conservation Service have responded 
quickly and have been attentive to farmers' needs. However, the 
resources available through those agencies has been very 
limited.
    At this time, $6.6 million has been allocated to two 
programs for debris removal, irrigation repair, fence 
replacement, and emergency erosion controls. None of those 
funds were directly available for fire assistance, but were 
diverted from other programs in California.
    Because these funds are from other programs, farmers are 
facing deadlines as early as this Friday to complete 
application processes. While this assistance is greatly 
appreciated, it does require farmers to self-finance the 
repairs and then seek reimbursement. This may put the relief 
out of reach for farmers who have taken heavy losses and now 
have no income.
    Others programs that could help farmers remain unfunded. 
The best example would be the Tree Assistance Program to help 
replace trees and vines that were lost. While we hope this 
program receives funding, it is important to note that it is 
restrictive and would not be available to farmers who produce 
cut flowers from perennial shrubs. Hopefully, that can be 
rectified through legislation.
    Now, the Farm Service Agency was quick to announce the 
availability of emergency low-interest loans right after the 
fires. However, eligibility requires that an applicant be 
refused credit by at least two traditional lenders.
    In most cases, that would mean farmers will be faced with 
accepting new debt at market rates, and not have access to the 
low-interest loans, because the real estate assets they have, 
even though it's not cash and not liquid, it is nonetheless an 
asset.
    Another area of concern is crop insurance. Many crops 
produced in San Diego County do not have access to crop 
insurance. Even those covered by crop insurance will not be 
helped with the massive cost of replacing infrastructure and 
crops.
    In general, crop insurance is confusing because of annually 
changing formulas, and with exclusions for such risks as 
quarantines and fires that are not deemed natural disasters, 
crop insurance has severe limitations.
    In closing, I'd like to restate that Federal officials have 
been readily available and sincerely trying to help. The 
problems have been due to funding and programs that do not 
match the needs of farmers in southern California, where land 
and crop replacement costs are high.
    It is important that farmers who suffered fire damage have 
the opportunity to reestablish their productivity for the good 
of the community.

                           PREPARED STATEMENT

    One seldom-discussed aspect of that is the fact that 
irrigated crops often acted as effective firebreaks. In most 
every case, fires that moved onto irrigated farmland did not 
pass through and out the other side. So farms that are 
reestablished will help again in fire suppression.
    Thank you for your concern.
    Senator Allard. Thank you, Mr. Larson.
    [The statement follows:]
                   Prepared Statement of Eric Larson
    Despite our reputation as a vibrant urban and tourist center, San 
Diego County is home to the twelfth largest farm economy among all 
counties in the Nation. We rely on high-valued crops to overcome the 
cost of land and imported water, illustrated by the fact we are the 
country's leading producer of nursery crops and avocados. Our climate 
and terrain lend themselves well to the crops we grow, but those same 
attributes make our region vulnerable to fire.
    Because farms here are small--60 percent of our more than 5,000 
farms are 10 acres or smaller--they are not contiguous and are 
dispersed throughout the region. This dispersal often places them in 
the more fire-prone areas adjacent to native brush. This resulted in 
nearly 3,000 acres damaged or destroyed and more then $42 million in 
crop losses in the recent wildfires. The actual cost to farmers will go 
much higher when losses to irrigation systems, equipment, and several 
years of lost income while new trees and plants mature are calculated. 
The cost of financing will also add a burden.
    When the fires blew into areas with farms, little defense for the 
farms was available as firefighting capacity was appropriately directed 
to structures and public safety. Additionally, farms on the side of 
steep slopes or in canyons were very vulnerable. As with urban 
evacuations, farmers took what they could and left with many returning 
to discover the loss of their livelihood. Several lost their homes as 
well.
    Once the fires had passed, several issues arose for farmers. The 
first was difficulty gaining access back onto farms to feed livestock, 
milk cows, or irrigate crops because of concerns about security for 
unprotected evacuated properties. That matter is under review by local 
authorities and we hope for a reasonable solution. The next problem was 
the municipal water systems that took days to return to full service 
while crops went unwatered, resulting in losses.
    As time has passed, farmers have reviewed their options and the 
paramount concern is the financial resources needed to repair 
irrigation systems, clear debris and unsalvageable crops, replace 
equipment, and buy trees and plants for replanting. As we look to the 
future the greatest financial challenge for farmers who choose to 
replant will be the multiple years without income while trees and 
plants mature to productive size.
    The United States Department of Agriculture's Farm Service Agency 
and Natural Resources Conservation Service have responded quickly and 
been attentive to farmers'' needs. However, the resources available 
through those agencies have been limited. At this time $6.6 million has 
been allocated to two programs for debris removal, irrigation repair, 
fence replacement, and emergency erosion controls. It is my 
understanding that none of these funds were directly available for fire 
assistance, but were diverted from other programs in California. 
Because the funds are from other programs, farmers are facing deadlines 
as early as this Friday to complete the application process. While this 
assistance is greatly appreciated, it does require farmers to self-
finance the repairs and then be reimbursed. This may put the relief out 
of reach for farmers who have taken heavy losses and now have no 
income.
    Other programs that could help farmers remain unfunded. The best 
example would be the Tree Assistance Program to help replace trees and 
vines that were lost. While we hope this program receives funding, it 
is important to note that it is restrictive and would not be available 
to farmers who produce cut flowers from perennial shrubs. Hopefully 
that can be rectified through legislation.
    The Farm Service Agency was quick to announce the availability of 
emergency low-interest loans. However, eligibility requires that an 
applicant be refused credit by traditional lenders. In most cases that 
will mean farmers will be faced with accepting new debt at market rates 
and not have access to the low-interest loans.
    Another area of concern is crop insurance. Many crops produced in 
San Diego County do not have access to crop insurance. Even those 
covered by crop insurance will not be helped with the massive cost of 
replacing infrastructure and crops. In general, crop insurance is 
confusing because of annually changing formulas and with exclusions for 
such risks as quarantines and fires that are not deemed natural 
disasters, it has severe limitations.
    In closing, I would like to restate that Federal officials have 
been readily available and sincerely trying to help. The problems have 
been due to funding and program limitations. It is important that 
farmers who suffered fire damage have every opportunity to reestablish 
their productivity for the good of our community. One seldom discussed 
aspect of that is the fact that irrigated crops often acted as 
effective fire breaks.
    Thank you for you concern and please feel free to call upon the 
Farm Bureau at any time in addressing these issues.

    Senator Allard. Now, Dr. Keeley, we're ready to hear your 
testimony.
STATEMENT OF DR. JON KEELEY, RESEARCH ECOLOGIST, 
            WESTERN ECOLOGICAL RESEARCH CENTER, U.S. 
            GEOLOGICAL SURVEY, DEPARTMENT OF THE 
            INTERIOR
    Dr. Keeley. Madam Chairman and members of the subcommittee, 
thank you for the opportunity to participate in this panel. I'm 
a Research Ecologist with the U.S. Geological Survey. I know 
you have copies of my written testimony, so I will just 
summarize some of the highlights.
    I'm here today to represent the fire research community, 
and in addition to myself, there are a number of USGS research 
scientists actively doing fire research in the region.
    Now, I grew up in southern California. I know that most 
southern Californians who have lived here very long recognize 
that large, high--fast--high-intensity, fast-moving wildfires 
are a recurring phenomenon on this landscape. I think that 
understanding their causes is critical to any strategy aimed at 
reducing community vulnerability.

                            SOURCE OF FIRES

    The first thing that I think is most critical to recognize 
is that these are not forest fires. Only about 3 percent of the 
recent 2007 fires occurred in forests. The bulk of the wildland 
fuels that fed these fires were native shrublands, known as 
chaparral and sage scrub.

                            NATURE OF FIRES

    This is important, because fires and fire management 
impacts have been very different between western forests and 
California shrublands. First, in Western forest, fires are 
naturally low-intensity that burn dead twigs and branches on 
the forest floor. In shrublands, fires are naturally high-
intensity and consume the entire shrub canopies, leaving most 
of the landscape bare.

                       POLICY OF FIRE SUPPRESSION

    Fire suppression has excluded fire from forests and allowed 
unnaturally high levels of fuels to accumulate. These fire 
suppression efforts, as we've already heard from a number of 
participants this morning, have most likely contributed to many 
of the high-intensity fires that we've seen in recent years in 
parts of the Western United States.
    On the other hand, a policy of fire suppression in 
chaparral shrublands has never resulted in excluding fires from 
these landscapes, and in fact, we've barely been able to keep 
pace with the ever-increasing number of human-caused fires, 
primarily because of the occurrence each autumn of these gale 
force Santa Ana winds, which generate extreme fire weather.
    There is increasing recognition that attempts to modify 
wildland fuels in order to prevent catastrophic fires have very 
limited effectiveness on these landscapes.
    The most recent 2007 fires, which burned at least 75,000 
acres that previously burned in 2003, stand as convincing 
evidence to many of us that extensive fuel modification 
projects will not stop such fires when driven by extreme Santa 
Ana winds.
    Now, that's not to say that fuel modification has no role 
on this landscape. I think all of us here agree that certainly, 
fuel treatments around homes are absolutely necessary, 
primarily to provide defensible space for firefighting 
operations.

                               RESIDENTS

    It's troubling, though, that when many homes--when one 
looks at many of the homes that were lost in these recent 
fires, we see many of the residents did everything right, in 
terms of clearance around their home. So it's evident that 
treatments alone are not going to be sufficient to solve the 
fire problems.
    In this respect, Madam Chairman, I think your recent focus 
on zoning issues is, in the minds of many of us in the fire 
community, the right step. It's the area where I think we're 
likely to effect the greatest change in the future.
    In my written statement, I have a number of suggestions 
about planning issues, as well as fire prevention issues. I'm 
more than happy to work with you in the future on these issues 
with more specific suggestions for research in that area.
    Now, let me turn to post-fire responses. It's widely 
understood that the vast majority of the wildland landscape in 
this part of the world that burns in these large fires does not 
require any sort of intervention. Indeed, intervention may even 
be counterproductive.

                           SHRUBLAND RESEARCH

    We know from detailed research studies that these shrubland 
ecosystems are highly resilient to high-intensity wildfires, 
and recovery within a few years is usually guaranteed if left 
alone.
    The key to successful post-fire management is to focus on 
those areas where there are human values at risk and good 
reason to believe the natural regeneration processes will not 
be sufficient to provide an acceptable level of protection.
    Research over the past several decades has shown that 
seeding, typically using grass seeds that are aerially seeded, 
is ineffective at reducing erosion or landslides on our 
landscapes. This is because California rainfall patterns are 
very unpredictable.

                          MANAGEMENT PRACTICES

    Other management practices are far more effective at 
stabilizing burn slopes. One such practice is the use of 
physical barriers, such as weed-free hay mulch, which serves as 
a barrier to rainfall and helps to stabilize the slope and 
prevents sedimentation.
    Also, hay bales placed at the bottom of the slope have 
proven effective at containing sediments before they impact 
value that's at risk. All of these are more likely to provide 
predictable protection than practices such as seeding.
    Now, although the smoke from the wildfires has cleared, the 
danger is not over. Winter rains could trigger other hazards, 
such as flash floods and debris flows. USGS is conducting 
research and developing public safety products addressing these 
three major consequences of the wildfires.
    The increased risk of flooding and debris flows, the impact 
on human health of possibly toxic ash, and the impact of burned 
ecosystems on endangered systems, are all areas that USGS is 
actively working on.

                           PREPARED STATEMENT

    Let me just conclude with--by saying that a key resource 
concern to many of us who study fires in this region is how to 
reduce further burning, because of the potential negative 
impacts on these landscapes. Most of these ecosystems have to 
go for at least a couple decades without a repeat fire in order 
to recover fully.
    Although these species that make up our ecosystems are 
adapted to periodic fires, frequent fires have devastating 
impacts on their long-term survival.
    In this regard, serious attention should be given to the 
huge area of overlap in the areas burned in 2003 and 2007, as 
it seems likely that the health of those landscapes is 
threatened with loss of native biodiversity and invasion by 
non-native species.
    Madam Chairman, this concludes my remarks. I will be 
pleased to answer questions or help in any way I can.
    [The statement follows:]
                Prepared Statement of Dr. Jon E. Keeley
    Madam Chairman and members of the subcommittee, thank you for the 
opportunity to join in this discussion of the issues raised by the 
catastrophic 2007 southern California wildfires.
    The fire community, including USGS, conducts fire-related research 
to meet the varied needs of the land management community and to 
understand the role of fire on the landscape; this research includes 
fire management support, studies of post-fire effects, and a wide range 
of studies on fire history and ecology. The U.S. Department of 
Agriculture (USDA) and the Department of the Interior (DOI) are active 
participants in the National Fire Plan, which is a long-term effort 
focused on helping to protect communities and natural resources. Part 
of this program includes the DOI and USDA Joint Fire Science Program, 
authorized and funded by Congress in 1997 to develop information and 
tools for managers dealing with wildland fires. My testimony today 
synthesizes work done by the fire science community, including the U.S. 
Forest Service, the USGS, and academia, over several decades.
       southern california--home to large, catastrophic wildfires
    Large, fast-moving, high-intensity wildfires are a recurring 
phenomenon on southern California landscapes. Understanding their 
causes is a critical first step to any strategy aimed at reducing 
community vulnerability to these events.
    These fires are not new to this landscape. There is a rich history 
of such events that is well documented in newspaper reports from the 
latter half of the 19th century. Indeed one of the largest, if not the 
largest, wildfire in California history occurred during the last week 
of September 1889 and burned much of Orange County and a significant 
part of northern San Diego County. This fire had very minor societal 
impacts. What has changed today is not the size or intensity of fires 
but rather the size and distribution of the human population in the 
region.
    At the outset, it is critical to understand that these are not 
forest fires. The little forest that exists in southern California is 
limited to higher elevations, some canyons and urban areas. It is 
estimated that no more than 3 percent of the recent 2007 fires in the 
region occurred in forests [data from Geospatial Multi-Agency 
Coordination (GEOMAC), geomac.usgs.gov]. The remaining 97 percent 
occurred in lower elevation shrublands and urban areas, burning native 
shrublands such as chaparral and sage scrub, non-native grasslands and 
urban fuels (structures and landscaping).
    This is important because fires and fire management impacts can be 
very different between western forests and California shrublands. The 
type of fire naturally sustained in some western ponderosa pine forests 
is a low-intensity fire that burns dead twigs and branches on the 
forest floor. In chaparral shrublands, fires are naturally high-
intensity and consume the entire shrub canopies, leaving bare much of 
the landscape.
    This distinction is very important in understanding how fire 
management practices have affected past fire activity and may impact 
current and future fire activity. Understanding the unique 
characteristics of shrubland wildfires is critical to making planning 
and management decisions that will minimize the impacts of wildfires on 
our urban and natural environments.
    Historically in western forests, fire suppression excluded fire 
from forests and allowed unnaturally high levels of fuels to 
accumulate. As a consequence, in many (though by no means all) western 
forests, high-intensity fires that consume entire forests are a partial 
result of fire protection efforts during the past century.
    In the past, it was argued that the same applied to California 
shrubland wildfires; however, both scientists and managers are rapidly 
approaching a consensus that these arguments do not apply as directly 
here in the southern half of California, west of the desert. Despite a 
policy of fire suppression, we have never been able to exclude fire and 
have barely kept pace with the ever-increasing number of human-caused 
fires that has paralleled population growth in the region (Keeley and 
others, 1999). The primary reason that fire exclusion has not been 
possible in California is the annual occurrence each autumn of periods 
of gale-force Santa Ana winds that produce extreme fire-weather 
conditions (Keeley, 2006).
    In the past, agencies such as Cal Fire, the U.S. Forest Service, 
the Bureau of Indian Affairs, the Fish and Wildlife Service, the 
National Park Service, and the Bureau of Land Management have responded 
to catastrophic fire events by renewing efforts to modify wildland 
fuels that they believed responsible for carrying such fires. The most 
recent 2007 fires stand as the most convincing evidence that extensive 
fuel modification projects will not stop such fires. Estimates are that 
across southern California at least 75,000 acres burned through areas 
that previously burned in 2002 and 2003. Clearly, these 4-5 year old 
fuels were incapable of stopping the 2007 fires driven by the extreme 
Santa Ana winds. However, many of these treatments have demonstrated 
their effectiveness in improving the likelihood of successful community 
protection during these events (e.g., protecting Poppit Flat from the 
Esparanza Fire in 2006).
    The 2007 fires could be a turning point for fire, fire management, 
and planning in southern California. Modifying fuels will not prevent 
these fires and was never intended to. However, fuel modification will 
reduce fire intensity within the fuel-modification area and may have 
benefits for fire fighters, who require defensible space in order to 
protect structures from advancing fire fronts and to extinguish fires 
ignited on structures by ember throw. Fuel modifications around homes 
are necessary; however, additional research could focus on outlining 
the most strategically important sites for such pre-fire fuel 
treatments in wildland areas.
    The present vulnerability of homes at the wildland-urban interface 
can be reduced in the future by greater consideration of Santa Ana wind 
patterns and their potential for bringing fires into the urban 
environment. This and other considerations about where homes are 
located relative to wildland fuels have the potential to reduce 
property loss.
    In the past, county, State and Federal agencies have all included 
fire prevention strategies in their arsenal of weapons against 
catastrophic wildfires. There are many opportunities for innovation in 
this area. In the past month, scientists, managers and citizens have 
offered suggestions for new approaches that should be studied in 
response to the 2007 wildfires.
    A renewed focus on ignition sources is needed, particularly those 
sources that are known to be problematic under Santa Ana wind 
conditions. These sources tend to be ignited by equipment operating in 
or near brushy areas, car fires and cigarettes along freeways and 
downed or arcing powerlines.
    Post-fire response to wildfires is an area where we have made 
substantial progress in recent years. It is now widely understood that 
the vast majority of the wildland landscapes burned in large fires do 
not require any intervention, and indeed, intervention sometimes 
results in counterproductive efforts. We know from detailed studies 
that these shrubland ecosystems are highly resilient to high-intensity 
wildfires, and recovery within a few decades is usually guaranteed if 
left alone (Keeley, 2006). Most of the plant species in these 
ecosystems have dormant seed banks that are fire dependent and lie 
dormant for up to a century or more until triggered to grow by 
wildfires. These post-fire species, many of which are only ever seen 
after fire, add immensely to the biodiversity of this region.
    The key to successful post-fire management is to find those areas 
where there are human values at risk and good reason to believe the 
natural regeneration processes will not be sufficient to provide an 
acceptable level of protection. California was a leader early in the 
20th century in the use of artificial seeding of burned landscapes to 
stabilize slopes and reduce runoff. However, we now know that, when 
successful, such seeding operations can have negative impacts on native 
biodiversity. More importantly, seeding has proven to be ineffective at 
reducing erosion on our landscapes. California rainfall patterns are 
very unpredictable. Rather than experiencing the light steady autumn 
rains required to initiate seed growth so that root systems of grasses 
are established by the time of the intense winter rains, we often begin 
the rainy season with intense winter rains. As a result, seeds are 
washed off the slope along with the sediment. There are other 
management practices that are far more effective than seeding. One such 
practice is the use of physical barriers, such as hay mulch. The hay 
mulch serves as a barrier to rainfall and helps to stabilize the soil 
and prevent sedimentation. Hay bales placed at the bottom of the slope 
may contain sediments before they impact values at risk (Keeley and 
others, 2006).
    A key resource concern following these extensive wildfires is how 
to reduce further burning of these landscapes for the one to two 
decades necessary for the native ecosystems to fully recover. Although 
the species that make up these systems are adapted to periodic fires, 
frequent fires have devastating impacts on their long-term survival. In 
this regard, serious attention should be given to the huge area of 
overlap in the areas burned in 2003 and 2007 (as determined from 
GEOMac), as it seems likely that the health of those landscapes is 
threatened with loss of native biodiversity and invasion by non-native 
species.
                improving resilience to multiple hazards
    Although the smoke from the wildfires has cleared, the danger is 
not over. Winter rains could trigger other hazards, such as flash 
floods and debris flows. My testimony to this point has focused on the 
factors that led to the recent firestorm. In addition, USGS is 
conducting research and developing public safety products addressing 
the consequences of the firestorm in three areas: the increased risk of 
flooding and debris flows, the impact on human health of possibly toxic 
ash, and the impact on ecosystems and endangered species.
    In order to address flooding and debris flows, we are preparing 
maps in cooperation with FEMA and California State agencies that show 
debris-flow probability and identify the potential volume of material 
in the flows. These maps are scheduled for release in early December 
and will be used by Burned Area Emergency Response (BAER) Teams, the 
Governor's Office of Emergency Services, FEMA, the Bureau of Indian 
Affairs, U.S. Fish and Wildlife Service, the Bureau of Land Management, 
the National Park Service, and affected counties. These maps will also 
be used in a debris-flow warning system run cooperatively with the 
National Oceanic and Atmospheric Administration (NOAA) National Weather 
Service (NWS). We also are cooperating with NOAA to collect data in the 
coming winter through targeted instrumentation and data collection to 
improve our models and warnings in the future.
    In order to understand potential health impacts from the ash, the 
USGS is sampling and evaluating the composition of ash and burn 
products from wildland and urban fires before the first runoff of the 
rainy season and during the first runoff.
    In order to address the impact on ecosystems and endangered 
species, the USGS is developing an assessment for DOI partners to 
determine populations of species at risk from habitat loss. Biologists 
have been deployed to survey the burned areas that are the known 
locations of endangered species populations. This event provides a 
unique opportunity to better understand fire impacts on biodiversity 
with focus on species lost, ecosystem response, and the threat of 
invasive species. It also provides a unique opportunity to examine the 
significance of burn severity.
    These efforts are part of a new USGS Multi-Hazards Demonstration 
Project in southern California to demonstrate how integrating 
information and products about multiple hazards, including wildfire, 
debris flows, floods, and earthquakes, improves the usefulness of this 
information in reducing the vulnerability of high-risk communities to 
natural hazards. Southern California was a natural choice given that 
the region has one of the Nation's highest potentials for extreme 
catastrophic losses due to natural hazards.
    Interior has the ability to partner with relevant agencies to help 
the 20 million residents of southern California manage the risks ahead 
this winter and to study both the fire and its aftermath so as to 
better understand how to reduce the risks in the future. In addition to 
the current mitigation efforts to protect citizens from the fast-
approaching winter rains, investigations are needed to understand the 
nature and the full extent of the threat from debris flows for the next 
few winters, until a sufficient plant cover is established on the 
hillsides. Effective hazard mitigation from the inevitable future 
wildfires and associated debris flows will only be possible if there is 
an in-depth understanding of the processes. The consequences of fires 
on our environment, including loss of habitat for endangered species 
and the introduction of toxic chemicals from the burn residue into 
ground water and soils, must be documented and analyzed to plan the 
recovery.
                               conclusion
    Scientists have been studying the natural processes discussed in my 
testimony in southern California for decades and thus have the baseline 
data from which we can understand the changes brought about by the 
fires. We have the scientific expertise in wildland fire research to 
help in understanding the ecosystems affected by wildfire and to assist 
land managers in post-fire recovery and rehabilitation in southern 
California. In addition, USGS modeling of fire behavior can help 
improve the placement of homes relative to wind patterns and fire 
behavior.
    Madam Chairman, this concludes my remarks. I will be pleased to 
answer any questions you may have.
                               references
    Keeley, J.E., C.J. Fotheringham, and M. Morais. 1999. Reexamining 
fire suppression impacts on brushland fire regimes. Science 284:1829-
1832.
    Keeley, J.E. and C.J. Fotheringham. 2003. Impact of past, present, 
and future fire regimes on North American Mediterranean shrublands, pp. 
218-262. In T.T.
    Veblen, W.L. Baker, G. Montenegro, and T.W. Swetnam (eds), Fire and 
Climatic Change in Temperate Ecosystems of the Western Americas. 
Springer, New York.
    Keeley, J.E. and C.J. Fotheringham. 2004. Lessons learned from the 
wildfires, pp. 112-122. In R.W. Halsey, editor. Fire, Chaparral and 
Survival in Southern California. Sunbelt Publications, El Cajon, 
California.
    Keeley, J.E., C.D. Allen, J. Betancourt, G.W. Chong, C.J. 
Fotheringham, and H.D. Safford. 2006. A 21st century perspective on 
postfire seeding. Journal of Forestry 104:103-104.
    Keeley, J.E. 2006. South coast bioregion, pp. 350-390. In N.G. 
Sugihara, J.W. van Wagtendonk, K.E. Shaffer, J. Fites-Kaufman, and A.E. 
Thoede (eds), Fire in California's Ecosystems. University of California 
Press.
    Syphard, A.D., V.C. Radeloff, J.E. Keeley, T.J. Hawbaker, M.K. 
Clayton, S.I. Stewart, and R.B. Hammer. 2007. Human influence on 
California fire regimes. Ecological Applications 17:1388-1402.

    Senator Feinstein. Thank you very, very much, Mr. Keeley. 
Since you've just spoken, let me quickly begin with you. 
Patterns of Santa Ana winds, it seems to me that would be a 
good study to look at, whether the pattern is changing or if 
it's cyclical. Do you have any information on that?
    Dr. Keeley. Well, there's certainly information on known 
corridors for Santa Ana winds, and those are relatively well-
documented.
    Senator Feinstein. Was that corridor that took out both 
Cedar and Witch, was that well-documented?
    Dr. Keeley. I'm not sure that that's well-documented. There 
are some good cases in the Santa Monica Mountains where we've 
mapped Santa Ana winds.
    There are people who do modeling of Santa Ana winds, and 
they're able to, I think, provide pretty precise maps if called 
upon to do so.
    I think this is an area where we have the potential for 
effecting change, too. I gave an interview on the radio about a 
month ago, and right after, someone from the Los Angeles 
Planning Department called me and asked me if she could obtain 
information on Santa Ana wind corridors that they might use in 
making risk assessments. So I think there's a need out there.
    Senator Feinstein. Well, if you have any information that 
you can get to us, I would very much appreciate it. Because it 
seems to me that we're into some new phenomenon of these very 
heavy Santa Anas along certain corridors, and I think we should 
map them and we should know how often it's likely to happen.
    So any information or any people I can turn to for that, 
I'd very much appreciate it.
    Dr. Keeley. Well, we certainly will look into getting 
information on that. I think the thing to realize about these 
recent fires is probably not that the Santa Ana winds 
themselves have changed, but we have come across the 
juxtaposition of extreme drought associated with the Santa Ana 
winds.
    When that happens, I think you produce probably the most 
severe fire conditions possible.
    Senator Feinstein. Right, right. Thank you very much.
    Mr. Poizner, we've talked about this before, but it has 
bothered me ever since. I was at a meeting and I happened to 
run into the CEO of Allstate. I had just read that Allstate has 
pulled out of California, will no longer insure homes in 
California.
    I had quite a dustup with him. I kind of felt a little bit 
sorry for him after I finished. But I thought--this is a 
concept which I would call cherry-picking in the United States. 
Allstate wants to give insurance where they've got the best 
chances, and therefore, areas that are catastrophe-prone--
earthquake-prone, fire-prone, hurricane-prone--they're simply 
not going to give home loans in.
    Do you believe that we should pass legislation--the CEO--
and I've been having a correspondence with him--suggests that 
there be a kind of emergency fund that the Federal Government 
would put up that would provide help in these particularly 
catastrophic-prone areas. Do you have any suggestions in that 
regard?
    Mr. Poizner. Well, first of all, with regards to Allstate, 
as you and I have spoken about, after Allstate made the 
announcement that they don't want to write new homeowners' 
policies in this State, I then began to examine, well, what are 
they doing with their million existing homeowner policies that 
they have an obligation to continue to service?
    I did submit to them orders to show cause to make sure that 
they weren't gouging their existing customers on their way out. 
I totally disagree with what Allstate's doing. They're doing it 
all around the country.
    I also began to talk to the CEOs of the other major 
insurance companies to see if this was a trend, and 
fortunately, not here in California. California's a very 
attractive market for insurance companies.
    Senator Feinstein. Isn't Farmers the big other home 
carrier?
    Mr. Poizner. State Farm and AAA.
    Senator Feinstein. Yes, okay.
    Mr. Poizner. I've spoken with the CEOs of all of those 
companies, and they're all here to stay. They're all happy to 
take up the slack as Allstate exits the market.
    So we have about 200 homeowners insurance companies in 
California. It is a healthy, competitive market, fortunately, 
and Allstate's really a lone ranger here in California, in 
terms of their desire not to expand here. That's good news.
    Also, with regards to the $1.6 billion in losses, now, 
these insurance companies have been reserving for this type of 
loss for a long time. That's the business that they're in is 
protecting and paying out when these legitimate claims come up. 
They can easily handle the $1.6 billion.
    Part of my duty is to make sure that these insurance 
companies are financially solvent and they can handle this.
    Senator Feinstein. Good.
    Mr. Poizner. With regards to Federal backstops, like with 
terrorism insurance, there are certain types of natural 
disasters that are really hard to model. If actuaries can't get 
their hands around it, then the private sector gets nervous 
about, well, how can they build a business model to provide 
insurance for things they can't even predict?
    Now, when it comes to fires and some floods and other types 
of theft and auto accidents, those kinds of things, life 
insurance, they have pretty good models where they can reserve 
for these kinds of things. They can build models to provide the 
kind of protection that they need to be in business.
    But, for example, earthquake insurance, on the other hand, 
is something that's extremely hard to model. The losses don't 
happen very often, and when they do happen, it's catastrophic.
    So I do support the idea of State and Federal participation 
in providing for some claims paying capacity to partner with 
the insurance industry so that we can have some capacity from--
earthquakes is my bigger fear.
    To be honest with you, fire insurance, there's plenty of 
available fire insurance in the State of California. Earthquake 
insurance, on the other hand, hard to come by.
    Senator Feinstein. Are you working on that? I'd be most 
interested to work with you on that.
    Mr. Poizner. We are. I'm on the board of the California 
Earthquake Authority, along with the Governor and the 
Treasurer. That was this quasi public sector----
    Senator Feinstein. Yes.
    Mr. Poizner [continuing]. Private sector partnership that 
was formed after Northridge. Do you know that the take-up rate 
for earthquake insurance now is down to 11 percent in 
California? Ten years ago, it was 30 percent.
    So it's a very serious issue, and we have taskforces that 
are studying this issue right now. We hope to have some 
recommendations mid next year.
    Senator Feinstein. Good. Now, let me ask you another 
question. When I went to the one-stop shop and talked with 
victims, I asked them if they had insurance. A number said they 
did not, and yet they owned property.
    My question is, what percentage of people had no insurance, 
do you think? Is it small? Is it modest?
    Mr. Poizner. Under-insurance is a huge problem. Zero 
insurance is a rare problem. Because almost every bank, 
financial institution, before they'll make a loan on a house, 
they'll absolutely require you to have homeowners insurance. So 
very few people don't have mortgages on their homes, and so 
almost all people have some form of insurance.
    If they don't have any insurance at all, of course, there's 
those FEMA programs that can----
    Senator Feinstein. Right. This is----
    Mr. Poizner [continuing]. That can help them out. But 
under-insurance is definitely a more serious issue, as compared 
to no insurance.
    Senator Feinstein. Okay. Well, let me hold up for another 
round.
    Senator Allard?
    Senator Allard. What has happened--again, to you, Steve. 
What has happened to premiums with the recent year here in 
California? Have they gone up or have they stayed pretty much 
the same?
    Mr. Poizner. First of all, in California, there's an 
extensive set of consumer protection laws that do not allow 
insurance companies to change their prices at all----
    Senator Allard. I see.
    Mr. Poizner [continuing]. Without permission from the 
Insurance Commissioner in advance. So my team have been looking 
at this very carefully. As I mentioned a moment ago, Senator, 
the fact is, these insurance companies are in the business of 
taking risks. They've been reserving for this type of risk for 
a long time. My opinion and the opinion of my experts at the 
Department is that there's no need for any price changes at all 
due to these southern California fires.
    Senator Allard. So you're pretty comfortable with the long-
term outlook, as far as insurance companies in California are 
concerned?
    Mr. Poizner. When it comes to homeowners insurance, yes. 
Earthquake insurance, no.
    Senator Allard. I picked that up. Okay. Has there been much 
a problem in them responding to the claims here in California?
    Mr. Poizner. Not this time around, so far. In 2003, there 
was lots of issues. So we learned from that--I've only been 
insurance commissioner for a year, but I studied what happened 
in 2003, and we pounced on it.
    The fact is, I called up all the CEOs. We went there on 
site and called them and said: ``You need to come to these 
evacuation centers. You need to set up mobile centers where you 
can start cutting checks for room and boards to get these 
people out of the evacuation centers.''
    I'm pleased to report, at least so far, the insurance 
companies have been very responsive, not only because the 
Insurance Commissioner of California has huge clout, but also 
because they got a huge black eye in 2003. I think they're, at 
least so far, trying to do the right thing.
    But I'm telling you, I'm going to be watching them very 
closely.
    Senator Allard. What--I'm going to move on now to Mr. 
Larson. There was some farms that suffered some damage with 
these fires. Was it--if you took it as a part of the total 
local agricultural economy, what percentage of the local total 
agricultural economy do you think was impacted by the fires?
    Mr. Larson. It's probably going to be in----
    Senator Allard. Well, I guess there's two ways to look at 
it, both from the land basis and then also from an income 
basis, cost basis.
    Mr. Larson. Yes, it's really tough--difficult to tell, 
because we're still assessing those losses. For instance, you 
don't know if you've lost an avocado tree for weeks after the 
fire. You have to go in, you cut it back, and you wait and see 
whether that tree's going to come back.
    But the losses are probably going to be somewhere in that 5 
to 10 percent range of the total farm economy of San Diego 
County and perhaps the total assets of farming in the 
community.
    It's a small number, but because our farms are so small, 
those who took a loss took a very heavy loss. So in those 
cases, the entire farm was lost or more than 50 percent or a 
very large portion of those individuals were lost. It's not 
like we have a few large farms that were burned. We had a 
number of small farms that were heavily devastated.
    Senator Allard. Thank you. Now, Dr. Keeley, and this will 
be my last question for the panel. In your testimony, you 
suggested that fuel treatments, while necessary around homes, 
are not that helpful in dealing with large-scale fires that are 
in sage brush and chaparral ecosystems.
    You indicate that it's more important in how we alter our 
infrastructure; for example, by burying power lines so they 
don't blow over in windstorms and start fires. Could you more 
fully describe the major types of actions we should take in 
altering our infrastructure to reduce fire risks?
    Dr. Keeley. Sure. Let me clarify first, though, I think 
it's important to keep in mind that what we know about the role 
of fuel treatments in these wildfires is they don't have the 
capacity to prevent the spread of the fires. In other words, 
they're not effective barriers.
    That shouldn't be construed to mean they have no role in 
fire management strategies. There are other values to fuel 
treatments, in terms of providing fire operations, so I don't 
want you to think that we rule out any use of fuel treatments.
    What we really do lack in the area of fuel treatments is a 
good understanding of the strategic placement of treatments and 
a good understanding of the costs and benefits. There's a whole 
area of research that we're currently working on in that area.
    Now, in terms of things that we believe could benefit the 
long-term approach to these wildfires are approaches that deal 
with planning issues. For example, we have a good understanding 
of those locations that are particularly dangerous for 
firefighting operations and put homes at extreme risk.
    There's a lot more that could be done to incorporate the 
knowledge about how fire behaves on different terrain into 
planning issues. That's one area that I believe the whole 
zoning issue comes into play and is likely to be very 
effective.

                           WHERE FIRES BEGIN

    We also know, for example, that most fires begin along 
roads in this part of the world. There are things that could be 
done that we haven't really investigated at all.
    For example, southern California puts a lot of resources 
into walls as barriers to noise pollution. Well, there's reason 
to believe that a number of fires that start along roads might 
actually be stopped by small barriers in certain known 
corridors where there are bad fire conditions. So barriers are 
another possibility. We haven't really even looked into their 
potential effectiveness.
    We know that several of the large fires recently started 
from downed power lines or arcing power lines. This is a common 
cause. I know when I was growing up in San Diego County, the 
Laguna fire was started from downed power lines during Santa 
Ana wind events.
    There's reason to believe that maybe some thought about 
constraining the distribution of aerial power lines and 
emphasizing underground power lines in certain corridors where 
we know Santa Ana winds are severe might have some impact. 
These are areas that are amenable to research, and yet, we 
really know very little about what their potential could be.
    Recently, some of the big fires started when heavy 
equipment was being used during Santa Ana wind events in 
wildland areas. We perhaps need to think about investigating 
what sort of constraints might actually effect a change, in 
terms of use of equipment in areas during Santa Ana wind 
conditions?
    Road closures is another area. There are certain areas 
where the public might accept road closures during Santa Ana 
wind events without much complaint, and that could effect 
change. So those are some of the ideas we mentioned.
    Senator Allard. In Colorado--and I'm not sure about this. I 
believe this is correct--it's been mentioned to me that aspen 
will act as a barrier between a pine forest and maybe a 
structure of some kind. Do you have plants in this area that 
would serve as sort of a plant barrier?
    Dr. Keeley. Well, we have had plant barriers in the past. I 
remember talking to the fire management officer on the Cedar 
fire, Rich Hawkins, and he was telling me: ``I grew up in the 
San Gabriel Valley, and we never had fires burn into the 
community.'' The reason was, the community was surrounded with 
citrus. Well, eventually, homes became much more lucrative than 
citrus and the citrus were replaced.
    Today, there is interest in greenbelts around communities. 
For example, a lot of new communities will plan into the 
community a golf course. That golf course invariably is placed 
at the center of the community. There's reason to believe that 
if it was on the periphery, it could serve a dual purpose, in 
terms of reducing the vulnerability to wildfires.
    Senator Allard. Thank you, Madame Chairman. I appreciate 
the opportunity.
    Senator Feinstein. Thank you very much, Senator. 
Congressman?
    Mr. Gallegly. Thank you very much, Senator. Dr. Keeley, 
we've spent the last 3 or 4 hours here discussing this fire, 
and that's what this hearing was all about. But it's no 
revelation that after every fire comes the great potential for 
the next disaster. You hit a little on that with your 
discussion about reseeding and other mitigation measures, so on 
and so forth.
    I was a little perplexed with--and maybe I misunderstood 
you, but talking about doing studies now about why we shouldn't 
reseed and we should use maybe other alternatives. After 100 
years of monitoring wildfires and knowing that the potential 
for a flood exists, how many more studies do we need?
    Dr. Keeley. I certainly think there's need for a lot of 
studies in a lot of areas, but in the areas you're mentioning, 
I think you're absolutely right. I think we know enough to make 
decisions.
    I thought the emphasis that I tried to place in at least 
the written testimony is we know enough about seeding to know 
that it's not a predictable way to alter the outcomes of 
floods. We don't need anymore research on seeding. Not only do 
we know seeding isn't predictable, we also know that mechanical 
approaches are far more predictable and reliable.
    So I think most of us in the fire research community are 
pretty much in agreement that we know enough to avoid seeding 
and rely more on mechanical approaches.
    Mr. Gallegly. But in the absence of the mechanical, we do 
know, while seeding may not be predictable, we know what the 
alternative to not mechanical or not seeding is. That is very 
predictable, and that means massive floods and massive 
destruction.
    Are we prepared to do all of the mechanical things that 
you're talking about right now, in the absence of seeding? 
Although I haven't been convinced that we shouldn't be out 
there aggressively bombing the slopes with seeding until we get 
all these other things in place.
    Dr. Keeley. Well, what we do know from studies in this part 
of the world is these ecosystems have built-in means of 
regeneration.
    Studies that have been done show that the natural 
communities will generate oftentimes far more effectively and 
more rapidly than seeding operations. The bulk of the 
landscape, by and large, doesn't require any attention.
    What we do want to focus on are those parts of the 
landscape immediately adjacent to values at risk--for example, 
roads--where based on the slope and the sediment types----
    Mr. Gallegly. And the flow.
    Dr. Keeley [continuing]. We have reason to believe the 
natural regeneration won't suffice. I think that's what most of 
my colleagues and other Federal and State agencies would 
recommend. Focus on those areas where you have values at risk. 
Leave the rest of the landscape alone, because it's going to 
regenerate probably far better by itself.
    Mr. Gallegly. Okay. Having said far better by itself, then 
would it be safe to say, based on your testimony, in many 
cases, except for the financial aspects of it, that there are 
additional problems with reseeding; reseeding in and of itself 
can create problems?
    Dr. Keeley. There are definitely potential problems with 
reseeding. If you happen to seed during a year where you have 
adequate rains and periodically, you might get these seeded 
species to establish----
    Mr. Gallegly. You'll have more fuel next year.
    Dr. Keeley. Well, you have dual problems. One is, you out-
compete the native vegetation in that site. So you have impacts 
on diversity issues, which is a conservation concern to a lot 
of people.
    But then you also create a fuel source that is much more 
amenable to another fire, because the seeded species generally 
have a much longer fire season. That is a well-documented 
impact of successful seeding operations.
    Mr. Gallegly. Is there going to be any reseeding between 
now and the rainy season?
    Dr. Keeley. Well, I can't speak for what the managers will 
do. I can tell you from my experience that most State and 
Federal agencies, in recent years, have avoided doing seeding. 
Most of the seeding operations have been done at the local 
level.
    Mr. Gallegly. What kind of concern do you have for the 
flood potential in this next cycle?
    Dr. Keeley. It's all a function of what the winter rains 
do. If we have very moderate rains, there may be very little to 
be concerned about.
    If we have significant rains, we have real problems, 
particularly in some of our localities, like in Orange County, 
where the Santiago fire burned into some very narrow canyons, 
like the Majeska Canyon, we saved many of the homes from 
burning, but the slopes have lost everything. Those represent a 
real threat if we get significant rainfall.
    Mr. Gallegly. Mr. Larson, how much can we count on the 
Farmer's Almanac?
    Mr. Larson. Not much.
    Senator Feinstein. Thank you. Thank you very much. Let me 
end this hearing by saying thank you to all the panelists, and 
particularly, to this last panel. It is very much appreciated.
    I think this was very helpful to all of us to give us a 
good overview, not only of what happened, but of lessons 
learned and where we need to go in the future. Now, the 
challenge will be to see whether there's the leadership there 
to bring us where we need to be.
    So thank you all very, very much. Let me say to you, sir, I 
wish you great, good luck when you rebuild. I hope you'll 
invite us to come see this new house so there won't be a three-
peat.
    Mr. Miller. We might have to take you up on that.
    Senator Feinstein. Yes.
    Mr. Miller. In addition, regarding this last testimony, 
this book--it's written by Richard W. Halsey: Fire, Chaparral, 
and Survival in Southern California--addresses a lot of these 
issues. You may be familiar with it.
    Dr. Keeley. I have a chapter.
    Mr. Miller. Oh, do you?
    Senator Feinstein. Oh. All right, good.
    Mr. Miller. I thought--you know, I was looking through that 
just to see, because I thought you sounded familiar, but yes, 
it's an excellent book. If you wanted more information than 
what he has written in his statement, I'd recommend it.
    Senator Feinstein. Well, thank you, Mr. Miller. We'll get a 
copy of it. Thank you very much. Thank you.
    Mr. Miller. Thank you.
    Senator Feinstein. Everybody, thank you.

              STATEMENT SUBMITTED BY SENATOR BARBARA BOXER

    We have received the prepared statement of Senator Barbara 
Boxer that will be made part of the record at this time.
    [The statement follows:]
              Prepared Statement of Senator Barbara Boxer
    I want to thank Senator Feinstein and Senator Allard for holding 
this field hearing on the wildfires that ravaged Southern California in 
late October and early November 2007.
    I also want to thank the many officials from the City of San Diego 
and the Counties of San Diego, San Bernardino, Riverside, Orange, Los 
Angeles, Ventura, and Santa Barbara for their courage and leadership 
during this crisis and the many brave first responders who risked their 
lives every day to get the many massive blazes under control.
    This year's Santa Ana winds brought unprecedented devastation and 
destruction to seven counties in Southern California. The wildfires 
charred 517,267 acres and damaged or destroyed 3,450 structures. One 
hundred thirty-nine people were injured, and tragically ten people lost 
their lives as a result of the fires.
    In the days following the initial outbreak of the fires, I had the 
opportunity to visit the shelter at Qualcomm Stadium and hear first 
hand from families who had lost everything. My heart goes out to all of 
those who have suffered, and I pledge to do all I can to assist those 
with obtaining the additional aid they need.
    As Californians continue to recover and rebuild, it is crucial that 
we examine what went right and what went wrong at every level of 
government, what else we need to do immediately, whether we need 
additional resources, and what long-term lessons can be learned from 
this experience.
    Did communities have enough funds readily available to combat the 
fires? Are enough resources in place to fight future wildfires and 
improve fire-prevention efforts? Will State and local governments 
receive expeditious reimbursement from Federal agencies for their 
extraordinary expenses incurred during this disaster?
    Were military aircraft and other Federal firefighting resources 
adequately utilized by State agencies during the wildfires? What can we 
do to help promote a seamless sharing of Federal, State, and local 
resources in future disasters?
    What steps are Federal and State agencies taking to lessen the 
danger of erosion and landslides in communities where crucial ground 
cover has been burned away as a result of the fires?
    Were appropriate Federal agencies adequately staffed at evacuation 
shelters and Local Assistance Centers? Were Federal staff members able 
to communicate effectively with non-English-speaking fire victims?
    Why was the U.S. Department of Agriculture so poorly represented at 
Local Assistance Centers in rural areas? How can USDA speed payment to 
those impacted by this disaster? How can Congress speed funding for 
USDA programs that are currently authorized by not funded?
    I know that today's hearing will continue to focus on all these 
pressing questions, and I look forward to working with my Senate and 
House colleagues, Federal agencies, State and local officials, and 
community organizations to take whatever steps are necessary to reduce 
the risks and devastating impacts of wildfires.
    To assist California working families with their rebuilding 
efforts, I am proud to co-sponsor two bills with Senator Feinstein: the 
FEMA Mortgage and Rental Assistance Act to reinstate a FEMA program to 
help qualifying individuals make their mortgage or rent payments; and 
the FEMA Rebuilding Assistance Act to increase the amount FEMA pays to 
people whose cost of rebuilding is greater than their insurance 
coverage from $28,000 to $50,000.
    We are also co-sponsoring the Matching Arson Through Criminal 
History (MATCH) Act, legislation to create a national registry and 
require convicted arsonists to report where they live, work, and go to 
school.
    I hope that we can share the results of this hearing with State and 
local agencies in order to compare and coordinate our analyses, best 
practices, and recommendations for the future.

                         CONCLUSION OF HEARING

    Senator Feinstein. Thank you all very much for being here. 
That concludes our hearing.
    [Whereupon, at 1:07 p.m., Tuesday, November 27, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
